<html>
<title> - ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                                ------                                 
   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

=======================================================================

                                (110-44)

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                          MAY 11 AND 16, 2007

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE


 
   ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY INDEPENDENCE

=======================================================================

                                (110-44)

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                          MAY 11 and 16, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
35-926                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California           JOHN R. `RANDY' KUHL, Jr., New 
ELEANOR HOLMES NORTON, District of   York
Columbia                             CHARLES W. BOUSTANY, Jr., 
BOB FILNER, California               Louisiana
ELLEN O. TAUSCHER, California        JEAN SCHMIDT, Ohio
MICHAEL E. CAPUANO, Massachusetts    CANDICE S. MILLER, Michigan
GRACE F. NAPOLITANO, California      THELMA D. DRAKE, Virginia
MICHAEL A ARCURI, New York           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)



                                CONTENTS

                                                                   Page
Proceedings of:

  May 11, 2007...................................................     1
  May 16, 2007...................................................   182

                              MAY 11, 2007

Summary of Subject Matter........................................  viii

                               TESTIMONY

Ayers, Stephen T., AIA, Acting Architect of the Capitol and 
  Deputy Architect/Chief Operating Officer, United States 
  Congress.......................................................    41
Beard, Daniel P., Chief Administrative Officer, U.S. House of 
  Representatives................................................    41
Doan, Hon. Lurita Alexis, Administrator, U.S. General Services 
  Administration.................................................     6
Johnson, Hon. Stephen L., Administrator, U.S. Environmental 
  Protection Agency..............................................     6
Peters, Hon. Mary E., Secretary of Transportation, U.S. 
  Department of Transportation...................................     6
Woodley, Jr., Hon. John Paul, Assistant Secretary of the Army of 
  Civil Works, Department of the Army............................     6

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    54
Arcuri, Hon. Michael A., of New York.............................    55
Brown Jr., Hon. Henry E., of South Carolina......................    57
Carney, Hon. Christopher P., of Pennsylvania.....................    70
Costello, Hon. Jerry F., of Illinois.............................    74
Matsui, Hon. Doris O., of California.............................    76
Mitchell, Hon. Harry E., of Arizona..............................    78
Oberstar, Hon. James L., of Minnesota............................    80

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ayers, Stephen T.................................................    89
Beard, Daniel P..................................................   100
Doan, Hon. Lurita A..............................................   105
Johnson, Hon. Stephen L..........................................   134
Peters, Hon. Mary E..............................................   155
Woodley, Jr., Hon. John Paul.....................................   162

                       SUBMISSIONS FOR THE RECORD

Brown Jr., Hon. Henry E., of South Carolina:

  ``The Big Freeze,'' Time, January 31, 1977.....................    59
  ``The Cooling World,'' Newsweek, April 28, 1975................    67
  ``Green Groups Dismayed as Flights Soar to Record High,'' The 
    Independent (UK), May 9, 2007................................    68
Ayers, Stephen T., AIA, Acting Architect of the Capitol and 
  Deputy Architect/Chief Operating Officer, United States 
  Congress, response to question by Rep. Oberstar................    98

                        ADDITIONS TO THE RECORD

Tennessee Valley Authority, Tom D. Kilgore, President and CEO, 
  written statement..............................................   174
Alliance to Save Energy, list of board and associates............   178

                              MAY 16, 2007

Summary of Subject Matter........................................  xxii

                               TESTIMONY

Altman, Richard L., Executive Director, Commercial Aircraft 
  Alternate Fuels Initiative.....................................   245
Brandt, Alf W., Principal Consultant, Committee on Water, Parks 
  and Wildlife, State of California Assembly.....................   252
Clarke, Andy D. Executive Director, League of American Bicyclists   186
Cohen, Greg, President & CEO, American Highway Users Alliance....   186
Fitzgerald, Steve, Chief Engineer, Harris County Flood Control 
  District, Houston, Texas, on Behalf of the National Association 
  of Flood and Stormwater Management Agencies....................   252
Hall, Edward, General Manager of Engine Technology, General 
  Electric.......................................................   186
Hamberger, Edward, President, Association of American Railroads..   186
Harris, Jeff, Vice President for Programs, Alliance to Save 
  Energy.........................................................   222
Lash, Jonathan, President, World Resources Institute.............   186
May, Jim, President and CEO, Air Transport Association...........   245
McQuade, Michael, Senior Vice President for Science and 
  Technology, United Technologies Corporation....................   245
Millar, William W., President, American Public Transportation 
  Association....................................................   186
O'Brien, Chris, Chairman, Solar Energy Industries Association....   222
Principato, Greg, President, Airport Council International--North 
  America........................................................   245
Prindle, William, Executive Director, American Council for an 
  Energy Efficient Economy.......................................    22
Rader, Tom, President, Colorado Railcar..........................   186
Richter, Brian, Director, Global Freshwater Initiative, The 
  Nature Conservancy.............................................   252
Stewart, R.K., FAIA, President, The American Institute of 
  Architects.....................................................   222
Strout, Linda, Deputy CEO, Port of Seattle, on Behalf of The 
  American Association of Port Authorities.......................   252

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................   277
Carnahan, Hon. Russ, of Missouri.................................   278
Carney, Hon. Christopher P., of Pennsylvania.....................   280
Matsui, Hon. Doris O., of California.............................   283
Mitchell, Hon. Harry E., of Arizona..............................   288
Petri, Hon. Thomas E., of Wisconsin..............................   291
Walz, Hon. Timothy J., of Minnesota..............................   297

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Altman, Richard L................................................   298
Brandt, Alf W....................................................   313
Clarke, Andy.....................................................   326
Cohen, Gregory M.................................................   329
Fitzgerald, Steve................................................   335
Galloway, Gerald E...............................................   344
Hall, Edward.....................................................   350
Hamberger, Edward R..............................................   359
Harris, Jeffrey..................................................   366
Lash, Jonathan...................................................   375
May, James C.....................................................   386
McQuade, J. Michael..............................................   395
Millar, William W................................................   402
O'Brien, Christopher.............................................   408
Principato, Greg.................................................   427
Prindle, William.................................................   433
Rader, Thomas G..................................................   454
Richter, Brian...................................................   458
Stewart, R.K.....................................................   470
Strout, Linda....................................................   482

                       SUBMISSIONS FOR THE RECORD

Hamberger, Edward, President, Association of American Railroads:

  Response to question from Rep. Oberstar........................   215
  Response to question from Rep. Oberstar........................   217

                        ADDITIONS TO THE RECORD

Airbus North America, Allan McArtor, Chairman, written statement.   489

[GRAPHIC] [TIFF OMITTED] T5926.001

[GRAPHIC] [TIFF OMITTED] T5926.002

[GRAPHIC] [TIFF OMITTED] T5926.003

[GRAPHIC] [TIFF OMITTED] T5926.004

[GRAPHIC] [TIFF OMITTED] T5926.005

[GRAPHIC] [TIFF OMITTED] T5926.006

[GRAPHIC] [TIFF OMITTED] T5926.007

[GRAPHIC] [TIFF OMITTED] T5926.008

[GRAPHIC] [TIFF OMITTED] T5926.009

[GRAPHIC] [TIFF OMITTED] T5926.010

[GRAPHIC] [TIFF OMITTED] T5926.011

[GRAPHIC] [TIFF OMITTED] T5926.012

[GRAPHIC] [TIFF OMITTED] T5926.013

[GRAPHIC] [TIFF OMITTED] T5926.014

[GRAPHIC] [TIFF OMITTED] T5926.015

[GRAPHIC] [TIFF OMITTED] T5926.016

[GRAPHIC] [TIFF OMITTED] T5926.017

[GRAPHIC] [TIFF OMITTED] T5926.018

[GRAPHIC] [TIFF OMITTED] T5926.019

[GRAPHIC] [TIFF OMITTED] T5926.020

[GRAPHIC] [TIFF OMITTED] T5926.021

[GRAPHIC] [TIFF OMITTED] T5926.022

[GRAPHIC] [TIFF OMITTED] T5926.023

[GRAPHIC] [TIFF OMITTED] T5926.024

[GRAPHIC] [TIFF OMITTED] T5926.025

[GRAPHIC] [TIFF OMITTED] T5926.026

[GRAPHIC] [TIFF OMITTED] T5926.027

[GRAPHIC] [TIFF OMITTED] T5926.028



   HEARING ON ADMINISTRATION PROPOSALS ON CLIMATE CHANGE AND ENERGY 
                              INDEPENDENCE

                              ----------                              


                          Friday, May 11, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2167, Rayburn House Office Building, the Honorable James 
Oberstar [Chairman of the Committee] presiding.
    Mr. Oberstar. It is a gentle gavel this morning; I don't 
want to fray the sensitivities of my colleagues who were in 
session. All of us were in session until 1:30 this morning. 
There isn't anyone here who has gotten more than five hours of 
sleep, unless they were cheating on the Floor last night.
    I thank our witnesses, but I especially thank our 
colleagues who have braved the lack of sleep and the late night 
session to be here this morning.
    The issue before us today is the first of two hearings, but 
there likely will be others over the period of this Congress, 
on global climate change and on the energy independence issue, 
which reminds me that I still have on my bookshelves the energy 
independence program of the Nixon Administration, a volume that 
I pored through last night that has some very valid and 
thoughtful recommendations of 35 years ago that are valid 
today.
    Our economy is so dependent on hydrocarbons that we have a 
special responsibility in this Committee to examine the reach, 
the breadth, the effect, of all that we do in transportation, 
since it does account for 60 percent of our energy consumption 
in America. Over 60 percent of all energy is consumed in 
heating water: water to make steam for power plants; heating 
water in your radiators of your cars or trucks; heating water 
for use at home.
    We don't think about this very often, but it is a function 
that can be displaced. Hydrocarbons can be displaced by solar 
power. This is an effort which we launched in this Committee at 
the outset of the session by passing legislation to retrofit 
or, I called it at the time, futurefit the Department of Energy 
with photovoltaic cells. This is also an initiative that, 
actually, I launched 30 years earlier, in 1977, with a bill to 
retrofit all Federal office buildings with photovoltaic cells. 
Unfortunately, that program was sidetracked by an election, the 
election of 1980, in which President Reagan came in and 
abolished the whole alternative energy program.
    ``But for as long as Europeans can remember, the frozen 
bastions of the north have hovered on the margins of their 
world a fearsome unknown realm nurturing fantastic tales of 
terrible beasts and grotesque landscapes. The boreal oceans 
were a source of piercing winds, vicious storms, and 
unimaginably cold winters with the ability to kill. At first, 
only a few Irish monks and the hearty Norse dared sail to the 
fringes of the ice. King Harald Hardradi of Norway and England 
is said to explore the expanse of the northern ocean with a 
fleet of ships in about 1040 A.D., beyond the limits of the 
land to a point so far north he reached pack ice three meters 
thick. He wrote, ``There lay before our eyes at length the 
darksome bounds of a failing world.''
    It is a remarkable book. The Little Ice Age describes the 
vast oscillations of weather and of, more importantly, climate. 
The author writes, ``Complex interactions between the 
atmosphere and the ocean govern Europe's climate. A constantly 
changing pressure gradient reigns over the North Atlantic and 
much of Europe's climate. Its influence as pervasive in the 
north as the celebrated southern oscillation of the 
Southwestern Pacific that governs El Ninos and tropical 
weather. The North Atlantic oscillation is a seesaw of 
atmospheric pressure between a persistent high over the Azores 
and an equally prevalent low over Iceland.''
    It seems like an arcane piece of scientific information 
until you understand that the North Atlantic oscillation 
governs the position and strength of the North Atlantic storm 
track and the rain that fails on Europe, especially during 
winter. The extreme swings of the North Atlantic oscillation 
are part of the complex atmospheric-ocean dynamics of the North 
Atlantic that include sea surface temperature anomalies, the 
strength of the gulf stream, atmospheric wave structure, and 
the distribution of sea ice and icebergs. These interactions 
are poorly understood, but there seems little doubt that many 
of the swings in the North Atlantic oscillation result from 
changes in sea surface temperatures in the North Atlantic.
    That continued over a period of 1,000 years, until, in the 
early 1300s there was dramatic swing from a warm period in 
which agriculture thrived, in which the icebergs disappeared, 
in which the Norse were able to explore the North Atlantic all 
the way to shores of the North American continent. Then the 
climate swung. That cycle of warm weather ended with a reversal 
of the North Atlantic oscillation, which brought a bone-
chilling winter that immobilized shipping over a wide area, 
where thousands more perished from hunger and disease.
    The subtle climate of earlier years gave way to 
unpredictable wild weather, marked by warm and very dry summers 
in the 1320s and 1330s, and a notable increase in storminess 
and wind strength in the English Channel and the North Sea. The 
moist mild westerlies that nourished Europe turned off rapidly 
as the North Atlantic oscillation moved from one extreme to the 
other.
    The little ice age had begun. That little ice age 
devastated Europe: famine, plague, and destruction of 
agriculture, people, and cattle.
    We are in a different age today, and it is our task to 
better understand what the forces are and what the consequences 
are. The international geophysical year, the exploration of the 
Greenland ice cap, the exploration of Antarctica, the 
measurements that have been taken of over two miles of ice on 
the Greenland ice cap by differing teams of scientists show 
that today there is more carbon in the atmosphere than any time 
in the last 420,000 years. If we had no carbon in the 
atmosphere, the land would be uninhabitable; we would have the 
little ice age, only much greater, much more powerful. But too 
much carbon in the atmosphere causes the dramatic swings and 
shifts of power and shift that we are experiencing today.
    There is much written about the atmosphere, but little 
about the ocean, the great ocean circulating current or the 
great ocean conveyor belt. It is the most powerful of all ocean 
currents. This massive force studied by Dr. Wallace Broker of 
Columbia University has been present for the last 100,000 
years, but only definitively understood in the last 15 or 20. 
The magnitude of the great ocean circulating current can be 
best described by a Swedish scientist, Sverdrup, who measured 
it. He can best compare the flow of all the rivers of the world 
in one day, or all the rainfall that touches the earth, which 
is measured in trillions of gallons, in one day. That is a 
Sverdrup unit.
    The great ocean circulating current has the force of 20 
Sverdrup units, meaning 20 million cubic meters a second. It is 
over five miles wide, it is over two to three miles deep in the 
ocean; starts in the North Atlantic, in the Arctic, and moves 
with vast amounts of salt down through the North Atlantic, the 
South Atlantic, into the Pacific, through the Philippines, 
moves through South Africa, and then back up and gives off its 
warmer temperature to shield Northern Europe. The great ocean 
circulating current is beginning to weaken because of the 
melting of the polar ice cap and the dilution of the saltiness 
of the North Atlantic and the Arctic ocean water that has the 
moderating effect on the Pacific and the moderating effect on 
Northern Europe.
    We don't know for sure what will happen because of melting 
of the polar cap, the weakening of the conveyor belt. But we do 
know that when that has happened in the past, that the climate 
system has shut down and an ice age began. We may be in the 
midst of a warming climate, but we may also be on the edge of 
the next ice age.
    The consequences for health are extraordinary. The female 
orphalese mosquito dies at 63 degrees temperature or below. 
There is a belt five degrees north and five degrees south of 
the equator in which that mosquito thrives. A million people a 
year die of malaria; 200 million are afflicted by malaria. I 
was one of them when I lived in Haiti. I contracted malignant 
tertian malaria. You either die or, if you live, you don't get 
it again. That belt is now expanding to 10 degrees north and 10 
degrees south of the equator. That means that in the next five 
years we will see 400 million to 500 million people afflicted 
by malaria and 2 million or more deaths.
    Similarly, in the tropics, a bonebreak fever is carried by 
a vector which dies out at 1500 feet of altitude, where the 
temperature is roughly in the mid-60s. Two hundred thousand 
people a year die of bonebreak fever. I never contracted it, 
but I saw people who did. It's a horrible disease. That disease 
is now at 3,000 feet of altitude in the tropics. Nearly a half 
million people may die of bonebreak fever.
    If we don't understand the consequences of global climate 
change on the earth, the water, the rain, including the lack of 
rain, and on increasing moisture, then we can surely pay 
attention to the health consequences of global climate change 
and begin to do something about it. The Administration has 
proposed a number of steps which our witnesses today are going 
to spell out in very thoughtful and well presented testimony. I 
read this extensively last night, since we had plenty of time, 
and I look forward to their testimony.
    Mr. Oberstar. The Chair recognizes the gentleman from 
Florida.
    Mr. Mica. Well, thank you, and good morning, as we try to 
recoup from last night's marathon.
    Nice to see the smiling faces of Secretary Peters; Mr. 
Johnson, our EPA Administrator, and Ms. Stone. Thank you for 
your great job at GSA. And what is it, Colonel Woodley? 
Assistant Secretary Woodley, great. Welcome, from the 
Department of Army. Look forward to all of your testimony.
    Now, I don't claim to be an expert on global warming. In 
fact, in February I was beginning to wonder whether we were 
really actually having global warming. February was just as 
cold as could be. I had a $900 heating bill, Ms. Norton, which 
is the highest I have ever had in the District, and I go back 
to Florida and I tell people it was so cold in Washington, I 
tell my constituents you could actually see Members of Congress 
with their hands in their own pockets, which was quite a 
spectacle. But, again, I don't claim to be an expert.
    It is simple to look at where some of the greenhouse gases 
and some of our problems with adding to the heating of the 
planet come from. I got that little chart up there. You can't 
see it very well; they didn't do a good job, but it just shows 
power generation. Thirty-three percent greenhouse gases come 
from power generation. And just to state the problem in the 
realm in which we have some say, transportation, which is 
automobile, trucks, airplanes, accounts for another 27 percent. 
If you add that up, it is about 60 percent of the emissions 
problems.
    It is strange the way we do some of these things. We are in 
a comfortable room here. Actually, the power generated for the 
air conditioning is coming from a plant which should have been 
changed out, but it is run by coal which comes from West 
Virginia, which Senator Byrd has insisted we keep no matter 
whether it produces the highest source of emissions or not. I 
know we have put some scrubbers and some other thing on our 
particular plant.
    I wanted to change out a light bulb the other day and I 
just asked staff to pull one out back here. These are the kinds 
of light bulbs we use in the Capitol. But I wanted to change 
out a light bulb and we are back to where we were, I think, 
about 12 years ago. I had to fill out a form, one person had to 
come up and actually look at the light bulb, then two people 
came up, one to present the light bulb, another one with a 
form, and one to install it. These are the more energy 
fluorescent light bulbs. So we are doing them one at a time.
    So whether it is power generation or electric, changing out 
to more efficient fuels, the Capitol isn't a very good example. 
We will hear from I guess the second panel--we have got the 
acting architect--on what we are doing here.
    We know what, I guess, some of the problems are, and then 
we have to look at the solutions and what our policy is. Again, 
it is not a very good policy, whether it is the U.S. Capitol. 
As far as power generation, I have identified the problem of 
solving the problem, it is Congress. In France, 75 percent of 
their power is generated by nuclear; and old nuclear, we are 
not talking about the technology we have today. Again, our 
Federal policy keeps us from doing things.
    I have learned a little bit about light water pebble 
reactors, which have almost no meltdown possibility, that can 
be used, even in residential areas. South Africa is one of the 
countries. Even Iran and North Korea are looking for--of 
course, part of the use they claim is for power generation, 
peaceful power generation. But, again, our policy is not what 
it should be. And nuclear is emissions-free.
    We also have natural gas. I am the only Florida Member to 
vote to drill in the Everglades back in my days in the 
legislature, and we take oil out of the Everglades even today 
safely, but we can do it in the Gulf. You can't do it with a 
Federal policy that when one year says we are going to be 100 
miles off, the next year we say 120 miles off, the next year we 
say 200 miles off. We jerk around those who produce this. 
Natural gas, low emissions can be produced safely, and we have 
an abundance of it. That is not the only answer; solar and wind 
are also viable solutions, hydro. But it is our Federal policy. 
Cafe standards. We are going to have to increase our cafe 
standards.
    Now, I am a conservative Republican and supporter of 
industry, but we have got to set the policy and increase the 
mileage that our cars are getting. So we are standing in the 
way with outdated Federal policy.
    Power permitting is another problem.
    Then, finally, mass transit and transit. First of all, we 
are just not going to solve this with shifting the biofuels. I 
know that the agriculture folks are having a heyday, they had 
one last night, although that is not all said and done. But 
biofuels, if we use the entire U.S. corn crop, would only 
provide 3.7 percent of our transportation fuel needs. So it is 
not an answer. It also uses a lot of energy in its production. 
So we do need to look at other ways of powering vehicles, 
whether it is automobiles, trucks, or aircraft. We need to be 
doing more with Secretary Peters in looking at alternative 
fuels for aircraft. Very soon, the Europeans will probably 
impose a tax on us because airplanes do produce a lot of 
emissions, significant emissions.
    Finally, again, in the area of moving people efficiently 
and freight efficiently, railroads can move a ton of freight 
more than 400 miles on one gallon of fuel, and rail emits 6 to 
12 times fewer pollutants than other modes of transportation. 
But, again, we don't have in place a system. We move freight at 
an average of 21 miles an hour in the United States.
    Then, moving people, we move people long distance by a 
Soviet system that is called Amtrak. It is out of date and it 
is an impediment to us actually moving lots of people by long 
distance. As far as high-speed rail, it has closed the door to 
high-speed rail development in the United States, made it 
impossible. We look at what is going on around the world. I 
visited, last August, China. Maglev, next generation 
technology, China. Even Romania is privatizing its rail. But 
not the United States, because of our policy and some special 
interests who want to make certain that we do not have an 
alternative means of transportation that can be fuel-efficient, 
that can protect the environment, less emissions. But there is 
only one thing standing in our way, our Federal policy.
    I am pleased to yield back.
    Mr. Oberstar. I thank the gentleman for his statement and 
his observations. I guess I broke union rules. I just went and 
changed the light bulb on my own; I put it in and didn't ask 
them permission to do it.
    Mr. Mica. I hope they file a complaint against you.
    Mr. Oberstar. File a complaint, then. Get the IBEW after 
me.
    I am quite sure that all other Members have erudite 
statements about global climate change, and those will all be 
entered into the record so that we may proceed forthwith to our 
panel.
    Secretary Peters, thank you very much for being with us. We 
appreciate your presentation, which I read at length last 
night. You are the first.

    TESTIMONY OF THE HONORABLE MARY E. PETERS, SECRETARY OF 
    TRANSPORTATION, U.S. DEPARTMENT OF TRANSPORTATION; THE 
 HONORABLE STEPHEN JOHNSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY; THE HONORABLE JOHN PAUL WOODLEY, JR., 
 ASSISTANT SECRETARY OF THE ARMY OF CIVIL WORKS, DEPARTMENT OF 
THE ARMY; AND THE HONORABLE LURITA ALEXIS DOAN, ADMINISTRATOR, 
              U.S. GENERAL SERVICES ADMINISTRATION

    Secretary Peters. Mr. Chairman, thank you so much.
    Chairman Oberstar, Ranking Member Mica, and Members of the 
Committee, I am grateful for the opportunity to come before you 
today to testify on climate change and energy independence. In 
my testimony today, I would like to explore with you how this 
Committee and the Department of Transportation can work 
together on shaping transportation infrastructure to enhance 
energy security and to reduce greenhouse gas emissions.
    Most importantly, we need to find ways to improve the 
efficiency of our existing transportation system and to direct 
limited investment capital to where it is most needed and can 
make the largest difference. This is the fundamental rationale 
for the Congestion Initiative and Next Generation Finance 
Reform Initiative for aviation. Both endeavors can be powerful 
tools for reducing petroleum consumption and greenhouse gas 
emissions, as well as saving time and money for travelers.
    While the Congestion Initiative involves a number of 
different elements, today I would like to focus on three of 
those elements most relevant to saving fuel and curbing 
emissions. In December, with the help of this Committee, the 
Department issued a request for proposals for metropolitan 
areas to enter into what we call Urban Partnership Agreements, 
or UPAs, with the agency. As an urban partner, a metropolitan 
area will commit to implementing a comprehensive strategy to 
respond to urban congestion, including congestion pricing 
demonstrations, enhanced transit services, increased use of 
telecommuting, and advanced technology deployment. In exchange, 
the Department will support its partners with available 
resources using current budget authority, as well as regulatory 
flexibility and expertise.
    The heart of the Urban Partnership Agreement is a 
congestion pricing format that, done right, can reduce 
congestion and save drivers substantial amounts of time and 
fuel. Pricing can also incentivize mass transit use and foster 
high speed, reliable bus rapid transit service. It can improve 
in-service fuel economy while reducing criteria pollutants and 
greenhouse gas emissions by cutting out the stop-and-go 
movement and allowing vehicles to operate at closer to optimal 
speeds.
    Congestion pricing has also been in the news lately, most 
recently with the proposal by New York City Michael Bloomberg, 
to implement a cordon pricing program in which drivers would 
pay a fee to enter downtown Manhattan during the workday. Mayor 
Bloomberg's proposal is the kind of bold thinking that leaders 
across the Country need to embrace if we hope to win the battle 
against traffic congestion and climate change.
    We are also working to improve aviation congestion. The 
Federal Aviation Administration has saved millions of gallons 
of jet fuel and over 6 million tons of carbon dioxide emissions 
over the past two years by implementing reduced vertical 
separation minimums, permitting aircraft to fly in U.S. 
airspace and operate at more efficient altitudes. The FAA has 
achieved further improvements in system performance through the 
related reforms of the Area Navigation System and Required 
Navigation Procedures, both of which increase the efficiency 
with which we use our airspace and with which airplanes 
operate.
    If we want to reduce jet fuel consumption and aircraft 
emissions without discouraging air travel, we must transform 
our aviation system. We need a reauthorization bill passed by 
Congress that provides for the Next Generation Air 
Transportation System. I commend the Committee for holding 
today's hearing. We all share an enormous responsibility of 
ensuring that future generations can experience the freedom of 
efficient and vital American transportation systems. I look 
forward to answering your question, and thank you for entering 
my full statement in the record. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much. We will have some 
questions later on.
    Now we have Mr. Johnson, Stephen Johnson, Administrator, 
Environmental Protection Agency. Appreciate your being here.
    Mr. Johnson. Thank you, Mr. Chairman. Chairman Oberstar, 
Mr. Mica, and Members of the Committee, thank you for the 
opportunity to testify today about climate change and energy 
security. As we continue to work to evaluate our obligations 
under the recent Supreme Court decision in Massachusetts v. 
EPA, the Administration will continue moving forward, both 
domestically and internationally, to address the serious 
challenge of global climate change.
    In keeping with the agency's commitment to address the 
Supreme Court's ruling expeditiously and responsibly, we 
recently signed the formal notice that starts the public 
process for considering the California waiver petition process. 
We will hold public hearings on May the 22nd and May the 30th.
    In 2002, President Bush committed to cut U.S. greenhouse 
intensity, that is, the ratio of greenhouse gas emissions to 
economic output, by 18 percent through the year 2012, a goal 
that we are on target to meet. According to EPA data reported 
to the United Nations Framework Convention on Climate Change, 
U.S. greenhouse gas intensity declined by 1.9 percent in 2003, 
by 2.4 percent in 2004, and another 2.4 percent in 2005. Put 
another way, from 2004 to 2005, the U.S. economy increased by 
3.2 percent while greenhouse gas emissions increased by only 
0.8 percent.
    Under the President's leadership, our Nation is making 
significant progress in tackling greenhouse gas emissions. 
According to the International Energy Agency, from 2000 to 
2004, U.S. emissions of carbon dioxide from fuel consumption 
grew by 1.7 percent while our economy expanded by nearly 10 
percent. This percentage increase was lower than that was 
achieved by Japan, Canada, the original 15 countries of the 
European Union, India, and China. IEA data also show that 
during this time the United States reduced its carbon dioxide 
intensity by 7.2 percent. This is better, for example, than 
Canada, Japan, or even the EU 15.
    I would also note that the U.S. is on track to meet, and 
possibly exceed, the President's goal to reduce greenhouse gas 
intensity by 18 percent by 2012. By contrast, only two of the 
original EU 15 countries in the Kyoto Protocol are on target to 
meet their Kyoto targets.
    Over the last six years, this Administration has invested 
more than any other nation in the world, $37 billion, in a 
comprehensive climate change agenda. EPA climate change 
programs include a wide array of domestic and international 
partnerships which rely on voluntary measures to reduce 
greenhouse gas intensity, spur new investments, and remove 
barriers to the introduction of cleaner technologies. I would 
be happy to speak in greater detail about EPA's many climate 
partnership programs that include the Asia Pacific Partnership 
on Clean Development and Climate, Energy Star, the SmartWay 
Transport Partnership, the Methane to Markets Partnership.
    The President's efforts are also focusing on strengthening 
energy security. In his 2007 State of the Union address, the 
President challenged the Nation to address our growing reliance 
on oil. He called for reducing gasoline consumption by 20 
percent in the next 10 years, while doing so in a way that 
keeps America's economy growing and protects our environment. 
This 20-in-10 plan includes a proposed requirement for 35 
billion gallons of alternative fuel in 2017, building upon 
EPA's current renewable fuel standard.
    Another focus of EPA is the development of risk management 
strategies to ensure carbon dioxide injection and long-term 
geologic storage are conducted in an environmentally 
responsible manner. We have determined that underground 
injection of carbon dioxide is subject to the Underground 
Injection Control Program of the Safe Drinking Water Act, which 
regulates injection activities to protect current and future 
sources of drinking water. EPA has developed UIC permitting 
guidance that recommends treatment of injection wells 
associated with research and development projects as 
experimental technology wells. Our goal is to provide guidance 
that facilitates permits, while encouraging environmentally 
responsible injection activities.
    Mr. Chairman, I am also proud to say on September 1st, 
2006, we, EPA, became the first Federal agency to achieve 100 
percent green power. EPA is also a Federal Government leader in 
the use of green buildings, having eight major new facilities 
that are or will be silver or gold certified under the U.S. 
Green Building Council rating system.
    Again, thank you for the opportunity to testify. Before I 
take questions, I would ask that my full written statement be 
submitted for the record.
    Mr. Oberstar. Without objection, the full statement will be 
in the record. The complete statement of all witnesses, as 
statements of all Members, will be included in the record.
    The Assistant Secretary of the Army for Civil Works, the 
Honorable John Woodley, Jr. Thank you very much for being here.
    Mr. Woodley. Thank you, Mr. Chairman, for the opportunity 
to be here today to discuss how the U.S. Army Corps of 
Engineers Civil Works Program is addressing global climate 
change. I have a detailed statement I have submitted and, with 
your permission, will summarize it here.
    Over the last century, the Corps of Engineers, along with 
other Federal agencies, has helped develop this Nation's water 
resources. We are constantly improving our ability to manage 
those resources, including measures to address water-related 
issues that are arising due to changing weather patterns and 
climate change. The Corps' flood and storm damage reduction 
mission directly involves understanding and responding to 
extremes of weather variability and long-term trends in 
climate. Significant changes in either weather patterns, or in 
climate, can affect our ability to supply water from our 
Nation's multipurpose reservoirs to 55 million municipal and 
industrial consumers, to facilitate safe and reliable 
waterborne transport on our Nation's inland waterways, and to 
produce nearly 25 percent of the Nation's hydroelectric power. 
It could also affect our ability to restore and sustain aquatic 
ecosystems and endangered and threatened species.
    While the Corps of Engineers does not have the mission to 
perform climate data collection, the Corps has been involved in 
climate change impact studies since 1979. The Corps has 
participated in a number of workshops with its Federal and 
State agency partners in efforts to evaluate the development of 
technical and scientific methods for incorporating climate 
change information into forecasts, flood and drought frequency 
analyses, and planning evaluation approaches for new projects, 
as well as for existing ones.
    Two of the Corps' significant activities, hydroelectric 
power and inland navigation, relate directly to energy 
independence and climate change, and all of our mission areas 
could be affected by climate change. Hydroelectric power helps 
make us less dependent on foreign energy sources. The Corps is 
the single largest producer of hydroelectric power energy in 
the United States. It operates and maintains 75 multiple 
purpose hydropower projects, generating about 78 billion 
kilowatt hours of electricity per year. The Corps accounts for 
about 24 percent of the Nation's hydroelectric power capacity 
and about 3 percent of the total electric power capacity of the 
United States. This output makes the Corps the fourth largest 
electric utility in the United States, one which uses no 
imported fuel and emits no greenhouse gases.
    The Corps maintains the Nation's inland waterway navigation 
system, which is an important part of the national 
transportation system. Waterborne transportation is often 
capable of moving commodities and products more efficiently 
than they could be moved over land, potentially reducing fuel 
consumption and greenhouse gas emissions.
    Because all of our missions can be affected by significant 
shifts in weather or climate, it is important to the Corps to 
account for these possibilities in our project planning and 
operation. To that end, the Corps is pursuing an expanded use 
of risk-based planning. The risk-based planning process 
considers uncertainties such as the effects of climate change 
evaluated through multiple possible scenarios of future 
environmental conditions. The ongoing work in the Louisiana 
Coastal Protection and Restoration Study is an example of the 
application of this process.
    There are many avenues through which the U.S. Army Corps of 
Engineers Civil Works Program can help address the difficult 
scientific, technical, and operational issues raised by the 
uncertainty associated with climate change and its potential 
impacts on water resource management. We have the necessary 
authorities to conduct a broad program of necessary first steps 
that are part of a longer-term proactive adaptive management 
strategy.
    The Corps of Engineers is a leader in innovative, yet 
practical cost-effective approaches and is working to 
incorporate potential climate change impacts in the planning 
and management of our key water-based infrastructure. We are 
well positioned to respond to the Nation's needs now and in the 
future.
    Mr. Oberstar. Excellent. Thank you very much for your 
presentation. The Corps has within its reach the ability to 
make big impacts on our energy picture.
    Our next witness may have an even bigger impact on energy, 
Lurita Doan, Administrator, GSA.
    Ms. Doan. Good morning, Chairman Oberstar, Ranking Member 
Mica, and Members of the Committee. I am Lurita Doan, 
Administrator of GSA. GSA has an extraordinary commitment to 
energy-saving initiatives and I am very pleased to have this 
opportunity to discuss GSA's endeavors here today.
    A critical part of GSA's mission is to provide responsible 
choices that help our client agencies meet their environmental 
obligations. Our offerings include the construction and leasing 
of energy-efficient buildings, the procurement of renewable 
utility services, environmentally friendly telework and other 
alternative workplace arrangements, and a selection of the 
latest alternative fuel vehicles and a wide range of 
environmentally preferable office products.
    From the space and services provided by our Public Building 
Service to the products and services provided by our Federal 
Acquisition Service, I am proud of the leadership GSA 
demonstrates and the assistance we provide to the Federal 
community to meet or exceed the targets set by Congress in the 
Energy Policy Act of 2005 and the targets set by President 
Bush's new Environmental Executive Order.
    I am also proud that GSA's efforts to achieve energy 
efficiency through good practices, new technologies, 
innovations, and plain old common sense have helped reduce our 
energy usage as well as our operating costs. Today I would like 
to discuss GSA's leadership in energy-efficient green 
buildings, GSA's offerings of environmentally responsible 
products and services, and GSA's government-wide telework 
initiative, including our centers that relieve Federal 
employees from daily traffic snarls and also reduce greenhouse 
gas emissions.
    GSA's achievements and initiatives in these areas are 
detailed in my formal statement already submitted to the 
Committee. For now, I will focus on a few highlights.
    Through PBS, our Public Building Service, for instance, GSA 
has an opportunity and a responsibility to lead the Federal 
Government by example and demonstrate how we can reduce energy 
consumption by integrating energy efficiency into building 
designs, while still creating superior workplaces, and GSA is 
doing just that. For example, GSA operates its buildings at 
costs that are 5 percent below comparable buildings in the 
private sector, and GSA pays 12 percent less for its utilities 
because we can drive costs down through the leverage buying 
power of the entire Federal Government.
    Similarly, our Federal Acquisition Service offers agencies 
a wide array of energy saving services and products, including 
alternative fuel vehicles and hybrid electric vehicles. Perhaps 
most Americans don't know this, but GSA is one of the Nation's 
largest purchasers of alternative fuel vehicles. With over 100 
contractors on GSA schedules, agencies can find a host of 
services that help them audit their current usage, that 
properly meter their buildings, and evaluate alternative energy 
options.
    On a third front, GSA is a co-lead agency for Federal 
telework and established a no-cost trial of the GSA telework 
centers. Based on data from our 14 centers, we estimate that 
telework at these centers annually save nearly 2.8 million 
travel miles, which in turn saves 115,000 gallons of fuel and 
avoids 2.3 million pounds of emissions.
    Sustainable design, meanwhile, is a holistic approach to 
constructing, modernizing, and operating buildings that seek to 
balance costs, environmental, social, and human benefits with 
functional needs of our customer agencies. GSA uses the U.S. 
Green Building Council LEED certification in the design of new 
construction and GSA is a leader in sustainable design and has 
earned a LEED rating for 19 buildings to date, with 60 more 
planned.
    Mr. Chairman, whether it is sophisticated lighting systems, 
wind power, or telework, GSA is fully committed to achieving 
and exceeding the goals of the Energy Policy Act and the 
President's Executive Order. As Administrator, I feel blessed 
that GSA has a talented, creative, and innovative workforce. 
GSA has some of the resources to help our client agencies and 
our Nation become more conscientious stewards of our air, land, 
and water but, truthfully, more are needed.
    I also want to help folks in the business infrastructure 
sector understand that if you build it, GSA will come. We need 
more energy infrastructure, whether it is wind power, 
hydroelectric, photovoltaic, more E85 stations, more bio 
products, we need it. If you build it, we will come.
    I would be happy now to respond to any questions from you 
or Members of the Committee. Thank you.
    Mr. Oberstar. Thank you very much, Ms. Doan. Mr. Mica tells 
me that you are from New Orleans originally.
    Ms. Doan. I am indeed.
    Mr. Oberstar. That is my wife's home.
    Well, Secretary Peters, it occurred to me, as I read your 
statement last night and listened to you again this morning, 
you quoted, with much approval, Mayor Bloomberg and his cordon 
pricing program, and also quoted him asking what options do we 
have. Should we continue to have wasted time, lost business, 
higher prices, or should we charge a modest fee to encourage 
people to take mass transit?
    We encountered that issue in the safety round in the TEA-21 
and in SAFETEA-LU on two scores, one on seat belt usage--which 
the Governor of New Jersey should have paid attention to--and, 
second, on alcohol and driving. And in the complex negotiations 
within the Committee, and then between our Committee and the 
Senate, we settled on incentives rather than penalties.
    You seem to be endorsing the mayor's support for a penalty, 
rather than provide incentives for people to use transit. 
Wouldn't an incentive payment of some sort, a subsidy of 
transit, be a better approach, comparable to what we did in 
TEA-21 and SAFETEA-LU on seat belt and on .08 alcohol?
    Secretary Peters. Mr. Chairman, I certainly do believe in 
incentives and, as you discussed, during the negotiations for 
SAFETEA-LU we did arrive at incentives and they have worked 
very well, especially in the seat belt law area, extremely good 
progress.
    The truth is that in New York City, as well as here in 
Washington, D.C. and in many other areas, transit benefits are 
given or incentives are provided to employees to use transit. 
In fact, at our building, I believe as well as many other 
buildings here in the U.S. Government headquarters, we charge 
employees who choose to drive and park, but we give them 
benefits, transit benefits authorized by Congress if they use 
transit. That is the case in New York City as well with many of 
the employers, and yet Midtown Manhattan is still very, very 
congested.
    Mayor Bloomberg has said that you pay a price. Either you 
pay a price for coming into the city, as he has suggested, or 
you pay a price in lost time and lost productivity.
    Mr. Oberstar. Let me contrast that with Denver, under Mayor 
Wellington Webb, where he said we don't want your pollution in 
the center city; leave your car outside. We will give you a 
ride free on our Circulator System in the center of the city. 
Keep the pollution out and your experience in our city will be 
a much happier one.
    In Portland, in the center of the city they have a 
circulator system, a trolley that you ride free, get on and off 
as many times as you wish. When you get beyond a certain zone, 
then you pay.
    In the transit account of the Highway Trust Fund, 
municipalities under 200,000 population can use their transit 
grants for capital account as well as for operating comp, but 
those above 200,000 are not allowed to do that by current law.
    Would you support changing the law to allow large 
municipalities to use funds for operating assistance in order 
to encourage greater transit use?
    Secretary Peters. Mr. Chairman, as you are aware, during 
the first three years of operation, in most cases, CMAQ funds, 
for example, can be used for operation. That has been----
    Mr. Oberstar. But not for those above 200,000.
    Secretary Peters. Not for those above 200,000, sir. I would 
support maximum flexibility for State and local governments.
    Mr. Oberstar. Thank you. That is excellent. I appreciate 
that. It is nice to have a straightforward answer. Not that you 
don't, but it is all too often we have an Administration 
witness, they don't know what OMB is going to say. That is a 
good candid, straightforward answer. I appreciate it. 
Excellent.
    Mr. Johnson, let me find my notes. Here we are. The Supreme 
Court, on April 2nd, said that EPA has to take into account CO2 
as an air pollutant and that you do have the ability to set 
emission standards for motor vehicles. It also said there is no 
conflict between setting CO2 standards to protect public health 
and welfare under the Clean Air Act, and that there is no 
conflict between that and the Department of Transportation 
setting fuel economy standards. What does EPA intend to do now 
in the aftermath of the Supreme Court decision?
    Mr. Johnson. Well, as you point out, the decision that the 
Supreme Court made on April the 2nd does present a series of 
complex issues, the one you mentioned being one of them. We are 
currently evaluating what the Supreme Court said, considering 
those kind of issues, the intersection between the Clean Air 
Act and Department of Transportation's activities. We are 
considering all options. We are moving expeditiously. This is 
an important issue. But we are also moving responsibly.
    Mr. Oberstar. Well, there is an opportunity now, with that 
decision, and I encourage EPA to move ahead vigorously with it.
    Secretary Woodley, some years ago--goodness, 20 plus years 
ago--this Committee directed the Corps to evaluate the 
potential for low-head hydro application on streams other than 
those where we have the major projects, and then come back and 
report to Congress on those 5 kW and above. Are you familiar 
with that report?
    Mr. Woodley. It must have been before my time, Chairman.
    Mr. Oberstar. Have you update--yes, go ahead.
    Mr. Woodley. It must have been before my time.
    Mr. Oberstar. It was, yes.
    Mr. Woodley. I can tell you----
    Mr. Oberstar. Probably when you were still in college.
    [Laughter.]
    Mr. Woodley. Although 25 years is a long time to spend 
evaluating anything, even for the Corps of Engineers, it would 
not be unprecedented.
    Let me respond seriously, though, that I have seen low-head 
applications in place, particularly in New England, where they 
are being vigorously pursued. I think that there is a great 
potential there for development that would require very little 
infrastructure and would present substantial opportunities for 
more additional hydroelectric power from our facilities, using 
water that----
    Mr. Oberstar. Well, we are going to get together with you 
too and with the Chief of Engineers and revisit the issue and 
harness the Corps' ability to deliver real engineering results, 
as it does. I have such great admiration for the Corps and all 
of its work, but in your statement you talk about adaptive 
management_that the Nation's water resource infrastructure can 
be adapted to address subtle changes and trends. Now, I don't 
want to be picky, but we have not seen much subtle change in a 
long time.
    I have a compilation over the last 20 years of the costs of 
disaster relief expenditures by FEMA and by the private 
insurance sector, and it adds up to $35 billion from 1980 to 
2000, and $115 billion by the private sector insurance 
companies, and if you look at the progression, if you go back 
to 1980, FEMA disaster relief was in the range of $850 million. 
It fluctuates, it goes down, it goes up, but then from 1990 on 
it is $2 billion, $2.5 billion, $4.3 billion, $3.6 billion, 
$4.3 billion, $4.4 billion. The private sector keeps going up. 
There is a progression. And that doesn't include the $27 
billion-plus of Hurricanes Katrina and Rita.
    We are seeing a steady progression, if you just measure it 
in cost, of an increase of storms of powerful effect on people, 
on communities, and on our total public works infrastructure. 
And then you go on to say, generally, however, we have 
formulated our projects to address storms that are more likely 
to occur. I think that the gentleman from Louisiana to my left, 
Dr. Boustany, would say we are way passed evaluating things 
that are likely to occur. We need to protect against storms of 
a magnitude that we haven't yet imagined.
    Now, Ms. Doan, I followed with great interest your many 
discussions of pilot projects, building modernizations, and 
projects that are nearby in Suitland, Maryland, or as far away 
as San Francisco. There is a highly commendable record of 
accomplishment in GSA, but GSA is the landlord of 367 million 
square feet of civilian office space, and the electricity bill 
is $5,800,000,000 a year. We have to do a whole lot more than 
we are doing now, and we intend to give GSA the authority and 
the encouragement and the incentive to accelerate this 
initiative.
    If we can get a bill through the Senate that we passed in 
the House to convert the Department of Energy, which should be 
the symbol for America of conversion to photovoltaics, then we 
can carry that pilot all the way through the rest of the 
Federal Government and save an enormous amount of cost to the 
taxpayer, and of CO2 emissions to the environment.
    Are you ready to get on board with that?
    Ms. Doan. GSA strongly supports photovoltaic efforts as a 
way of providing alternative energy. In fact, we have a very 
strong track record in that area. We have worked very hard and 
we just started another effort just last month in the Denver 
Federal Center. In addition to that, we think that it makes an 
enormous amount of economic sense. We also want to expand our 
efforts a little bit further into our land border ports of 
entry program on the roofs where it makes sense, where we have 
enormous amounts of solar power available to us. In fact, in 
Waltham, Massachusetts, we have an integrated solar roof where 
45 to 50 percent of the total building supplies--the solar roof 
on top of it provides for their electricity needs. So we are 
very much in support of these initiatives.
    Mr. Oberstar. Thank you very much.
    The gentleman from Louisiana, Dr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Secretary Peters, we have all followed the increased 
ethanol usage with a great deal of interest. Granted, we know 
there are limitations agriculturally with some of the 
technology and even pipelines for distribution, so there are 
going to be problems that we will face with these limitations. 
I am curious to know_what is the Department doing with regard 
to aviation fuel alternatives and biofuels and the like?
    Secretary Peters. Congressman, that is a very good 
question. In fact, aviation has increased their fuel efficiency 
by 33 percent in about the last 10 years, so they certainly 
have stepped up to do a lot of things. Currently, both Boeing 
and GE are making forays into alternative fuels for aviation, 
and they are also beginning, at airports, to look at the 
opportunities for ground-based equipment to be alternatively 
fueled, perhaps electrified vehicles, so that they aren't 
burning fuel.
    We are also looking at ways when jets are taxiing, after 
they have landed and gotten off the active taxiway, and whether 
there are ways to move that jet with a lower cost technology, 
such as a nose wheel motor, that would prevent them from 
running those jet engines while they are on the ground. So 
there are a number of things underway for doing that, as well 
as fuel options. As I mentioned, both Boeing and GE are looking 
very heavily into fuel options for aviation as well.
    Aviation is one of those forms of transportation where they 
absolutely are looking very hard to conserve fuel whenever they 
can because it is such a large part of their expenses.
    Mr. Boustany. Thank you. What will be the U.S. policy if 
the EU imposes an aviation fuel emissions tax? Could you 
elaborate a little bit on that?
    Secretary Peters. Congressman, we are very opposed to that. 
We are very opposed to a unilateral measure such as EU is 
considering for aviation, and feel very strongly that the whole 
issue of emissions and global warming, climate change are 
global issues, not issues that are specific to the European 
Union. I have also talked with my counterparts in China. They 
are opposed, as well as many other countries also. So we do 
intend to push back very hard against the EU on this unilateral 
measure.
    Mr. Boustany. Thank you.
    Mr. Oberstar. If the gentleman would yield for just a 
moment.
    Mr. Boustany. Certainly. Yes.
    Mr. Oberstar. I assure the gentleman further time.
    Our Committee did conduct an extensive session in Belgium 
with the European Commission, with the minister of transport, 
European Parliamentary Members of their transport Committee, 
that included an extensive discussion of the emissions trading 
regime for aviation that the European community is moving 
forward on, and their goal is to implement an emissions trading 
scheme for aviation by 2011, 2012. Their goal was also to 
impose it on the United States in our airspace.
    We made it very clear on a bipartisan basis that this is 
our sovereignty and that we will deal with it. We also told 
Europe that we were 10 years ahead of them on noise. We put in 
place a noise reduction rule in 1990, legislation that I 
initiated as Chair then of the Aviation Subcommittee, and 
Europe didn't come along until 10 years afterward. We want 
credit for what the United States did. We will deal with our 
issue in our sovereign airspace and Europe can deal with yours 
in European sovereign airspace. We ought to harmonize it for 
the benefit of the world, but we have to bring the rest of the 
world along with us.
    I thank the gentleman for his time.
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Johnson, in March of 2007, you convened a climate 
change working group within the EPA's Office of Water, and 
specifically in your written testimony you mentioned 
mitigation, adaptation, and research. Can you go into greater 
detail as to what this working group will assess, and how do 
you think water programs and water quality infrastructure can 
mitigate the release of greenhouse gases?
    Mr. Johnson. Well, thank you very much, sir. The reason why 
we convened this work group is that there are a number of 
issues that we must address, as we look at global climate 
change and its potential impacts, and one of those is on sea 
level rise and the concern for our oceans and our coastal 
waterways, what that means for not only the environment, but 
also where we get our water for drinking water, as well as 
wastewater treatment.
    So we convened a group inside the agency to take a very 
close look at the tools under the Clean Water Act and how we 
could use those tools and how we can use those tools to help to 
mitigate or to better understand, but mainly to make sure that 
we are able to address any changes that may occur from 
greenhouse gas emissions. So we have started that effort not 
only inside the agency, but with our Federal partners and, in 
some cases, as we have looked at some of our precious natural 
resources like the Chesapeake Bay with our State partners there 
as well.
    Mr. Boustany. I thank you.
    Secretary Woodley, I think you mentioned in your verbal 
testimony that you did not need additional authorities, and I 
guess I would like to pursue that a little further. Do you see 
that you need any additional authority as you look at your 
project studies, and specifically do you need authorities in 
addition to Section 707, Section 729, Section 731 of the Water 
Resources Development Act of 1986?
    Mr. Woodley. No, sir. Thank you for the question. We 
believe that the authorities that we are currently operating 
under are sufficiently broad to allow us to take into account 
climate change issues as they apply both within our planning 
processes and within our operational measures within the 
program.
    Mr. Boustany. So you are looking at climate change when you 
look at the impact on flood, storm, and drought risk in the 
U.S., also the impact on hurricane activity intensity, storm 
surge, sea rise level, associated flooding? These are all 
things with your current authorities that you are able to 
address?
    Mr. Woodley. Yes, sir.
    Mr. Boustany. Okay. And will incorporating these types of 
climate change analyses increase the cost of conducting 
studies? In other words, are non-Federal project sponsors who 
currently pay 50 percent of all study costs willing to bear 
this increased cost, and has there been some dialogue with the 
non-Federal cost share sponsors?
    Mr. Woodley. I would say that our cost share sponsors are 
interested in the best planning process that we can achieve. 
They are interested in a planning process that is comprehensive 
and that takes into account all the risks that their 
populations will face. So we have not had--I am certainly not 
aware of any difficulties or issues that have been raised with 
our partners in that regard.
    Mr. Boustany. Thank you, Mr. Woodley.
    Ms. Doan, is GSA doing anything to reduce Government 
facilities' dependence on the existing energy grid?
    Ms. Doan. Yes. GSA is working very hard to generate 
independence from the grid. As I mentioned earlier, we are 
making enormous efforts in different types of energy. We have 
made efforts to use wind power, hydroelectric power, of course, 
photovoltaic or solar power, but in addition to that, we will 
be removing some of our energy from the grid.
    In fact, many areas where we are generating power, we then 
return energy to the grid. Our new effort that we have begun at 
the Denver Federal Center will do exactly that. In addition, at 
the FDA here in Maryland we have a heating plant that does 
exactly that, and it is cogeneration of power.
    Mr. Boustany. I thank you.
    Mr. Chairman, I yield back.
    Mr. Oberstar. I thank the gentleman and the witnesses.
    Now, the Chair recognizes the gentlewoman from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. Thank you very much 
for this important and timely hearing.
    If I could just do a little demonstration for a moment. 
Behind this curtain is sunlight. That is sunlight, Mr. 
Chairman.
    [Laughter.]
    Ms. Norton. I do that demonstration because I sat in a 
hearing recently, and everybody who came into the room said, 
oh, it is freezing in here, it is freezing in here. And, of 
course, I looked around and we were all closeted in these 
curtains, and I recognized that there is an AV. You know, at 
home, when you look at television, you don't close down the 
sunlight.
    It does seem to me that a lot of what the Federal 
Government has to be doing has to begin at home, and I do want 
to know--I want somebody to find out when the idea began that 
we had to close up all of the curtains and depend on these 
things here as we preach to the Country what they are supposed 
to be doing. Maybe it is the best thing to do, but I am not 
sure it is.
    I think anybody who either shuts out sunlight or uses a 
great deal of electricity has the burden of demonstrating why 
they are doing so. That is why I applaud the speaker, who has 
taken a lead for the Capitol complex in light bulbs, where we 
are supposed to immediately convert 2,000 desk lamps and, 
within six months, 10,000.
    I applaud it because, frankly, I don't think the problem 
with the Federal Government is leading by example; I think it 
is much more serious than that, because it is typical, Mr. 
Chairman, to underestimate the effect the Federal Government 
could have on changing energy policy just by what it does 
itself within its own operations. We are the big kahuna, and if 
you want to drive down the cost of all of this, the Federal 
Government leads in doing it and then others follow.
    Our ability to affect the marketplace is incalculable, 
almost, here. Ms. Peters and I have had a running dispute that 
I want to just cite when it comes to leading by example, and 
perhaps to contrast that with Administrator Doan, because I 
think GSA has had decades, before climate change became much of 
an issue, of leadership, rather muted leadership, not preaching 
it, but certainly trying to practice more of it than I think is 
known.
    On the other hand, just to give a perfect example, because 
I read your testimony, Ms. Peters, about some of the things you 
want to do. Some of those things sound to me to be very 
progressively moving in the direction of encouraging local 
jurisdictions. It seems small, but there is limited money. One 
of them, I noted in your testimony you want to fix bottlenecks 
in our transportation systems, include the efficiency of our 
existing road system, and direct limited investment capital 
where it is most needed.
    You are about to be in the center of the storm at the 
Department of Transportation. This Committee, for 20 years, 
worked to get the Department of Transportation a new building. 
Now you have a new building close to South Capital Street, in 
one of the great entry portals to the city. It is great all 
right. It is so great that you can't get in it or out of it. 
Well, there is a lot of vacant land around it and the District 
is about to build a new Nationals baseball stadium, and the 
District is hustling with all kinds of changes in roads.
    The Federal Government gave, to its credit, because this is 
where the Navy Yard is, the Department of Transportation, the 
U.S. Capitol, $20 million to expand the Navy Yard subway. We 
are trying to use every church lot to have people park, rather 
than have them bring their cars anywhere close. The people who 
own the stadium are going to shuttle people in.
    The Department of Transportation has a brand new, brand new 
building and a brand new garage that is empty, or almost empty. 
If they want to use part of it, that is all right, but most of 
the people have gone home by the time the night games, which 
are when most night games.
    A creative proposal came forward from the people who own 
the stadium, who said that there are certain people that they 
know will drive, and those are the people who have those season 
tickets. They paid a lot for them. And they offered to vet 
those people in a way that no Federal employee is vetted; in a 
way that none of us or our staff is vetted. I was able to get 
the Navy Yard, which is along the same stretch of land, to 
agree that anybody who has a DOD pass around his neck--and that 
can be a contractor--can park there if they are going to a 
night game at the ballpark.
    Talk to the GSA and to the credit of the GSA, to the credit 
of the owner who runs the Department, who built this structure, 
the owner now of the structure, all of them said, given all the 
vetting you are talking about, it seems to be the highest and 
best use of the garage at night. Some revenue will come to the 
Federal Government; the cars, instead of being stretched along 
South Capital and M Street, which is the worst bottleneck in 
the city, those cars will go into the garage. I don't want to 
say, Mr. Chairman, because it is very elaborate what they will 
do. These are people who are willing to anything because it is 
a very small group of people that we are talking about, the 
people who can afford those tickets, and they are willing to go 
through that.
    When we sat down with the security people, we recognized 
that they wouldn't want to take that responsibility. So we had 
talked to Ms. Peters' predecessor; she seemed to be open to 
this, to see the common sense value of this. But when it came 
to the Secretary, despite all she has had to say here this 
morning, she would rather see the bottleneck around her own 
Department of Transportation than see the garage used at night 
by people who have been vetted at the highest use. They used 
the Federal Government's highest use vetting in order to come 
forward with a plan.
    So the whole notion of the Administration, Madam Secretary, 
proposing in this year's budget $175 million to expand capacity 
and improve operations along heavily congested interstate 
travel and trade corridors does not seem consistent. All I am 
saying is the Department of Transportation has a burden not 
only of leading by example, but of explaining, if we are not 
able to do something about that congestion when that ballpark 
opens on April, what the Department has done. The Department of 
Transportation must explain what it has done to ameliorate the 
very congestion that you claim it is your mission to ameliorate 
throughout the Country. You need to start right where you live, 
in the Department of Transportation.
    I want to say that we will be holding a series of hearings, 
Mr. Chairman, on energy conservation in Federal real estate, 
because we own real estate throughout the Country and, by 
ourselves, could have a significant effect on energy matters. 
But we are not going to start with those forms of conservation 
that cost money. We are going to start with ordinary, old 
fashioned conservation like dimming lights after certain hours, 
making officials in Federal buildings responsible for that 
policy, keeping temperatures down, and allowing air 
conditioning and heating not to reflect the kind of temperature 
you find in movie theaters, when you come in and you are cold, 
or a hearing room and you are cold, but keeping those 
temperatures down.
    I believe that we have underestimated what the Federal 
Government itself can do, not by pilot projects. And the 
testimony here has been full of pilot projects and small 
things. I do want to say GSA has, for decades, been building in 
such--with some cost, building into construction and into 
requirements some important energy-efficient saving matters, 
but I take my time, Mr. Chairman, to say that the Department of 
Transportation--and I am here to hear any response she has to 
make--has left me to my own devices. And I tell you, as a 
Member of Congress, I am not going to sit here and watch the 
Department of Transportation become the center, the vortex of 
the congestion of which I speak. If I have been left to my 
remedies as a Member of Congress, I have my remedies, and I 
intend to take them.
    Secretary Peters. Madam, would you like me to respond?
    Mr. Oberstar. The gentlewoman's time has expired, but the 
Chair will entertain the Secretary's response.
    Secretary Peters. Mr. Chairman, thank you so much.
    Congresswoman, indeed, the new DOT building is a green 
building. We worked very closely with GSA to ensure that that 
building is not only energy efficient, but takes maximum 
opportunity to use natural light, as opposed to having to put 
artificial lighting in the building.
    The issue with which you and I had a discussion has to do 
with using a single-entrance underground parking garage, as you 
mentioned, for season ticketholders. Madam Congresswoman, I 
evaluated that request very, very carefully. The exterior of 
the building has been hardened against terrorist attacks, as 
should be done in buildings built for the Government in a post-
9/11 environment. The parking lot has not been hardened. I 
consulted security experts in this field and, to a person, they 
told me that it constituted too great a risk for the building 
and the employees of the building to allow parking of non-
government employees in there.
    I very carefully evaluated that request----
    Ms. Norton. Did you talk about how these people will have 
been vetted at a level beyond what Government employees have 
been vetted?
    Secretary Peters. Madam Congresswoman, I did. My 
responsibility at the end of the day is to ensure the safety 
and security of our employees and the building for which I have 
responsibility. I consulted safety experts. I have made a 
decision, and the decision is not one that does not look 
carefully at the option that you put forward.
    Mr. Oberstar. The matter is one of great importance. It 
carries over from that of energy efficiency to one of security, 
and it is a matter that can be explored in further inquiries.
    The gentleman from Maryland, Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. A quick comment, 
then a few questions.
    Recently, I read this book called Human Options. It is 
about a 30 year old book by Norman Cousins, a journalist and 
author well respected from the 1940s through the early 1980s. 
There is a quote in that book that says, ``history is a vast 
early warning system.'' So taking that quote into this 
framework, we can use both an understanding, being 
knowledgeable about political history with these issues and how 
they have been dealt with and how successful they have been, 
and both certainly from the early discussions here about 
climate change, an understand of the geologic history of the 
planet is not unimportant for each of you to have a clear 
understanding of, as far as where do we go with climate change, 
where do we go with greenhouse gases with emissions from 
automobiles or power plants, or even where we park when we go 
to a baseball game.
    So I would hope that all of you collaborate and integrate 
your ideas and your ingenuity, whether it is NOAA or USGS or 
the Department of Transportation, the Corps of Engineers, GSA, 
EPA, etc., because this is much bigger than one agency can 
handle. It is much bigger than one entity in the Government can 
handle. We have heard about silos and stovepipes and all of 
those things, and we have run out of time to deal with it in 
any way effectively. So I appreciate your time here and your 
efforts that you are all making in the individual agencies and 
departments that you represent, but it is so important, even 
with the remaining time in this Administration, for each of you 
to collaborate as much as is possible.
    The first question I have is to Mr. Johnson. Mr. Johnson, 
how do you see the California new vehicle emission law 
affecting the rest of the Country and affecting the rest of the 
Country on how people purchase vehicles?
    Mr. Johnson. Well, California has a petition before the 
agency now, which we are evaluating. We have two public comment 
periods, actually hearings, one here in Washington, D.C. on May 
the 22nd and on May the 30th one in Sacramento, California; and 
those are the very questions that we are asking as part of the 
petition process, is asking for public comment on the 
California petition requesting a waiver----
    Mr. Gilchrest. Just on another level, though, do you see 
what California is doing as a very positive opportunity that 
the Nation can take advantage of, along with, I don't know, the 
several other States involved in that as well?
    Mr. Johnson. Well, we are looking at the petition and we 
will await the public comments that we get before we comment on 
the merits or not of the petition. Again, the issue of global 
climate change is serious, and, as you pointed out, sir, it is 
one that requires really every one, from each of us as an 
individual, to departments, the Federal Government, to business 
and global.
    Mr. Gilchrest. On that same line of thinking, as you 
respond to Massachusetts v. EPA with regard to the vehicles and 
other source of greenhouse gas emissions, how are you 
responding to that Supreme Court decision, in a collaborative 
fashion; an idea, well, greenhouse gases are not the same as 
coal particulates, they are not the same as mercury, but when 
we see the potential of sea level rise and the potential for 
various mosquitoes moving from one latitude to another 
latitude, there is an effect of that accelerated introduction 
of greenhouse gases that we haven't seen in geologic history. 
So if you could just give me some idea of how you are dealing 
with that issue.
    Mr. Johnson. Well, we are in active discussions with all 
the departments, particularly the Department of Transportation, 
given the nature of Massachusetts v. EPA, and there are many 
complex issues, not only that present themselves focusing on 
the transportation sector, but also, then, what are the 
ramifications for other sectors given the Supreme Court 
decision. So it is a complex issue. We are very actively 
working at all levels within the Administration to address 
this.
    Mr. Gilchrest. Is this something that you think the 
Administration or EPA can handle under the existing structure 
of, let's say, the Clean Air Act, or is there some 
accommodation that needs to be made, some adjustment, or 
anything that Congress needs to do?
    Mr. Johnson. Well, certainly, the President wants Congress 
to act on his 20-in-10 proposal of 20 percent reduction on our 
dependence on foreign oil in 10 years, the two components being 
the alternative fuel standard of 35 billion gallons and, of 
course, then, revising the cafe standard. So there is 
something, yes, that can be done legislatively. With regard to 
the Clean Air Act, it is a broad, sweeping authority and we are 
currently evaluating it in light of the recent Supreme Court 
decision.
    Mr. Gilchrest. You think a cap-and-trade program similar 
to, but certainly more broad than, the one that helped 
significantly reduce acid rain, sulfur dioxide_or the matter in 
which we got lead out of gasoline or what we have done with 
CFCs_do you think that can play a role in this?
    Mr. Johnson. Well, certainly, there are a lot of tools, 
ranging from voluntary programs, partnership programs, to cap-
and-trade programs, to taxes, to a variety of other incentive 
kinds of programs that can all work to address the issue. At 
the moment, our focus, certainly at EPA, is looking at the 
Supreme Court decision and what does that mean for motor 
vehicles.
    Mr. Gilchrest. Just a last question, Mr. Chairman, if I 
may.
    Do you think we have the time to deal with greenhouse gas 
emissions based on the IPCC recommendation of trying to stay 
below 450 or 500 parts per million of CO2 in the atmosphere 
with a voluntary program by 2050?
    Mr. Johnson. Again, I think that there are a variety of 
tools that we have, both domestically as well as globally. As 
you point out, it is not only just the United States, it is not 
just the European Union, but also developing countries. 
Certainly----
    Mr. Gilchrest. I think, though, the U.S. has enormous 
influence around the world.
    Mr. Johnson. In fact----
    Mr. Gilchrest. And when the U.S. moves, people respond.
    Mr. Johnson. Well, in fact, as a Nation, as I mentioned in 
my testimony, we, as a Nation, have spent, since 2001, $37 
billion on research, on technology, and even some tax 
incentives, which is more than any other country in the world. 
So we are taking this issue very, very seriously. We have made 
progress. We clearly have more to do.
    If I could, Mr. Chairman, one of the issues that came up 
about what individuals can do. Energy Star products, you know, 
that little blue star that is on light bulbs or on computers, 
last year, by Americans buying Energy Star products, they saved 
$14 billion--that is with a ``B,'' billion dollars--in energy 
costs. And if you want to put that in terms of greenhouse gas 
emissions, that saved greenhouse gas emissions equivalent to 25 
million automobiles, just by people buying products that have 
that Energy Star label, refrigerators, computers, light bulbs.
    So clearly an opportunity, whether you are an individual, 
whether you are a Federal facility or commercial facility, here 
in the United States and around the world, we see people making 
a difference.
    Mr. Oberstar. I thank the gentleman, who has now departed, 
for his questions and for your responses; it is right on.
    In that spirit, there is a company in my district that 
manufactures an electric car that you can run for a whole year 
on what it costs you to run your refrigerator for a whole year.
    The gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I thank you for also 
holding this hearing. It is important that we look in all 
areas, especially those we see in transportation, to see how 
much energy is used. So we are looking at climate change, but 
also, just in general, trying to save energy and become more 
energy independent in our Country. It is very important to look 
at this.
    I wanted to say to Chairwoman Norton that I don't know how 
long it took me before I actually realized that there were 
windows behind the curtains in these hearing rooms. I just saw 
it hanging there, I just thought they were decoration covering 
the wall, but I finally found out there were actually windows 
back there. I chose my office based on facing south. I won't 
have an office unless it faces towards the sun, so that tells 
you a little bit about where I am looking.
    I want to ask Administrator Doan a question to first start. 
You had said that the GSA has an opportunity and responsibility 
to lead the Federal Government by example, and Chairwoman 
Norton also talked about the responsibility that the Federal 
Government has. It is not just the example that helps, but it 
has an actual impact on the market.
    I introduced a bill recently, a bipartisan bill, the Bright 
Energy Savings Act, which directs the GSA to replace light 
bulbs. Whenever a light bulb is replaced--not to take all of 
them out right away and change them, but whenever a light bulb 
needs to be replaced, doing so with a high efficiency light 
bulb. Right now, most likely, this would be a compact 
fluorescent bulb, although later this year there is a new 
generation of halogen lights that will be coming to the market.
    But the CFLs, right now use 75 percent less energy than the 
incandescent light bulbs. This results in a greenhouse gas 
emission reduction, reduction in energy used, and also it saves 
money. The estimates are about $43 over the lifetime of a bulb, 
for one bulb, and I have been told that there are about 3 
million light bulbs in GSA buildings.
    So I wanted to ask you mentioned a few things about what 
had been done by GSA in terms of lighting, although I wasn't 
exactly sure. You talked about light fixtures. I was wondering 
if there has been any effort to put in high efficiency bulbs in 
GSA buildings and what exactly has been done in this regard to 
lighting.
    Ms. Doan. GSA has actually employed several different 
strategies. One of the most basic, of course, is actually 
applying daylight harvesting strategies, such as interior and 
exterior lighting shelves that capture and redistribute the 
daylight throughout the buildings; working at limiting or 
eliminating incandescent lamps; reducing light wattages below 
the current standards.
    For example, the old practice was 4 to 7 watts per square 
foot, and the new standard is 0.9 watts per square foot. 
Providing skylights in our buildings, wherever possible, so 
that we can bring in the natural light; limiting the window 
areas; providing exterior shading; installing blinds; locating 
closed office and conference space away from windows and 
placing open office areas by perimeter windows; using light-
reflective colors.
    In addition to that, we have daylight sensing automatic 
controls for lighting and daylight zones; technologies that 
split ambient lighting, task lighting for maximum efficiency; 
occupancy sensors in non-regulatory spaces; high-efficiency 
glazing.
    This is actually a good news story for us. But most light 
bulbs, just to go back to that, are already high-efficiency 
light bulbs within our buildings. We work very closely with 
agencies to look at their desk lamps, for example, and starting 
back in 1990, GSA did a massive retrofit of all of our Federal 
buildings to address exactly the challenges that you just 
brought up, to try to increase that energy efficiency.
    In addition, I would like to say we have some incredibly 
innovative new buildings. For example, the San Francisco 
Federal Building has a daylight harvesting technique that 
actually captures the daylight and it channels it back into the 
middle of the building. It is in a tower that is only 60 feet 
wide, and because of that it now is available to provide 
daylight to all the occupants. So by combining the efficiencies 
with having switched out and retrofitted light bulbs, as well 
as some inherent efficiencies in the new kinds of design and 
construction, I think we are doing quite a bit in this area; I 
actually have like 10 pages of lists that I could go through.
    Mr. Lipinski. Well, it is great to hear that all this is 
being done. I would like you to get to me more specifics on, 
first of all--because I am hoping that--we have 65 cosponsors 
on this bill right now. I am hoping that we can do something on 
this, but I would like to have more specifics on how many bulbs 
out there have been replaced, how many have not been replaced, 
just so we have an idea about that, because I haven't been able 
to get information along those lines.
    So if you could get that for us and also a little bit more 
specifics. It is great to hear all these things are doing done, 
but there are so many GSA buildings. It would be good to know 
more specifically how widespread this has been done. So if you 
can get those to me so that we on the Committee could see that, 
I would appreciate that.
    Ms. Doan. I would be happy to provide that information, and 
I will tell you I think you will be delighted when you read it 
because it truly is a good news story that GSA is putting 
forward. Thank you.
    Mr. Lipinski. Thank you.
    Mr. Oberstar. The gentleman from Texas, Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman. Mr. Chairman, let me 
start by asking for unanimous consent to insert in the record 
words from our colleague, Congresswoman Eddie Bernice Johnson, 
who could not attend this hearing.
    Mr. Oberstar. Without objection, the Subcommittee Chair's 
statement will be included in the record.
    Mr. Lampson. Thank you. She states in here that under 
current law there are two highway programs which were started 
in the 1991 ISTEA law that she believes do support local 
efforts to combat greenhouse gases: Transportation Enhancements 
and the Congestion Mitigation and Air Quality Programs.
    Those programs, dollar for dollar, as your own data show, 
do more to help the Nation curb harmful emissions by providing 
alternatives to solo driving, whether it is expanding transit 
or carpooling, improving traffic signalization, promoting 
innovative demand management strategies, or making non-
motorized travel easier and safer; or the issue that I want to 
raise today, which is very contentious in Texas at the moment, 
and that is whether Texas elected officials can proceed to make 
policy decisions on the construction of highways without 
interference from the Federal Highway Administration.
    I have a fairly lengthy statement to make and I have some 
questions within it, Madam Secretary, and I am going to ask 
that you respond to the questions that I have in the middle of 
my statement formally by writing, if you don't mind, but I have 
two questions at the end that I would like you to comment on.
    I would like to refer and also ask, Mr. Chairman, that we 
put into the record a letter of April 25th, 2007, from the 
General Counsel of Federal Highway Administration in response 
to enquiries from the Texas Department of Transportation.
    Mr. Oberstar. Without objection, so ordered.
    Mr. Lampson. Thank you.
    Within this letter, Mr. Rey, who sent the letter, says, 
``We urge you to support the spirit of a fair and open 
competitive process in whatever procurement procedures are 
adopted.''
    Mr. Rey was referring to legislation in the State of Texas. 
It is State House Bill 1892 that passed the Texas House and the 
Senate is now waiting for the governor's signature. The focus 
of Mr. Rey's concern is a highway project, State Highway 121, 
in the Dallas area.
    Secretary Peters, I assume that you are in favor of a fair 
and open and competitive process in procurement. I certainly 
am. In fact, I would assume that the Federal Highway 
Administration, the U.S. Department of Transportation, and the 
Federal Government all are supportive of fair and open 
competitive procurement processes. I certainly am.
    Mr. Rey may not be familiar with some of the relative 
events leading up to this decision in the North Texas Tollway 
Authority, NTTA, not to bid on State Highway 121 project, so 
indulge me and let me go through a few paragraphs and tell you 
all of this.
    In January 2006, NTTA announced it was preparing to submit 
a proposal for the State Highway 121 project. Soon after the 
Texas Transportation Commission unexpectedly began a TxDOT 
comprehensive development agreement process for two significant 
projects that NTTA had spent years designing and shepherding 
through the environmental process.
    These projects are the extension of the Bush Turnpike and 
the Southwest Parkway in Ft. Worth. By starting that process, 
NTTA would be precluded by Texas law from carrying out the 
projects, and this sent an unmistakable message to NTTA 
concerning the consequences of its attempt to compete on that 
particular project. It occurred after private companies had 
complained that they could not and would not compete against 
NTTA. So Texas set about trying to fix that problem.
    NTTA did not bid on State Highway 121 because almost an 
extortion by the Texas Department of Transportation, not out of 
its own free will. In February, TxDOT awarded a preliminary 50 
year concession on this project to Sintra of Spain. Sintra's 
price was $2.8 billion. Sensing that Sintra's bid may not have 
been in the public interest, there began an effort by State 
Senator John Carona, Chairman of the Senate Transportation and 
Homeland Security Committee, to try to change that process. 
NTTA responded informally, saying that it could generate $6.3 
billion for another region, and it is able to generate so much 
more because it has such a significantly lower cost than 
Sintra.
    I don't think that you, Madam Secretary, would argue that 
the original procurement process was a fair and competitive and 
open process. Clearly, that was not the case. This House Bill 
1892 in Texas is their attempt to correct significant mistakes 
and improper action by TxDOT. It provides an opportunity to 
NTTA to submit a formal bid on that project. We hope it will 
become the law and they will have that opportunity. We don't 
know what their bid will be, that will be forthcoming in the 
next week or so, but this process provides an excellent 
opportunity to test the hypothesis that has been stated so 
often that it takes on an aura of unquestioned truth, and that 
is that the private sector can deliver transportation projects 
faster, better, and cheaper, and can deliver at greater value 
to the public.
    Now we can road-test that proposition to see if it is 
indeed true. If NTTA's initial estimate turns out to be 
anywhere close to the formal bid, hundreds of millions, if not 
billions, of dollars higher than the highest bid from the 
private firm, then we know that the public sector agencies can 
compete well against its private sector counterparts. The 
original hypothesis is more of an article of faith than a 
proven fact.
    TxDOT received a letter from Ms. Janice Brown, the Texas 
Division Administrator of the Federal Highway Administration. 
In her letter, dated April 24th, she stated that, ``In our 
view, any arrangement with NTTA would be a government-to-
government agreement and we would treat the arrangement as a 
publicly owned and operated toll facility. Should TxDOT wish to 
re-compete the CDA after terminating the current CDA 
procurement process and seek a Federal highway grant loan, we 
would be forced to closely examine the circumstances of the new 
competition to ensure it met Federal requirements for fair and 
open competition.''
    Mr. Chairman, I also ask that this letter be put into the 
record.
    Mr. Oberstar. Without objection, so ordered.
    Mr. Lampson. Secretary Peters, is a government-to-
government--and I don't want you to answer this right----
    Mr. Oberstar. I want to encourage the gentleman to come to 
his question here.
    Mr. Lampson. Okay, Mr. Chairman, I will do so and put the 
rest of this into not only a letter to Secretary Peters, but 
also into our record. This is a critically important problem 
for our State.
    There were other letters that were written; there questions 
asked by Senator Kay Bailey Hutchison. There has been 
conflicting information presented back and forth through a 
course of several letters, and I wanted to put this into the 
record.
    Mr. Oberstar. Is the gentleman asking for the Secretary to 
respond at this point?
    Mr. Lampson. I will go straight to that right now, Mr. 
Chairman. I thank you for your indulgence.
    I am confused by some of this. Statements in the letters 
that have been submitted by Mr. Rey in his May 10th letter seem 
to run counter, if not directly undercut the position that you 
have expressed and Senator Kay Bailey Hutchison's letter that 
you sent to her, so here are my two questions.
    Where does this bill, H.B. 1892, supersede Federal highway 
laws, and can you give me your firm assurance that TxDOT can 
implement H.B. 1892 in such a way that would not affect Texas' 
ability to receive Federal aid highway funds?
    Secretary Peters. Congressman, I can answer your question, 
but I cannot give you an absolute. H.B. 1892 can be implemented 
without violating Federal law if the interpretation and the 
implementation that the State of Texas takes concerning the 
general assent clauses are consistent with Federal law. That is 
the very issue that I addressed in the letter to Senator 
Hutchison on the 10th of May.
    The letter on the 10th of May from Mr. Rey to Texas DOT was 
in response to a different request from them, asking what they 
would have to do in order to ensure that H.B. 1892 did not 
violate provisions of law.
    At the end of the day, same conclusion is there, but the 
letter that Mr. Rey wrote on May 10th, of course, is a much 
more lengthy legal interpretation based on specific questions 
that TxDOT asked.
    But the bottom line of this issue is this is up to Texas to 
do this. We feel the discretion to pass this law, to implement 
this law is the State of Texas and the State of Texas alone. 
What we want to do through guidance that we have been asked to 
provide is to ensure that there is not a jeopardy in the use of 
Federal funds in that process.
    And if I may speak specifically to the State Highway 121 
procurement, as you indicated, once TxDOT started a procurement 
for a concession agreement on that particular project and then 
ultimately concluded that procurement process with an award, it 
is not possible to reopen that process at this time. The State 
of Texas may decide to cancel and to re-propose that project, 
but if they want NTTA to propose on that, it would have to be a 
government-to-government procurement, as opposed to getting 
private and public sectors bidding against one another in the 
process.
    But, again, our only goal here is to ensure that Texas 
receives the full amount of Federal highway funds that is 
available to them.
    Mr. Oberstar. I thank the Secretary for that response.
    The gentleman has pursued an extensive line of inquiry that 
goes beyond the scope of the hearing on climate change, and the 
gentleman will certainly want to pursue the matter further in 
another context.
    Mr. Lampson. I thank you for your indulgence, Mr. Chairman.
    Mr. Oberstar. The Chair recognizes the gentleman from New 
York, Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    Thank you all very much for being here. I wish I had more 
time to chat with you and to draw on your expertise. You are 
all obviously very knowledgeable. Unfortunately, I just have a 
short time. I have a couple of questions that are more 
philosophical in nature.
    Mr. Johnson, I would like to start with you. I want to 
qualify this first by saying you will be happy to know that it 
doesn't involve EPA. In our district we have a very large 
brownfield site that had a gasification plant on it. Our local 
DEC agency is proposing to deal with the PCBs by burning them, 
which by my understanding is one of the ways it was once dealt 
with. Our concern is that we are now going to be burning these 
and adding carbon to the atmosphere. Can you share some insight 
with us or your thoughts on that?
    Mr. Johnson. Well, the first is we are major fans of 
brownfield sites being restored; I think it is one of the great 
success stories of the United States and the President's 
leadership and congressional support, and we are seeing that 
literally turning brownfields into greenfields across the 
United States. So that is excellent.
    Mr. Arcuri. Well, that is one of our hopes, but our concern 
is, if you are burning it, are you actually turning it into a 
greenfield.
    Mr. Johnson. Well, the second is that we do have a 
challenge with certain hazardous wastes, including PCBs, and 
incineration is one of the effective ways. Of course, we also 
ensure that that burning complies with all applicable air 
standards so that the air quality is not impacted. But as you 
note, the issue of climate change and whether it is waste or 
fuel are among the issues that we are trying to sort through as 
we speak, post-Supreme Court, focusing on motor vehicles.
    Mr. Arcuri. Well, my concern is that they are dealing with 
the PCBs, but they are totally ignoring the fact that they are 
putting more carbon into the atmosphere, and the response tends 
to be, well, that is not really what our concern is, our 
concern is with the brownfield. And, again, this is not about 
EPA specifically, but it sort of goes to what we are talking 
about, the fact that we as a society and a government are not 
looking at this more in a global way, but in a very limited 
way.
    Mr. Johnson. Well, again, the focus or the issues of global 
climate change, there are many sources, as was noted by one of 
the early slides, that approximately 30 percent of our 
greenhouse gas comes from transportation; about 40 percent from 
power generation; and then the remaining 30 percent from a 
variety of sources, from residential, from agriculture, from 
commercial buildings and others; and that as we look across the 
array of those sources, indeed, there are a number of tools 
that we have in our toolbox to address that, and we are working 
very expeditiously to sort through that.
    But back on the brownfields, again, we are very delighted 
to see these brownfields across the Country turn into 
greenfields. It is good for the economy; it is good for the 
environment.
    Mr. Arcuri. We are going to need your help on this one. So 
I think you will be hearing from me again.
    Mr. Johnson. Okay. We would be happy to help. Thanks.
    Mr. Arcuri. Ms. Doan, just a quick question for you, and it 
sort of piggy-backs on what Representative Holmes was saying. 
Just a question. We talk a lot about the market economy and 
what drives demand. Obviously, many things drive demand, but 
one of them obviously is, when you are dealing with an agency 
as large as yours, you can affect demand.
    I would like to see every new home that is built fitted 
with solar panels, but we know that is not going to happen for 
a while because of the expense. Do you think your agency, if it 
were to require all Federal buildings to be fitted with solar 
panels, could help to enhance the demand and thereby help to 
perfect the technology for solar panels, making it more 
affordable?
    Ms. Doan. I think you are right, Congressman. GSA has an 
enormous ability to drive the industry. Because of the sheer 
volume that we purchase, we have an ability to influence. On 
the hand, I think you have to take into effect that legislation 
sometimes has an almost global effect on an activity, and we 
have to look at the solar panels as being useful in some areas 
of our Country, but perhaps not necessarily effective in 
others.
    I think you will find that, at least within GSA, we are 
working enormously hard wherever possible to try to make use of 
solar power wherever it is possible in our design. For example, 
on the southern border on our Land Border Ports of Entry 
Program, we have enormous efforts afoot there because we have 
so much natural light, sunlight available for so many very 
hours of the day. As we mentioned, here in Maryland we have 
several projects, one of which is a huge, huge roof that 
benefits from the solar power. We have an effort up in 
Massachusetts where we are doing the same.
    But I think what we try to do is we try to assess what is 
the best way to get the most energy efficiency for that 
particular location within the United States, and we have an 
enormous team of folks who are committed to the lead standard 
and who are trying very hard to make sure that we do that. We 
ourselves have committed, since 2002, to ensuring that each of 
our new building projects will configure to at least the silver 
standard with the LEED rating, and we have actually been pretty 
successful in that. But I think we do need the flexibility of 
choosing what is the very best possible solution, rather than 
having it legislated.
    Mr. Arcuri. I thank the panel very much and I thank the 
Chair for this hearing. Thank you, sir.
    Mr. Oberstar. I thank the gentleman for his questions.
    Gentleman from Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    I want to thank the panel. I was very encouraged by what I 
heard today.
    Madam Secretary, I represent Northeast Pennsylvania, and a 
lot of my folks in the eastern part of the district actually 
commute into New York everyday, clogging the New Jersey 
roadways very badly. In fact, it basically backs up from the 
Hudson River all the way to the Pennsylvania border on weekday 
mornings and in the evenings, of course. A couple hundred 
thousand, I think, spill out onto the roads every morning.
    Is the Administration prepared to handle problems like this 
through expediting construction of new transit policies, rail 
in particular?
    Secretary Peters. Congressman, I think you make an 
excellent point, and that is the very basis of this congestion 
initiative that I spoke about earlier, is to look at a very 
broad range of solutions that can be brought to bear. 
Certainly, when that traffic is idling--and that happens around 
our Nation--we waste some 2.3 billion gallons of fuel every 
year just as a result of that congestion.
    So we do want to work with communities, as I indicated 
earlier, to bring a menu of options and have the communities 
choose those that work best to address their specific needs. 
Certainly, public transportation is going to be a big part of 
that. In fact, part of what Mayor Bloomberg has proposed in 
this congestion pricing proposal that he has put out is he 
believes that it would generate some $400 million a year that 
he would like to put in to public transportation to expand 
public transportation and give people more of those options.
    Mr. Carney. Things like intercity rail, etc.?
    Secretary Peters. Correct.
    Mr. Carney. Okay, very good. Thank you very much.
    Mr. Johnson, a pretty easy question, I think, but maybe 
not. When will EPA begin promulgating regulations based on the 
Massachusetts v. EPA decision?
    Mr. Johnson. That is the million dollar question, sir. As I 
mentioned earlier, the Supreme Court decision leaves us with a 
very complex set of issues, and we are expeditiously reviewing 
those, but we will make an informed and a deliberative decision 
when we are ready. We understand and certainly have a sense of 
urgency, given the nature of global climate change, but we are 
actively talking about all options as the Administration and 
certainly under the authority of the Clean Air Act and what the 
Supreme Court said, so stay tuned, sir.
    Mr. Carney. Do you anticipate this before January of 2009?
    Mr. Johnson. Stay tuned, sir.
    [Laughter.]
    Mr. Carney. We will, certainly.
    Ms. Doan, first of all, I want to thank you for what you 
have told us; it is very encouraging. The same information that 
you are going to provide my colleague, Mr. Lipinski, I would 
sure like it myself. Thanks very much.
    In your opinion, do you think GSA has all the authorities 
it needs to pursue the highest, most efficient energy 
conservation initiatives?
    Ms. Doan. I thin GSA has a lot of resources, but there are 
some additional resources which, truthfully, we could use the 
help of Congress on. One of those would actually be to extend 
the renewable contracting authority. Right now it is only a 10 
year window that we are allowed to contract for for energy. If 
we were allowed to extend that to about 20 years, that would 
allow the development of additional energy sources to occur and 
we would be able to reap the benefit for our Federal Government 
clients of that reduced cost of energy. That would be an 
enormous help.
    Another thing that would really help us is to have a little 
bit more flexibility in the prospectus process. As you know, 
that is a multi-year process to get buildings built, and it 
would be wonderful if we could be able to revisit the 
prospectus process and insert into it any sorts of energy 
efficiencies, newer developments and technologies that would 
help increase the energy efficiency.
    And the very last thing would be able to extend the life 
cycle cost analysis. Right now it is about 25 years. If we 
could extend it to about 40 years or whatever would be 
appropriate for the kind of equipment involved. Obviously, if 
something's life cycle was 30 years, you wouldn't need 40 
years, but use something appropriate; but up to 40 years, that 
would help enormously in both cost savings for the Federal 
Government, but also allow us to offer those energy 
efficiencies to our Government customers. So any help that you 
could give us in this area would be greatly appreciated.
    Mr. Carney. I look forward to having conversations with you 
about that.
    Ms. Doan. Well, thank you.
    Mr. Carney. Thank you very much. I yield back.
    Oh, Mr. Johnson.
    Mr. Johnson. May I just add one other note? That is, we at 
EPA have an Energy Star program that we are working with our 
other Federal colleagues on for buildings. That is, we are 
looking to have buildings be able to achieve an energy start 
rating, which is the top 25 percent of energy efficiency. There 
are a number of States, in fact, 30 States plus the District of 
Columbia, who have signed on and are interested. We have 
benchmarked 12,000 schools. That is 20 percent of the schools 
across the United States. Many communities. We have 165 
existing Federal buildings that have actually earned the Energy 
Star label.
    A number of things that are important about is that the 
first step is benchmarking what the building is actually doing 
so that you know what the energy consumption is and what those 
sources are so that you can then make informed decisions, 
whether it is changing a light bulb, buying a different 
computer, buying green power, those kinds of things. So there 
are a number of activities really across the Federal 
Government--this happens to be one that we administer at EPA--
to help encourage not only from an environmental standpoint, 
not only from an energy security standpoint, but it also saves 
us money.
    Ms. Doan. Could I just jump in real quickly? I do want to 
let you know that we do have 120 Energy Star certified rated 
buildings, but one of the things you could also help us with is 
highlighting the Energy Star products that we have on our 
Federal Acquisition Services web site. So whenever you have an 
opportunity to direct folks attention to that area, that would 
help also.
    Mr. Carney. Absolutely.
    Ms. Doan. Thank you.
    Mr. Carney. I thank the panel.
    I yield back, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his line of inquiry 
and Ms. Doan for your response on life cycle cost issue. I was 
not aware that you were limited to a certain number of years in 
life cycle cost. Is that by regulation or is that by act of 
Congress? What is the limitation under which you are operating?
    Ms. Doan. It is by regulation.
    Mr. Oberstar. By regulation. You don't need legislative 
authority to go beyond 25 years.
    Ms. Doan. It is a little bit of both. Apparently, it is by 
regulation, but it is set by the national energy policy.
    Mr. Oberstar. But that is not--I have tried for nearly all 
my service in the Congress to require GSA to move to a life 
cycle cost basis for construction of buildings not just for 
energy, but for all purposes, and we have encountered 
resistance, regardless of the administration. It has nothing to 
do with is in the White House, but more with who is at OMB. I 
swear when it comes to those guys at OMB with the green eye 
shades, if Castro came into power, they would all grow beards 
and still continue doing the same things they have been doing. 
They never change.
    What we have to do is change that culture at OMB. First of 
all, we need a capital budgeting account for the Federal 
Government, which our former colleague on this Committee, Bill 
Klinger, Republican from Pennsylvania, and I worked on for 
years to establish. Now it is only an annex. The second was 
life cycle cost analysis on buildings, both for the Government-
owned and for the Government-leased. That way you can build in 
energy efficiencies over 40 years and 50 years, instead of the 
short-term period that extends only to the lease or its 
extensions. That doesn't make any sense at all.
    The Chair recognizes the gentleman from New York, Mr. Hill.
    Mr. Hall. Is that Mr. Hall, Mr. Chairman?
    Mr. Oberstar. I am sorry, Mr. Hall.
    [Laughter.]
    Mr. Hall. I don't know everybody here yet; there might 
actually be a Hill I haven't met.
    Thank you, Mr. Chairman, and thank you all, our illustrious 
panel members. Just a couple of observations first, before the 
questions.
    For the record, I would like to correct the Ranking 
Member's statement that nuclear power is emissions-free. It is 
not. It happens not to emit carbon dioxide.
    I have a nuclear plant in my district, the Indian Point 
Nuclear Plant, which is currently emitting strontium-90 and 
tritium into the groundwater into the Hudson River, and I just 
read today that it has been found in the municipal sewer system 
of the Town of Buchanan. We also had a steam release of tritium 
a couple weeks ago, as well as many other problems, and it 
happens to be in the most densely populated part of the 
Country. Eight percent of the population of the entire United 
States lives within a 50 mile radius of that plant, and anybody 
who lives there knows that the evacuation plan is unworkable.
    Moving on, however, I am very encouraged by all of your 
reports of the progress that you are making in the plans that 
you have. Administrator Johnson, I am glad you are for 
benchmarks. Seriously, I wanted to ask what progress is being 
made in terms of the efficiency of the Federal vehicle fleet. 
How many vehicles that are supposed to be flex vehicles 
actually get, approximately, in your estimation, get to use 
flex-fuel, given the fact that, in our part of the Country, 
certainly, there aren't many pumps that are serving it?
    Mr. Johnson. It is probably a response by both the 
Administrator and myself. It is true that flex-fuel, the 
availability, there are approximately 1,100 E85 flex-fuel 
stations in the United States. That is compared with about 
170,000 fueling stations across the United States. So clearly 
there is still a greater need for having additional fueling 
stations that carry the E85 fuel.
    With regard to the number of flex-fuel vehicles in the 
Federal fleet, I will turn it over to my colleague.
    Ms. Doan. I am not actually sure that there is any other 
agency in the Federal Government that has a greater commitment 
to alternative fuel vehicle than the General Services 
Administration. This year alone, GSA will buy 24,000 
alternative fuel vehicles, and by the end of 2007 GSA will have 
almost 70,000 alternative fuel vehicles in its inventory, which 
will comprise a little under 51 percent of the inventory that 
we make available to our Federal customers.
    But in addition to that, we take it one step further 
because then we recycle it into the private sector. When these 
vehicles have exceeded their useful life for the Federal 
Government, we then resell these to the private sector, and 
this year along we will probably sell about 11,600 of these 
vehicles, which will then put them into further use.
    In addition to that, I actually, right after the President 
made his announcement in January, sent out a request to our 
fleet and asked them, as an entrepreneur, I love to get ideas, 
and I said I want every innovative idea you have, I don't care 
how wild it is, I don't care if no one else wanted to look at 
it; I wanted to see it, for what we can do to try to meet or 
exceed these requirements, and they came back to me a week or 
two ago with a proposal. But, truthfully, I am sending it back 
because it wasn't aggressive enough; it was not innovative 
enough. But we have an incredible record here.
    I will give you the actual statistics for the breakup of 
the alternative fuel----
    Mr. Hall. Maybe you could give them to me in writing, 
because I only have a minute left of my time.
    Ms. Doan. Oh, I am sorry.
    Mr. Hall. No, it is okay. But I have a couple of questions 
that I would love to get the information.
    Ms. Doan. Okay. I would be happy to follow up in writing on 
that.
    Mr. Hall. Thank you.
    Secretary Peters, I wanted to ask you, given the concerns 
with energy dependence and the growing effects of climate 
change, why does the Administration propose to cut guarantee 
transit funding by more than $300 million fiscal year 2008 and 
eliminate the use of CMAQ funding for new start operations?
    Secretary Peters. Congressman, let me address the last 
question first. In terms of CMAQ funding for New Starts, there 
has been some discussion within the agency about the 
eligibility during the first three years for New Starts. That 
is an issue that we are addressing right now, so hopefully we 
will have that remedied in the near-term future.
    In terms of transit funding, we funded every project that 
was ready to go with transit, both in the New Starts and in the 
Small Starts Program, that was ready to be funded at the time 
the President's budget was prepared and, in addition, reserved 
another $72 million for some projects that are still in the 
pipeline. We do understand that there is a desire to have more 
funding there, and we simply, as we all did in order to achieve 
reductions in the overall budget that was necessary to reduce 
the deficit, had to make some tough decisions, and this was one 
of those.
    Mr. Hall. Thank you.
    Just one last question for everybody. The Vice President, a 
couple years ago, made a famous statement, that conservation 
may be a personal virtue, but it is no way to build an energy 
policy, and you have all spoken very eloquently today about 
ways that we can use efficiency or conservation, which is the 
lowest impact way of our obtaining a usable barrel equivalent, 
or BTU or kilowatt hour, and if we save it, then it has less 
environmental impact than any way of generating it.
    So combining that with the fact that the same steps that we 
would use to reduce global warming are the steps that we would 
need to reduce asthma and emphysema in our inner cities, 
especially, to reduce the increased storm frequency--in my 
district, all five counties I represent are currently under a 
disaster declaration by the State and the Federal Government 
because of the nor'easter that just went up the coast. There is 
now a named storm, Andrea, off the coast for the first time, I 
think, three weeks before the beginning of hurricane season. We 
just saw the mile and a half wide tornado that leveled 
Greensburg, Kansas.
    These things, no one of them can constitute proof by itself 
about change in climate, but they are consistent with what 
these projections show happening if the worst case scenario 
were to develop in climate change; not to mention the fact that 
if we take these same steps to prevent global warming, we will 
also be cutting back on our balance of trade deficit, no longer 
shipping petro dollars to the Middle East, as Tom Friedman 
eloquently writes about, and paying for both sides on the war 
on terror because we are funding the madrasas through the oil 
dollars, and then having to pay for and give lives and time of 
our servicemen and women to go and fight against those people 
that we have been educating, and we will also cut back on the 
debt because we won't have to borrow the money to pay for that 
oil.
    So, with those things together, would you--and this I guess 
is a simple question for all of you--consider that it is 
patriotic, it is not just good energy policy, but that, I mean, 
I would consider it and I would be curious if you would also 
consider it to be patriotic to save energy and to use the most 
energy-efficient vehicles, appliances, and practices that we as 
individuals all can?
    Secretary Peters. Congressman, I will start because I am at 
this end of the table. I think it certainly is in the best 
interest of Americans to do everything we can to conserve 
energy.
    Mr. Johnson. Just to add to that, it is the near-term 
solution that we can make progress in improving energy 
efficiency. For the intermediate and long-term, technology is 
the key, whether it be clean coal technology, more cost-
effective solar, use of wind, hydroelectric, nuclear, other 
forms of power. Technology and investment in that technology 
will deliver us in the future.
    Mr. Woodley. I would just briefly concur in that. We 
definitely need to place every emphasis we can on conservation.
    Ms. Doan. I agree. We lead by example at GSA and I, as the 
Administrator, also lead by example, using alternative fuel 
vehicles for my transportation. But I also think this 
conservation is good for America, and that can never be a bad 
thing.
    Mr. Hall. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman for his thoughtful 
questions and for the panel for their responses.
    I just want to pick up, Ms. Doan, on your response to Mr. 
Hall. You said that at a date in the future, which I didn't 
write down at the moment, you expect to have 70,000 alternative 
fuel vehicles. Does that mean that the total GSA--and you said 
that would be 51 percent--the total fleet is in excess of 
140,000 vehicles?
    Ms. Doan. Yes, it is, it is about 170,000 vehicles.
    Mr. Oberstar. A hundred seventy thousand. Okay, thank you.
    The gentleman from Louisiana, Mr. Boustany, has been very 
patient, waiting for all of our Members on our side to go 
through their questions, and I appreciate his forbearance. The 
gentleman has a number of questions and may proceed.
    Mr. Boustany. Thank you, Mr. Chairman. I just have two 
final questions for Secretary Peters.
    First of all, how much fuel is wasted each year as a result 
of highway congestion?
    Secretary Peters. Congressman, at a very conservative 
estimate, 2.3 billion gallons.
    Mr. Boustany. Thank you.
    Mr. Oberstar. Let me put it another way, if I may intrude 
on the response. We consume three tanks of gasoline more a year 
per driver in America in the 68 major metropolitan areas that 
are the most congested in the Country, three tanks of gasoline 
more than we would if we could drive at posted highway speeds. 
That adds up to more than a week a year spent in your car than 
you would if you could drive at posted highway speeds. That is 
an enormous waste. That is a $68 billion congestion tax on 
America.
    Mr. Boustany. Exactly. I am glad you pointed those things 
out.
    Thank you, Madam Secretary.
    Secretary Peters. Chairman Oberstar, if I may add, it not 
only wastes all that fuel, but vehicles burn fuel much less 
efficiently at that stop and go traffic and lower speeds, so it 
contributes disproportionately to emissions.
    Mr. Boustany. Thank you.
    My final question is may State DOTs do not fully utilize 
their Congestion Mitigation and Air Quality funds because the 
requirements of the program supposedly are stringent. Do you 
think the States would find the program more attractive if they 
were able to use some of those funds for highway capacity 
expansion, particularly if the capacity expansion could be 
shown to improve air quality?
    Secretary Peters. Congressman, yes. I do believe in the 
greatest flexibility. You may know that before I had the 
opportunity and the pleasure to work with all of you, I was the 
director of the Arizona Department of Transportation. 
Flexibility is the key, giving State and local governments the 
ability to use the funds where they can make the biggest 
difference.
    Mr. Boustany. Thank you.
    Mr. Chairman, that concludes my questions. I just want to 
thank the distinguished panel for spending this Friday morning 
with us.
    Secretary Peters. Thank you.
    Mr. Oberstar. Ms. Doan, on page 11 of your testimony you 
describe the GSA Federal building in San Francisco using 
natural ventilation to cool the building, an example of 
avoiding energy use. Do you know how far back that goes?
    Ms. Doan. Excuse me?
    Mr. Oberstar. Do you know how far back that goes in 
history?
    Ms. Doan. No, sir, I do not.
    Mr. Oberstar. To the Romans. They diverted streams to run 
them through buildings and cool them. Napoleon located his 
sister on the Isle of La Tortue, off the north coast of Haiti, 
Colleen, and built a structure for her in the 1790s, 1800, 
roughly, and diverted a stream to run through the building to 
cool it for his precious sister, so she wouldn't have to sweat 
in the heat of the tropics. That is an old practice. I am glad 
you are rediscovering it.
    In 1982, I, with several of our colleagues, traveled to 
Toronto, Ontario to observe Canada's energy conservation 
practices. A major public-private sector building occupied by 
eight agencies of the provincial government and private sector 
companies was entirely heated by solar power and entirely 
cooled by water running through and recirculating through the 
structure. So it is good that you are rediscovering these 
practices.
    You, GSA, are the landlord of 367 million square feet of 
civilian office space and your testimony was excellent, it 
describes progress made. If we could fit--futurefit, not 
retrofit--all those Federal civilian office buildings with 
photovoltaics or other solar applications, do you have any idea 
how much of that $5,800,000,000 in annual energy cost we could 
save the taxpayers of this Country?
    Ms. Doan. We could save 30 percent.
    Mr. Oberstar. It is more than that. It is a much greater 
number than that. And we intend to help you do that in this 
Committee. We have already moved to retrofit the Department of 
Energy with the south wall that was constructed with no 
windows, no doors for the purpose of a solar application, but 
it has never been done. Now we are going to do that. We passed 
a bill from this Committee through the House, pending over in 
the Senate. As soon as they can get through galactic 
discussions over there, broad public policy issues, come down 
to sole practical things, they will pass it, and we will take 
it out of the GSA Building Fund and make that a template for 
America. We can do that.
    The cost of photovoltaics is now 25 cents a kilowatt hour. 
It was 1.75 in 1977, when I authored legislation, and got it 
enacted, President Carter signed into law to invest $175 
million a year over three years to retrofit all Federal office 
buildings with photovoltaics and drive the cost down; use the 
private sector as the producer, the Government as the consumer, 
the public as the beneficiary. The problem was Carter went out 
and lost the election in 1980, Ronald Reagan came in and 
abolished the whole alternative energy program. He just 
dissolved it with his 1981 budget. Well, we are going to turn 
that around. The cost of photovoltaics on its own has come down 
to 25 cents a kilowatt hour, and if we implement this program 
of converting Federal office space to photovoltaics, we can 
drive it down to below the 7 cents a kilowatt hour average from 
the investor-owned utilities. Isn't that a great benefit for 
the public?
    Ms. Doan. Chairman, I look forward to working with you on 
all the different ways that you and your Committee can help us 
save and conserve energy for the American people and for our 
Government clients. There is enormous opportunity out there and 
I think this could be a very exciting time for all of us. Thank 
you.
    Mr. Oberstar. Thank you. I look forward to your 
cooperation.
    [Applause.]
    Mr. Oberstar. No outbursts from the audience. This is not a 
public demonstration.
    Secretary Peters, we have a great opportunity in transit to 
make a substantial benefit. We started on this point earlier in 
my recitation of Mayor Bloomberg's statement about transit. If 
we had a 10 percent mode shift to transit, we could save the 
equivalent of all the oil we import from Saudi Arabia. That is 
550 million barrels a year.
    Now, what puzzles me is why the Administration's budget is 
$300 million short on the transit account for the coming fiscal 
year. Why is that?
    Secretary Peters. Mr. Chairman, as I mentioned earlier, we 
did fully fund every transit project that was ready to be 
funded, as well as reserved $72 million for additional 
projects. We simply had to make some tough decisions in our 
budget in order to keep the overall spending level down. But we 
did not sacrifice any projects that were either ready to go or 
in the pipeline ready to go.
    Mr. Oberstar. Okay, I appreciate that you didn't sacrifice 
any projects that are ready to go, but you didn't advance the 
cause by that cutback, and I am badgering our colleagues on the 
House Appropriations Committee to increase the funding.
    Secretary Peters. Congressman, I understand that, Mr. 
Chairman. Also, there is over $1 billion each year that is 
flexed from highway spending to transit spending to help build 
transit projects throughout the United States.
    Mr. Oberstar. Well, we have a great deal more that we can 
do, and if we made that mode shift, which Europe is doing and 
largely has accomplished, we can save enormous amounts of 
energy and impact on the environment. Furthermore, if we make 
an additional mode shift--and I want to compliment the Federal 
Highway Administration, it started under your direction there, 
with bicycling. I want to see us make a start on converting 
from the hydrocarbon economy to the carbohydrate economy and 
put people on the seat of a bicycle. Instead of burning 8 
barrels of oil a year in your car, burn 86,000 calories a year 
on the seat of a bicycle. We can do that.
    Munster, Germany, a little town on the western edge of 
Germany, on the Dutch border, was bombed to smithereens in 
World War II. It has been rebuilt; 250,000 people. Mode share 
for bicycling, 48 percent. The mayor of Munster rides to work 
on his bicycle. They have parking for 4,000 bicycles in the 
center of the city, and they are adding more. They have a 20 
foot head start for bicycles at intersections and a 20 second 
head start on traffic lights for bicycles. We can do that in 
America. Forty percent of all trips in Denmark are by bicycle; 
35 percent of all trips in the Netherlands are by bicycle.
    Tim Arnade, in the Federal Highway Administration, has led 
the way wonderfully with the Safe Routes to School Initiative, 
and I applaud you for your support of that initiative. We have 
got to change the habits of an entire generation of Americans. 
We have an opportunity to make a difference in childhood 
obesity and childhood type 2 diabetes. We can do that through 
the transportation account and have a beneficial effect on our 
environment.
    Secretary Peters. Mr. Chairman, in fact, many Americans 
agree with you. Since 1992----
    Mr. Oberstar. I want to see a little enthusiasm.
    [Laughter.]
    Secretary Peters. Mr. Chairman, in 1992, only $23 million 
was spent in bicycle and pedestrian activities. Today, because 
of flexibilities that you and your colleagues have included in 
laws, that amount has increased to $396 million in fiscal year 
2006; and with the Safe Routes to School Program getting 
underway, it is expected to go even higher in the future.
    Mr. Oberstar. Let me supplement that by saying since I 
crafted the language for bicycling in ISTEA in 1991, we have 
invested $3.5 billion in bicycle facilities, built nearly 
40,000 lane miles of bicycling facilities across America. Last 
year, more bicycles were sold in America than automobiles, and 
that is a good thing for the Country.
    One last observation. Secretary Woodley, one of the issues 
that we have dealt with extensively for the Corps of Engineers 
is watershed management of water resources on a watershed 
basis. The Corps has sporadically addressed the issue in this 
way. I want to see the Corps addressing our water resource 
issues in a systematic way in this climate change era, where we 
are seeing extraordinary variations; excess water in one area 
of the Country, deficit in another. The Upper Midwest, the 
Great Lakes watershed, for example, is going through, now, its 
fifth year of drought, and, yet, just to the west of us, in the 
Red River Valley that drains north to the Canadian watershed, 
they have an excess of water.
    What direction have you given the Corps to address the 
issue of watershed management of our resources?
    Mr. Woodley. Mr. Chairman, one of the most significant 
initiatives that we have taken in this Administration, is to 
craft and put in place a strategic plan for the Corps of 
Engineers that stresses the need for watershed based planning. 
We have embraced initiatives of the Congress to further that 
aim. It is one of our intents to continue our planning and to 
enhance our ability to look at watersheds as systems and to, 
rather than approach not only our planning and construction, 
but also our operation and maintenance over time, using the 
watershed as the fundamental basis. That is a different way of 
thinking. There is a little bit of resistance to it in some 
quarters, but we believe we are making progress on managing our 
assets and also on having our planning basis using the 
watershed approach.
    The real significance of this and the power of it, Mr. 
Chairman, is that we have a tendency in this Country and the 
political wisdom of our forefathers has been to use the 
waterway and the stream bed as a political boundary. If you go 
to Mr. Boustany's part of the world, you will see that the 
Sabine River is on one side and his district is right there. If 
he looks across that great river, he will see not only a 
different district, but a different State of the union, and 
that is quite common along the Mississippi as well. So our 
work----
    Mr. Oberstar. But climate doesn't respect political 
boundaries.
    Mr. Woodley. None of the things that we are talking about 
today respects those political boundaries. So what we need is a 
comprehensive and collaborative effort to cross those 
boundaries, to reach across them, and that is what I have 
charged the Corps of Engineers and what the President has 
charged the Corps of Engineers, in the area of water resource 
development, flood damage reduction, and storm damage 
reduction, and water resource development in general to be the 
catalyst for that collaborative effort.
    Mr. Oberstar. Thank you. We made a start on that in the 
WRDA bill that the House passed. We are going to expand on it 
in the future, and there is probably no place in America more 
reflective of the need for comprehensive watershed management 
than the wetlands and the shoreline, the coastline along East 
Texas, all through Louisiana, Mississippi, and on to Alabama.
    If the gentleman has any comment on that.
    Mr. Boustany. I would just appreciate Secretary Woodley's 
comments, because clearly, as we know down in Louisiana, that 
is the approach that needs to be taken; otherwise, we are going 
to continue to have problems as we separate parts of how we 
manage water, dealing with maybe just transportation issues 
versus some other aspect of it. Clearly, a comprehensive 
approach is necessary. Thank you.
    Mr. Oberstar. The gentleman from New York, Mr. Hall, has 
another question.
    Mr. Hall. Thank you, Mr. Chairman.
    Thank you to all my absent colleagues so that I could get 
one more question in.
    I was wondering, given the sort of medium and worst case 
scenario projections of the IPCC, among others, for sea level 
rise and the fact that we are sitting almost on the banks of 
the Potomac, which is part of the Chesapeake estuary, which is 
affected both by sea level and, of course, by tides, and then, 
in the case of storms, by wave action on top of the tides, 
Secretary Woodley, has the Corps done, or are you thinking of 
doing any projections--and I guess this would be for 
Administrator Doan as well--projections as to the effect on 
Government buildings and on the D.C. area in general of 15 to 
20 to, worst case, 25 foot rise in sea level?
    I am on the Select Committee on Climate Change, Energy and 
Dependence, and we heard testimony from insurance and 
reinsurance executives, and former CIA Director Woolsey and 
others that they consider, depending on how quickly we act and 
how effectively we and other countries that we have no control 
over, act around the world, we may be looking at, at least the 
middle case scenario of sea level rise, we might get the best 
case if we act really fast. Thoughts on that?
    Mr. Woodley. The answer to your question is somewhat 
complex, but the basic answer is yes, we have. The rest of the 
answer is a little more complex. The basic answer is that we 
are examining and seeking to understand the potential scenarios 
for climate change so that we can apply them in individual 
cases. The complexity arises because the Administration does 
have a plan for a project to improve the storm damage reduction 
capacity for the National Capital area, and I regret to say 
that we proposed that in our President's budget for two years 
running, and in each of those two years it was removed during 
the congressional process, and we have not proposed it again 
based on what we understood the guidance that it was not 
something that the Congress wanted to proceed with. So I would 
be willing, if anyone is interested, to continue that 
discussion.
    So the answer to your question, like the answer to most 
questions in the civil works program, the answer to your 
question is yes and no.
    Mr. Johnson. Just to add, there is a forthcoming report 
from the U.S. Climate Change Science Program this fall, late 
winter that is actually looking at the impacts and the 
vulnerability of our coastal wetlands and impacts of global 
climate change. So that is something. NOAA is leading the 
charge. Actually, there are going to be some public hearings I 
think beginning in the next couple months. So on the coastal 
wetland issue, that vulnerability assessment is well underway.
    Ms. Doan. And at GSA we have some firsthand experience with 
this because, after the flooding that we experienced last year 
in the Metro D.C. area, we realized that what we need to do is 
look more closely at our portfolio of properties that are in 
D.C. to see what do we need to do to ensure that what happened 
at the IRS building would not happen to those particular 
buildings where we had extensive flooding because of the 
extraordinary volume of rain that happened during that time 
frame. So we have begun taking a very close look at our 
portfolio on this very issue.
    Mr. Hall. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the panel for their perseverance, for 
their thoughtful responses, and frank, candid responses to our 
questions. You have added substantially to our fund of 
knowledge on the subject, and this will be a continuing 
dialogue as we go forward. Thank you. The panel is excused.
    Our second panel includes Acting Architect of the Capitol, 
Mr. Stephen Ayers, and the Chief Administrative Officer for the 
House of Representatives, Mr. Daniel Beard.
    Gentlemen, thank you for being with us. Your statements 
will be included in the record, and you may proceed with your 
opening statement.
    Mr. Beard?

  TESTIMONY OF DANIEL P. BEARD, CHIEF ADMINISTRATIVE OFFICER, 
 U.S. HOUSE OF REPRESENTATIVES; STEPHEN T. AYERS, AIA, ACTING 
 ARCHITECT OF THE CAPITOL AND DEPUTY ARCHITECT/CHIEF OPERATING 
                OFFICER, UNITED STATES CONGRESS

    Mr. Beard. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the Committee to discuss Speaker 
Pelosi's green capital initiative.
    On March 1st, the Speaker, the Majority Leader, and the 
former Chair of the Committee on House Administration directed 
me to develop a series of preliminary recommendations to reduce 
environmental impacts associated with the operation of the 
House office building complexes.
    As they noted in the letter, the House sought to 
demonstrate leadership to the Nation by providing 
environmentally responsible and healthy working environments 
for our employees.
    I undertook the review of House operating procedures and 
made recommendations on April 19th in six general areas. The 
Speaker has endorsed these recommendations and has written to 
the architect and myself, directing that we implement them.
    Before discussing the changes, I would like to just talk 
briefly about the carbon footprint of the House of 
Representatives.
    Using figures that were developed by the Government 
Accountability Office and reviewed by Lawrence Berkeley 
National Labs, we estimate the operation of the House complex 
is responsible for 91,000 tons of greenhouse gas emissions in 
fiscal year 2006.
    Electricity use accounts for 63 percent of that. The 
Capitol Power Plant accounts for another 33 percent; and all 
other business-related uses for the remainder of the carbon 
dioxide emissions from the House.
    The Speaker has directed the following changes in the 
operation of the House. First, she has made a decision to 
operate the House in a carbon-neutral manner until the earliest 
possible date, certainly no later than the end of the 110th 
Congress. By implementing this recommendation, we will be 
eliminating the 91,000 tons of greenhouse gases identified, 
which is equivalent of taking 17,200 cars off the road.
    Second, the purchase of electricity is the largest source 
of our carbon dioxide emissions for the operation of the House, 
and to assist in achieving our carbon-neutral goal, we will 
purchase 100 percent of our electrical needs, our electricity 
needs, which is approximately 103,000 megawatt hours a year, 
from renewable sources at the earliest possible date. By 
implementing this recommendation, we will be reducing our 
carbon footprint by 57,000 tons, or the equivalent of 11,000 
cars.
    Third, the Speaker has directed a series of immediate 
actions to reduce energy use. These include converting all 
12,000 desk lamps in the House office buildings to compact 
fluorescent bulbs, converting the overhead ceiling lights to 
high-efficiency lighting and controls at the earliest possible 
date, and making compact fluorescents available at the House 
office supply store at cost to House employees.
    The House is a major purchaser of goods and services and 
products, and the Speaker has directed us to demonstrate 
leadership in that area as well. We are directed to purchase 
only office equipment and appliances that are certified through 
Energy Star, Federal Energy Management, or the electronic 
product environmental assessment tool.
    We are directed to give priority to the purchase of 
adhesives, sealants, paints, and carpets manufactured by 
companies that offset life cycle contributions of greenhouse 
gas emissions and we will be finishing the installation, the 
Architect's Office will, of an ethanol tank, pump, and related 
infrastructure for House vehicles.
    To provide leadership on climate change and sustainability 
issues, we will hold a Green Expo for House offices, show 
employees how they can make a contribution to impacting climate 
change at home or at work, and establish a green building, a 
revolving to fund energy and water conservation initiatives 
here on the campus.
    But even by implementing all of these measures, the House 
may not operate in a carbon neutral manner. As a result, the 
Speaker has directed me to recommend a strategy for offsetting 
our remaining greenhouse gas emissions by either purchasing 
offset credits or investing directly in mitigation or energy 
conservation projects. Since the domestic offset market is in 
its infancy and lacks uniform national standards, I think it is 
important for the House to approach this issue very carefully.
    The recommendations in the Speaker's initiatives are only 
the first step in the process of creating a green Capitol and 
more sustainable House operations.
    My final report is scheduled for release on June 30th, and 
it will contain additional recommendations and provide a 
framework for guiding our future activities. In the June 30th 
report, we will have benchmarks for energy use, goals for 
reducing energy and carbon and timetables for implementing 
various changes in our operating conditions as well as measures 
for reporting progress on a regular basis.
    Again, I thank the Committee for the opportunity to appear 
and testify this morning.
    Mr. Oberstar. Thank you very much, Mr. Beard, an excellent 
statement.
    Mr. Ayers.
    Mr. Ayers. Mr. Chairman, Members of the Committee, thank 
you for inviting me here today to discuss the initiatives and 
projects the Architect of the Capitol has undertaken over the 
past several years to conserve energy across the Capitol 
complex.
    We appreciate the Congressional leadership's commitment to 
reduce energy consumption. As Mr. Beard noted, we recently 
received direction from the Speaker to complete a number of 
energy saving initiatives during the 110th Congress. She has 
our commitment to help achieve the goal of operating the House 
in a carbon neutral manner.
    We will also continue to work with Mr. Beard's office as he 
finalizes the green Capitol report, and I believe that our 
individual actions can add up to a tremendous collective effort 
and can produce significant results in taxpayers' dollars and 
conserving our natural resources.
    On behalf of the Congress, AOC is complying with the 
requirements and goals of the Energy Policy Act of 2005. Under 
the act, the AOC was required to reduce energy consumption in 
2006 by 2 percent. I am pleased to report today that we and the 
Congress have exceeded that goal of 2 percent by reducing our 
energy consumption by 6.5 percent in fiscal year 2006.
    We exceeded this goal through a variety of projects and 
programs. Just to mention a few, we have initiated a pilot 
program in the House office buildings to install dimmable 
ballasts in stairwells, we are replacing conventional 
incandescent bulbs with compact fluorescent bulbs and are 
installing occupancy sensor switches in offices, conference 
rooms and Committee spaces upon request.
    In addition, we are installing restroom fixture motion 
sensors and low flow devices to conserve water. We have 
upgraded elevators and escalators with energy efficient 
equipment, and we are installing modern heating and cooling 
systems, and replacing old inefficient windows with airtight 
insulated units.
    We have implemented a policy requiring the purchase or 
leasing of alternative fuel vehicles and are using energy 
savings performance contracting to increase building energy 
efficiencies and upgrade infrastructure, and we have contracted 
for 3 percent renewable energy in 2007.
    Active participation by Congressional and other offices in 
our recycling program has been significant to its success in 
recent years. Last year, we recycled nearly 2,300 tons of 
paper, and over the last five years the total tonnage of non-
contaminated recyclable wastes has tripled, while revenue from 
the recycling program is now up over 60 percent.
    The AOC has initiated two energy savings performance 
contracts, and we plan to utilize more to achieve a portion of 
the required energy reductions under the Act. Our goal is to 
utilize the performance contracting process in all of the major 
buildings across the Capitol campus. These contracts allow the 
AOC to initiate energy savings projects with little up-front 
appropriated funding.
    To ensure that our efforts save energy and save taxpayer 
dollars, we are planning to conduct additional energy audits. 
To date, five have been conducted, and our goal is to conduct 
audits on all buildings on a five-year rotating schedule. Funds 
have been requested in our FY 2007 and 2008 budgets to continue 
this important process.
    In addition to the energy audits, we have completed studies 
to identify projects, techniques, and policies which can be 
implemented to save energy. For example, we are currently 
evaluating the viability of adding cogeneration capability to 
the Capitol Power Plant which could provide steam, 
supplementary electricity, and backup power to the Capitol 
complex and reduce emissions by more efficiently capturing 
energy output.
    As I mentioned earlier, the AOC and Congress were able to 
achieve a 6.5 percent decrease in energy consumption for FY 
2006 despite the added energy load of additional facilities 
across the Capitol complex. It is important to note that the 
largest single contributor to our energy reduction efforts was 
the Capitol Power Plant. Between 2003 and 2006, the Plant cut 
its electrical consumption by 6 percent and fuel energy 
consumption by over 12 percent as a result of new and improved 
energy efficiency measures implemented there.
    Looking ahead, there are a number of initiatives we plan to 
implement to ensure we meet or exceed the Energy Policy Act of 
2005 of reducing our energy consumption by another 2 percent in 
fiscal year 2007. We will continue purchasing renewable energy 
and use energy savings performance contracts.
    By practicing energy efficiency management, we save 
taxpayer dollars, reduce greenhouse gas emissions and protect 
the environment. Our actions and the actions of Congress are 
making a difference and have saved energy across the Capitol 
complex. We agree with the Congress that we need not only to 
comply with the Energy Act but we need to be leaders in the 
national effort to save energy. As stewards of the Capitol 
complex, we will continue to do our part to make this goal a 
reality.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much, both of you, for 
testimony and for the well documented information submitted to 
the Committee about the works in progress and the achievements 
to date of greening the Capitol. We need to pursue this matter 
with great vigor.
    I recall, in 1977, debate in the Senate on portions of then 
President Carter's energy program. In the course of the debate, 
then Senator Jennings Randolph of West Virginia held up a 
thermometer in the Senate chamber_this was February_and said, 
we can do better. Look at this room. It is overheated. It is 
over 72 degrees in here. We can put on sweaters, and we can 
have a lower temperature and save all this energy.
    The next day, the Senate began and Senator Randolph held 
his thermometer up and said, look at that. It is now 68 
degrees. Think of all the energy we are saving.
    A reporter asked the Architect of the Capitol, what did you 
do?
    He said, well, we can't modulate the temperature here under 
the circumstances in which we operate, so we just opened up the 
outdoor air vents and let more outdoor air into the chamber and 
cooled it right down.
    [Laughter.]
    Mr. Oberstar. Senator Randolph was not amused by that 
answer.
    I hope you have more ability to modulate. According to the 
testimony you have submitted, apparently you do.
    What we have here is a district heating and cooling system, 
is it not, in the Capitol compound. It is cogeneration.
    Mr. Ayers, I liked your comment about retrofitting. You can 
start with windows in this room right here. There is a window 
right back here. When the wind blows, it whistles in this room, 
howls, and you can see the curtains move. That is not very 
efficient.
    Mr. Ayers. No, sir, it is not.
    Mr. Oberstar. We have asked many times to fix that. People 
come with caulking guns, and nothing seems to work. So you 
could make a start on it right here.
    On a more serious question, is the generation facility for 
the Capitol able to move? Are the boilers able to accept 
material other than coal? Can you fuel switch?
    Mr. Ayers. Yes, sir.
    Mr. Oberstar. Use wood chips, for example.
    Mr. Ayers. We cannot currently use wood chips. We have 
seven boilers at the Capitol Power Plant which create steam to 
heat and humidify the 23 buildings and nearly 15 million square 
feet of space across the Capitol complex, and of those seven 
boilers, two of them burn coal. The remaining five burn oil or 
natural gas. So we are able to modulate between those.
    Mr. Oberstar. There is some fuel switching between oil. You 
can use natural gas. You have a sufficient supply line to the 
boilers.
    Mr. Ayers. We have a sufficient supply line for our current 
operation, yes, sir.
    Mr. Oberstar. Could the entire system be switched to 
natural gas?
    Mr. Ayers. Yes, certainly, we believe it can.
    Mr. Oberstar. I am just asking technically whether that can 
be done.
    The second question is there certainly is an environmental 
benefit. Is there a cost benefit or is it more costly to 
operate on natural gas?
    That may depend on time of year and pricing and the 
marketplace.
    Mr. Ayers. Certainly, the way we create steam now is based 
on a formula of a most economical scenario between coal, 
natural gas, and fuel oil. Over the course of the last six 
years, we average about 48 percent coal and another 40 percent 
or 45 percent natural gas and the reminder, fuel oil.
    To the question of can we convert completely to natural 
gas, yes, certainly. Five of those boilers now are capable of 
fully running on natural gas, and the remaining two that 
primarily burn coal would take some significant retrofit on the 
order of a 7 to 10 million dollar retrofit of those two boilers 
to convert them to 100 percent natural gas, but it certainly 
could be done.
    In terms of future costs, in today's market, natural gas is 
certainly much more expensive than coal and fuel oil, and we 
would estimate that an 8 to 10 million dollar-a-year increase 
in our annual utility bills would result by burning 100 percent 
natural gas.
    Mr. Beard. If I could add, Mr. Chairman.
    Mr. Oberstar. Go ahead, Mr. Beard.
    Mr. Beard. I think it is important to add to this debate, 
though, that if we switch to 100 percent natural gas, we would 
certainly have a significantly reduced environmental footprint 
and carbon footprint. Right now, the Congress is the proud 
owner and operator of a facility that is the second largest 
point source pollution in the District of Columbia.
    And so, I think there is a significant environmental 
benefit associated with moving to 100 percent gas. The 
Architect of the Capitol tried to do that in 1980 and was 
convinced to do otherwise in some very persuasive ways.
    Mr. Oberstar. I don't think it was a matter of convincing. 
It was a matter of shutting down the Architect and saying it 
will be done this way. I remember that.
    Mr. Beard. Yes.
    Mr. Oberstar. I remember that episode.
    Mr. Beard. But I also think that is an important debate to 
have, especially for this Committee and the leadership of the 
House of Representatives, certainly, and this isn't a partisan 
issue at all. It is a very bipartisan issue. There has been 
very strong support in the House anyway for converting to 100 
percent natural gas.
    We also get some pushback from some of the coal State 
members as well.
    Mr. Oberstar. I understand that.
    Now supposing that the Capitol Power Plant operators had to 
go out and purchase credits in the marketplace. We were just 
working over the other agencies of the government and the 
Executive Branch and pushing them on initiatives they can and 
should be taking for life cycle energy costing and more energy 
efficient buildings and a more energy efficient fleet in GSA, a 
vehicle fleet in GSA. We need to be doing that ourselves here 
in the Capitol complex.
    So if you had to go out and purchase credits for let us say 
a rain forest in Ecuador or Bolivia as has been done, reserve 
an area of forest from harvesting that would absorb the 
equivalent of the CO2 emissions of the Capitol Power Plant, 
what do you think that would cost?
    Mr. Ayers. My understanding in our conversations with Pepco 
Energy Services is that is about $5 a metric ton.
    Mr. Beard. So I think in that case it is not as expensive 
as one would anticipate. I think the more important thing, and 
this is why the Speaker has directed that I develop a strategy 
on how to approach the offset problem between now and the end 
of June.
    We are using taxpayer funds, and we have to be extremely 
careful that we are not investing in some fly by night scheme 
to offset credits. And so, we have to make sure that whatever 
offset choice we pick, at least for the House from the 
standpoint of the House of Representatives, we want to be 
absolutely certain that what we do withstands a public scrutiny 
test on behalf of all the Members.
    And so, I think that is probably the biggest challenge we 
have because the offset market is a fledgling market. It is 
much more mature in Europe. In the E.U. and in Europe, it is a 
much more mature market. It is a safer market, but here we have 
got to be very careful.
    Mr. Oberstar. I am going to yield to the gentleman from 
Louisiana.
    I am not a great fan of emissions trading and of credit 
purchasing. I think it is a fine interim step. It is not a long 
term solution.
    The case I just cited a moment ago is not theoretical. It 
was an actual case of a power plant in the State of Ohio that 
purchased credits in a rain forest in Ecuador that was slated 
for logging, and they purchased it or provided money to it for 
the government of Ecuador to take it off limits for logging and 
preserve substantially more carbon absorbing capacity in that 
rain forest than the power plant was emitting itself.
    That is good for the interim. We need to have longer term 
solutions.
    The gentleman from Louisiana.
    Mr. Boustany. Thank you, Mr. Chairman.
    First of all, thank you for your testimony. It was very 
informative, and it highlights the magnitude of the challenge 
that you face to meet these goals environmentally and yet 
dealing with the cost that is going to be incurred, especially 
with an aging infrastructure and so forth.
    Mr. Ayers, I think in your testimony you mentioned that you 
are studying replacing the Rayburn roof with a photovoltaic 
roofing system. Is the existing roof system or roof near the 
end of its useful life or are we going to remove the existing 
roof while it is still functional? Can you give me an 
indication of where we are with that?
    Mr. Ayers. Yes, sir. We are actually undertaking two 
feasibility studies now, one of the Hart Senate Office Building 
and one on the Rayburn House Office Building, and both of those 
buildings were selected because those roofs are coming up on 
the end of their useful lives.
    We recently completed comprehensive condition assessment 
surveys of all of our buildings, using an independent vendor, 
and have mapped out the life cycle of all of our facilities. So 
that is why we picked those two because they are nearing the 
end of their useful lives.
    Mr. Boustany. You have accounted for the timing and all 
that.
    Mr. Ayers. Yes, sir.
    Mr. Boustany. Good.
    You mentioned that the Architect of the Capitol was able to 
achieve a 6.5 percent decrease in energy consumption in fiscal 
year 2006 despite adding new space and new construction with 
the Capitol Visitors Center, the National Audio-Visual 
Conservation Centers.
    What steps were taken in the construction of these new 
facilities to make them more environmentally friendly?
    Mr. Ayers. Certainly, primarily in the Capitol Visitors 
Center, for example, we have selected premium efficiency motors 
and equipment, installed compact fluorescent lighting 
throughout, motion sensors in all of the appropriate rooms, low 
flow plumbing equipment. In addition, of note on the Capitol 
Visitors Center, we are recycling 50 percent of our 
construction waste.
    On the National Audio-Visual Conservation Center in 
Culpeper, Virginia, which is a partnership between us and the 
Packard Humanities Institute, that is our first green roof 
under our auspices, the first green roof we have designed and 
implemented. So that is our sort of foray into that technology.
    Mr. Boustany. I thank you.
    Mr. Beard, how does our carbon footprint in the House of 
Representatives complex compare to the carbon footprint of all 
Federal agencies and private companies as well that employ a 
similar number of employees?
    Mr. Beard. I would have to double check for the record, but 
my guess would be it would be higher. We have aging 
infrastructure. I mean our portion of the Capitol is the year 
1800, 1790. The Cannon Building is 1901, Longworth, 1930, and 
this building, 1964, I think, and the Ford Building, I don't 
know when the Ford Building was built.
    But I think that in the private sector, what we are trying 
to do is something that every major corporation in America is 
doing and every major institution, university campus and system 
is doing as well. They are trying to reduce their energy and 
water costs and promote energy and water conservation, reduce 
costs and reduce their carbon footprint at the same time.
    We are not that big. I mean we are six million square feet 
on the House side and approximately 10,000 employees. There are 
universities in your district, I am sure, that are larger than 
that. So our problems are not that unique.
    What makes us really unique and the challenge that the 
Architect's Office has is the historical nature of our 
buildings, the tremendous public use that we get of our 
buildings and then the fact that we have a board of directors 
that consist of 440 members which, on occasion, can make things 
challenging and interesting.
    [Laughter.]
    Mr. Boustany. Thank you.
    In your testimony, you outlined a significant number of 
proposed changes in the operation of the House. Could you give 
us an indication of the increased costs associated with these 
changes? Can you give us a little more information on that?
    Mr. Beard. I would be happy to do that for the record.
    It is going to cost more, particularly purchasing. I think 
we have tentatively identified approximately $4 million of 
increased costs that will be included. We are negotiating with 
the Appropriations Subcommittee, probably somewhere around $4 
million in additional costs.
    But that has to be offset by the reduction in operating 
costs that we will receive. I mean it is easy to downplay 
compact fluorescent light bulbs. The payback time on something 
like that is three, four months. And so, we anticipate 
replacing just all the lamps with compact fluorescents will 
save up to $250,000 a year on our electricity costs, just from 
lamps, and that doesn't include all the overhead lighting and 
all the other things that we have suggested.
    Mr. Boustany. Is there a plan to shut down the Capitol 
Power Plant?
    Mr. Beard. Not that I am aware of. I would say, though, 
that the Capitol Power Plant is a major issue, given the 
problems with asbestos and coal and other kinds of things, and 
it is something that Ms. Norton and Mr. Hoyer and Mr. Moran and 
Mr. Davis and a lot of other people have mentioned quite 
frequently. But I think it is a major issue of how we approach 
that problem in the future.
    Mr. Boustany. Okay, thank you.
    Mr. Beard. Thank you.
    Mr. Boustany. I yield back.
    Mr. Oberstar. I thank the gentleman for his questions.
    I just want to follow up on that last point about light 
bulbs. The gentleman from Florida, our Ranking Member on the 
Full Committee, described the painful process he went through 
to change a light bulb or get a light bulb changed. You are 
going to do 10,000 of them, 12,000, I think you have in your 
statement, Mr. Beard. It is not going to be that painful, is 
it?
    Mr. Beard. My suggestion to him is the next time that 
happens, take the form, rip it up, pick up the phone and call 
me or call Stephen. We will have somebody there, and we will 
change it.
    Mr. Oberstar. I would just go and change it myself.
    Mr. Beard. Yes or that.
    Mr. Boustany. They better be careful about what they ask.
    Mr. Beard. The Speaker has directed that we change out 
12,000 bulbs over the next six months. We have the money to do 
it. We have the people. It is just the process of getting 
around to doing it.
    We have already done. We did 2,000 in one day or a few 
days. It was done by the Architect's Office. So we have the 
ability, and we are going to do it.
    Mr. Oberstar. I have converted my modest, little home in 
Chisholm, Minnesota, with those CFLs, and they work 
wonderfully. I don't have to worry about light bulbs burning 
out. At whatever, $6, $7 a light bulb, at first, I was taken 
aback by the cost. I said, well, you know, we have got to start 
somewhere. Let us start right here.
    Mr. Beard. I would encourage you to come down to the House 
Office Supply Store and you can get them at cost. We are 
selling them at cost.
    Mr. Oberstar. Oh, my goodness, well, that is great.
    Have you conducted a survey or an estimate of what the 
costs and benefits would be of converting the Capitol complex 
to photovoltaics or other solar applications?
    Mr. Ayers. No, sir, we haven't done that, but we are doing 
a feasibility study for converting two buildings now, the Hart 
Building and the Rayburn Building, but we have not done a 
comprehensive analysis of all our inventory and what those 
costs and paybacks would be.
    Mr. Oberstar. Do you remember? Well, you were still in 
college at the time, I am sure, a few years ago.
    Mr. Beard. I wasn't. I am almost as old as you are.
    Mr. Oberstar. I didn't say that to you, Mr. Beard.
    [Laughter.]
    Mr. Oberstar. I was part of a group that caused a major 
experiment on the Ford Building to fit it with photovoltaics, 
and they were installed and operating and we thought very 
successful. Then after a few years, they just disappeared. Does 
the Architect of the Capitol have records on that period of 
time and what the results were?
    Mr. Ayers. I believe we do, Mr. Chairman, and I will 
research that for the record.
    Mr. Oberstar. Could you that dig that out for us, supply it 
to the Committee for the record, so we have it available?
    Mr. Ayers. Yes, sir, certainly.
    Mr. Beard. If I could add, Mr. Chairman.
    Mr. Oberstar. Yes.
    Mr. Beard. I think what is important is that I would 
certainly be hesitant that the Congress get in the power 
generation business itself, at least the House getting in the 
power generation business.
    But I think we have worked, we have met with Pepco, and we 
have told Pepco that we want 100 percent renewable power. They 
have been very accommodating and said simply, we can meet your 
needs, and we can meet that with either solar, wind or other 
sources of renewable gases, municipal landfill gas and others. 
They have that available to them through their grid, the PMJ 
grid.
    Mr. Oberstar. A concept that is both old and new is that of 
district heating and cooling where you have a central 
generating facility that also uses the steam cooled down to hot 
water or to distribute as steam throughout a defined geographic 
district. That was a fact that was very popular in the iron ore 
mining country of my district but also elsewhere around the 
Country, where each city had its own municipal power plant. 
That municipal power plant then fed the steam through a piping 
system to the community.
    We had entire cities that had no chimneys. People would 
come from the metropolitan area of Minnesota up to the iron 
range to the City of Buhl and Virginia and Hibbing and stand in 
admiration of these homes that had no chimneys.
    But then it became costly to maintain the piping system and 
to keep them insulated, keep the underground pipes insulated, 
especially in those cold winters that we experience in northern 
Minnesota. Eventually, the system deteriorated as communities 
didn't have enough money to use on the maintenance, but it was 
very successful.
    At one power generation facility, there existed one 
emission that over time could be contained, controlled and 
cleaned up. Now you have all these individual homes that are 
sending emissions into the air.
    The White House is a district heating and cooling system. 
It is a very efficient system, and it saves enormously on 
emissions into the environment.
    So what we have here, what we need to do is not be, as you 
said, Mr. Beard, in the power generation business, but we have 
what we have and we have to make it more energy efficient and 
more environmentally friendly, and you are moving on track to 
accomplish that as the Speaker also has directed.
    But I think it would be beneficial for us to have an 
assessment on the use of photovoltaics. We have acres of flat 
roofs that can accommodate photovoltaic cells if we are asking 
GSA to do that for the civilian office space of the Federal 
Government. As I said earlier, GSA spends $5,800,000,000 a year 
on the electric bill for non-military, non-veterans, non-postal 
electricity cost, and we can cut that by 70 percent with 
photovoltaics.
    That is in the public interest in addition to the 
environmental benefits that will result from such an 
initiative. Do you think that is too much to ask, Mr. Beard?
    Mr. Beard. Well, I think one of the things that we have 
done, we have always viewed these buildings as different and 
unique, and we aren't included, for example, in any of the 
requirements that you impose on GSA in the legislation that 
goes through. So while we don't have to meet those 
requirements, we also don't get to participate in the benefits 
of some of the financing and other approaches that are used for 
other government buildings.
    We participate with GSA in the power purchase contracts, 
for example, and some other things, but we have always sort of 
viewed the Capitol complex as unique and different. It is part 
of the Legislative Branch, and it should be separate, but in 
many ways, we would benefit. At least my view is we would 
benefit by being able to participate in many of the activities 
that other government buildings or the private sector 
undertakes.
    I am sure that if you went to build these buildings today, 
build new buildings, we probably put the heating and cooling on 
top of the building. We wouldn't have the central system we 
have now, but, as you say, we have what we have.
    Mr. Ayers. Certainly, those economies of scale of a 
district system are important to consider. We have seven 
boilers now that provide steam to 23 buildings and 15 million 
square feet. We would wind up with another. If we decommission 
that, we would have to install and retrofit 30 new boilers 
throughout the complex as well as maintenance staff to maintain 
those pieces of equipment as well as similarly we have 10 
chillers on the chilled water side. We would have to install 
chilling equipment in every building as well.
    So there are some economies of scale and efficiencies with 
the district system.
    Mr. Chairman, staff has given me a quick update on the 
photovoltaics on the Ford Building that were installed in 1978, 
and that system had about a 20-year life cycle, and we did 
remove it in 2005. It was a glycol-based system. It was 
leaking, and we had some concerns with the environmental 
concerns with the glycol system, so we did remove it.
    But we will try to get you the energy efficiency data for 
that over its 20-year life cycle.
    Mr. Oberstar. Thank you very much. I appreciate having that 
information.
    The Department of Energy has produced a number of documents 
on solar energy. Just for the record, I want to cite one 
intriguing fact that they have developed:
    In a 100 mile square area of the Arizona desert, if 
photovoltaics were installed with the ability to concentrate 
that solar power on a grid and fire it to a satellite to be 
redirected elsewhere in the United States, it could produce all 
the electricity needs of the entire Country and by using 
microwave energy to fire through a satellite and redistribute 
it around the Country, you are not losing power as you would 
over copper wire or aluminum wire.
    That is something we ought to be working on.
    Do you think you will be able to achieve the objective set 
by the Speaker, that by the end of the 110th Congress, you will 
be able to operate the House in a carbon neutral manner?
    Mr. Beard. Yes, sir. Those are my instructions, and that is 
what we will do.
    Mr. Oberstar. Have you set forth a strategy on getting that 
done?
    Mr. Beard. Yes, well, we have got a portion of the strategy 
is already place and, as I said in my testimony, we need to 
fill that out on June 30th.
    Many of the actions we will undertake, we can't undertake 
immediately. It is going to take us several months to do that. 
Negotiating with Pepco, for example, for purchasing all 
renewable power, we have had one meeting with them. We will 
have additional meetings, and we will be able to get to that as 
soon as we can.
    My directions from the Speaker have been very clear. This 
is what she wants to do, and my job is to get it done by 
working with the Architect's Office.
    Mr. Oberstar. Thank you.
    Mr. Beard. Thank you.
    Mr. Oberstar. Mr. Boustany, do you have any further 
questions?
    Mr. Boustany. Just to follow up on that, as you move to 
comply with the Speaker's directive and you are going to have 
to purchase additional power, have you calculated into this any 
security risk implications?
    Mr. Beard. Well, we purchase all of our power now from 
Pepco. So it would have the same risk.
    I guess you are referring to security risk of renewables 
versus non-renewables?
    Mr. Boustany. Yes.
    Mr. Beard. To be perfectly honest, no, we have not. It is 
something that we should look at, I guess, to make sure.
    Mr. Boustany. Yes, perhaps you probably ought to look at 
that as well.
    Mr. Beard. Being a participant in a grid and the PJM 
interconnect that we are, assuming that we couldn't receive 
renewable power, there is a capability to supplement it with 
power from other resources, and they have more than ample 
supplies of that. It is one of the advantages of being in a 
grid.
    Mr. Boustany. I would just submit as you go forward with 
the planning process, that is something you might want to 
consider.
    Mr. Beard. Okay.
    Mr. Boustany. Thank you. That is all I have, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Oberstar. I just want to point out that next Wednesday, 
May 16, our hearing continues on climate change and energy 
independence with an extensive witness list that includes 
surface transportation witnesses, public buildings witnesses 
including the American Institute of Architects, the Alliance to 
Save Energy, the Solar Energy Industries Association, the 
American Council for an Energy Efficient Economy and an 
aviation panel and a water resources panel.
    I won't go through all those witnesses, but I expect to 
have a very lively and informative hearing next Wednesday.
    Mr. Beard.
    Mr. Beard. Mr. Chairman, if I could just a second, I was 
remiss in not mentioning an item of importance to Mr. DeFazio. 
I have had conversations with him about his desire and interest 
in discussing some kind of alternative energy people moving 
system for an improved people moving system for staff on the 
Hill, and it is certainly is something that the Roads Committee 
staff and myself have discussed and I have discussed with Mr. 
DeFazio as well.
    I think in the area of demonstrating leadership for the 
rest of the Nation, it makes sense to me that the Congress 
might want to consider, or at least the House if the Senate 
isn't interested, certainly the House could demonstrate 
leadership on alternative fuels by putting some kind of either 
fuel cell powered buses or some other kind of people moving 
systems.
    So it is one of the things that we are discussing with the 
staff, and I wanted to put in a plug for it on Mr. DeFazio's 
behalf.
    Mr. Oberstar. Thank you very much. I am very encouraged by 
your initiative and willingness to partner with us in moving 
that agenda forward. We certainly need to have something of 
that nature for the staff, those who are over at the Ford 
Building and other scattered elsewhere, to move them more 
efficiently, including our subway to the Capitol from the 
Rayburn.
    That system is now 42 years old, 43 years old. I remember 
when it was offloaded from a flatbed truck. I was on the staff 
at the time. I happened to be taking a little lunch break, 
walking around, and this flatbed truck pulls up and a huge 
crane over on the west front of the Capitol.
    That subway tunnel was a cut and cover operation. They had 
one segment still open. The crane hovered over and lifted the 
first of those two passenger vehicles, put it down in the hole, 
picked the second one up, dropped it in the hole, and they 
poured the concrete over and sealed. It was entombed forever. 
The only way you are ever going to get it out of there is 
piecemeal.
    Since then, the Senate has this very efficient system that 
moves automatically. Now, we waste an awful lot of time with 
those operators, waiting for one straggling Member to jump 
aboard as though this were the last car out of Dodge, to get on 
that train. There is another coming, and it is just sitting 
there empty, and it goes back with two people.
    We have to do better with that. Do you have any plans for a 
renewable replacement?
    Mr. Ayers. Certainly, those systems are clearly at the end 
of their useful lives, so we will be looking at replacement of 
those with new technology similar to the technology that we use 
in the Senate side which was done many years ago. I think 
nearly 20 years that system was put in.
    Mr. Oberstar. It is a great thrill for visitors to the 
Capitol, kids who come here on close-up and Presidential 
Classroom and all the rest, love to ride. It is the biggest 
thing they talk about when they go home. Oh, we got to ride on 
the Capitol subway. But it is an antiquated system.
    Mr. Ayers. It is. Yes, it is.
    Mr. Oberstar. We have to do better.
    Mr. Beard. My granddaughter's biggest thrill in coming to 
visit her grandfather was to go on the little train.
    Mr. Oberstar. Thank you very much for your testimony, for 
all the work that you are doing.
    Mr. Beard. Thank you.
    Mr. Oberstar. We look forward to continuing our cooperation 
and participation with you.
    I thank the gentleman from Louisiana for his participation 
and his perseverance throughout a long morning.
    Mr. Boustany. Thank you, Mr. Chairman.
    Mr. Ayers. Thank you.
    Mr. Oberstar. The Committee is adjourned.
    [Whereupon, at 1:22 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5926.029
    
    [GRAPHIC] [TIFF OMITTED] T5926.030
    
    [GRAPHIC] [TIFF OMITTED] T5926.031
    
    [GRAPHIC] [TIFF OMITTED] T5926.032
    
    [GRAPHIC] [TIFF OMITTED] T5926.033
    
    [GRAPHIC] [TIFF OMITTED] T5926.034
    
    [GRAPHIC] [TIFF OMITTED] T5926.035
    
    [GRAPHIC] [TIFF OMITTED] T5926.036
    
    [GRAPHIC] [TIFF OMITTED] T5926.037
    
    [GRAPHIC] [TIFF OMITTED] T5926.038
    
    [GRAPHIC] [TIFF OMITTED] T5926.039
    
    [GRAPHIC] [TIFF OMITTED] T5926.040
    
    [GRAPHIC] [TIFF OMITTED] T5926.041
    
    [GRAPHIC] [TIFF OMITTED] T5926.042
    
    [GRAPHIC] [TIFF OMITTED] T5926.043
    
    [GRAPHIC] [TIFF OMITTED] T5926.044
    
    [GRAPHIC] [TIFF OMITTED] T5926.045
    
    [GRAPHIC] [TIFF OMITTED] T5926.046
    
    [GRAPHIC] [TIFF OMITTED] T5926.047
    
    [GRAPHIC] [TIFF OMITTED] T5926.048
    
    [GRAPHIC] [TIFF OMITTED] T5926.049
    
    [GRAPHIC] [TIFF OMITTED] T5926.050
    
    [GRAPHIC] [TIFF OMITTED] T5926.051
    
    [GRAPHIC] [TIFF OMITTED] T5926.052
    
    [GRAPHIC] [TIFF OMITTED] T5926.053
    
    [GRAPHIC] [TIFF OMITTED] T5926.054
    
    [GRAPHIC] [TIFF OMITTED] T5926.055
    
    [GRAPHIC] [TIFF OMITTED] T5926.056
    
    [GRAPHIC] [TIFF OMITTED] T5926.057
    
    [GRAPHIC] [TIFF OMITTED] T5926.058
    
    [GRAPHIC] [TIFF OMITTED] T5926.059
    
    [GRAPHIC] [TIFF OMITTED] T5926.060
    
    [GRAPHIC] [TIFF OMITTED] T5926.061
    
    [GRAPHIC] [TIFF OMITTED] T5926.062
    
    [GRAPHIC] [TIFF OMITTED] T5926.063
    
    [GRAPHIC] [TIFF OMITTED] T5926.064
    
    [GRAPHIC] [TIFF OMITTED] T5926.065
    
    [GRAPHIC] [TIFF OMITTED] T5926.066
    
    [GRAPHIC] [TIFF OMITTED] T5926.067
    
    [GRAPHIC] [TIFF OMITTED] T5926.068
    
    [GRAPHIC] [TIFF OMITTED] T5926.069
    
    [GRAPHIC] [TIFF OMITTED] T5926.070
    
    [GRAPHIC] [TIFF OMITTED] T5926.071
    
    [GRAPHIC] [TIFF OMITTED] T5926.072
    
    [GRAPHIC] [TIFF OMITTED] T5926.073
    
    [GRAPHIC] [TIFF OMITTED] T5926.074
    
    [GRAPHIC] [TIFF OMITTED] T5926.075
    
    [GRAPHIC] [TIFF OMITTED] T5926.076
    
    [GRAPHIC] [TIFF OMITTED] T5926.077
    
    [GRAPHIC] [TIFF OMITTED] T5926.078
    
    [GRAPHIC] [TIFF OMITTED] T5926.079
    
    [GRAPHIC] [TIFF OMITTED] T5926.080
    
    [GRAPHIC] [TIFF OMITTED] T5926.081
    
    [GRAPHIC] [TIFF OMITTED] T5926.082
    
    [GRAPHIC] [TIFF OMITTED] T5926.083
    
    [GRAPHIC] [TIFF OMITTED] T5926.084
    
    [GRAPHIC] [TIFF OMITTED] T5926.085
    
    [GRAPHIC] [TIFF OMITTED] T5926.086
    
    [GRAPHIC] [TIFF OMITTED] T5926.087
    
    [GRAPHIC] [TIFF OMITTED] T5926.088
    
    [GRAPHIC] [TIFF OMITTED] T5926.089
    
    [GRAPHIC] [TIFF OMITTED] T5926.090
    
    [GRAPHIC] [TIFF OMITTED] T5926.091
    
    [GRAPHIC] [TIFF OMITTED] T5926.092
    
    [GRAPHIC] [TIFF OMITTED] T5926.093
    
    [GRAPHIC] [TIFF OMITTED] T5926.094
    
    [GRAPHIC] [TIFF OMITTED] T5926.095
    
    [GRAPHIC] [TIFF OMITTED] T5926.096
    
    [GRAPHIC] [TIFF OMITTED] T5926.097
    
    [GRAPHIC] [TIFF OMITTED] T5926.098
    
    [GRAPHIC] [TIFF OMITTED] T5926.099
    
    [GRAPHIC] [TIFF OMITTED] T5926.100
    
    [GRAPHIC] [TIFF OMITTED] T5926.101
    
    [GRAPHIC] [TIFF OMITTED] T5926.102
    
    [GRAPHIC] [TIFF OMITTED] T5926.103
    
    [GRAPHIC] [TIFF OMITTED] T5926.104
    
    [GRAPHIC] [TIFF OMITTED] T5926.105
    
    [GRAPHIC] [TIFF OMITTED] T5926.106
    
    [GRAPHIC] [TIFF OMITTED] T5926.107
    
    [GRAPHIC] [TIFF OMITTED] T5926.108
    
    [GRAPHIC] [TIFF OMITTED] T5926.109
    
    [GRAPHIC] [TIFF OMITTED] T5926.110
    
    [GRAPHIC] [TIFF OMITTED] T5926.111
    
    [GRAPHIC] [TIFF OMITTED] T5926.112
    
    [GRAPHIC] [TIFF OMITTED] T5926.113
    
    [GRAPHIC] [TIFF OMITTED] T5926.114
    
    [GRAPHIC] [TIFF OMITTED] T5926.115
    
    [GRAPHIC] [TIFF OMITTED] T5926.116
    
    [GRAPHIC] [TIFF OMITTED] T5926.117
    
    [GRAPHIC] [TIFF OMITTED] T5926.118
    
    [GRAPHIC] [TIFF OMITTED] T5926.119
    
    [GRAPHIC] [TIFF OMITTED] T5926.120
    
    [GRAPHIC] [TIFF OMITTED] T5926.121
    
    [GRAPHIC] [TIFF OMITTED] T5926.122
    
    [GRAPHIC] [TIFF OMITTED] T5926.123
    
    [GRAPHIC] [TIFF OMITTED] T5926.124
    
    [GRAPHIC] [TIFF OMITTED] T5926.125
    
    [GRAPHIC] [TIFF OMITTED] T5926.126
    
    [GRAPHIC] [TIFF OMITTED] T5926.127
    
    [GRAPHIC] [TIFF OMITTED] T5926.128
    
    [GRAPHIC] [TIFF OMITTED] T5926.129
    
    [GRAPHIC] [TIFF OMITTED] T5926.130
    
    [GRAPHIC] [TIFF OMITTED] T5926.131
    
    [GRAPHIC] [TIFF OMITTED] T5926.132
    
    [GRAPHIC] [TIFF OMITTED] T5926.133
    
    [GRAPHIC] [TIFF OMITTED] T5926.134
    
    [GRAPHIC] [TIFF OMITTED] T5926.135
    
    [GRAPHIC] [TIFF OMITTED] T5926.136
    
    [GRAPHIC] [TIFF OMITTED] T5926.137
    
    [GRAPHIC] [TIFF OMITTED] T5926.138
    
    [GRAPHIC] [TIFF OMITTED] T5926.139
    
    [GRAPHIC] [TIFF OMITTED] T5926.140
    
    [GRAPHIC] [TIFF OMITTED] T5926.141
    
    [GRAPHIC] [TIFF OMITTED] T5926.142
    
    [GRAPHIC] [TIFF OMITTED] T5926.143
    
    [GRAPHIC] [TIFF OMITTED] T5926.144
    
    [GRAPHIC] [TIFF OMITTED] T5926.145
    
    [GRAPHIC] [TIFF OMITTED] T5926.146
    
    [GRAPHIC] [TIFF OMITTED] T5926.147
    
    [GRAPHIC] [TIFF OMITTED] T5926.148
    
    [GRAPHIC] [TIFF OMITTED] T5926.149
    
    [GRAPHIC] [TIFF OMITTED] T5926.150
    
    [GRAPHIC] [TIFF OMITTED] T5926.151
    
    [GRAPHIC] [TIFF OMITTED] T5926.152
    
    [GRAPHIC] [TIFF OMITTED] T5926.153
    
    [GRAPHIC] [TIFF OMITTED] T5926.154
    
    [GRAPHIC] [TIFF OMITTED] T5926.155
    
    [GRAPHIC] [TIFF OMITTED] T5926.156
    


      CLIMATE CHANGE AND ENERGY INDEPENDENCE: TRANSPORTATION AND 
                         INFRASTRUCTURE ISSUES

                              ----------                              


                        Wednesday, May 16, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:06 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] Presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order. This is the second in our 
series of hearings on climate change and energy independence 
and the role of transportation and infrastructure initiatives 
in the global climate issue.
    We had a hearing a week ago with a rather lengthy list of 
witnesses and an abundance of testimony. And it was 
fascinating. We have another robust day of hearings and very 
knowledgeable, learned panel--panels--witnesses with great 
storehouses of information. And I anticipate that the 
Committee's hearings will be a compendium for the future of the 
factual information-based presentations on the subject of our 
time.
    A fascinating book that I have read and reread over time 
entitled, "The Whale and the Supercomputer: On The Northern 
Front of Climate Change," by Charles Wohlforth and others.
    The book starts out: ``I love the winter. It's when I fly 
through the birch forest like a hawk. If the snow is good in 
Anchorage and at Kincaid Park, the cross country ski trails 
swoop among trees and over steep round hills, unwrapping silent 
white glades and black thickets edged with hoary frost in quick 
smoothly evolving succession.''
    Lovely start to a book.
    He continues, ``but some recent winters were still born in 
this part of Alaska. Fall came late and Halloween, when it 
should be deep snow, we took children trick-or-treating without 
coats. The winter's first snowfall was later than ever. And 
then we had rain and thaw. Ski trails were ruined. Running 
instead, plodding and earth bound was no substitute. In late 
winter, normally the best season, the sled dog races were 
cancelled for lack of snow. That almost never happened when I 
was a child. But now it happens every couple of years.'' 
Science tells us, he continues, that no single winter can be 
blamed on global climate change. ``Weather naturally varies 
from year to year while climate represents a broad span of time 
and space beyond our immediate perception. But science, too, 
has taken notice.
    ``Average winter temperatures in interior Alaska have risen 
7 degrees Fahrenheit since the 1950s. Annual precipitation 
increased by 30 percent. Alaska glaciers are shrinking, 
permanently frozen ground was melting. Spring is earlier. 
Arctic sea ice was thinner and less extensive.'' Winter, he 
writes, ``was going to hell.''
    ``The Inupiat elders of the Arctic noticed first. Sustained 
for a thousand years by hunting whales from the floating ice, 
they developed fine perceptions of the natural systems around 
them. The Inupiat adapted to the new world, knowing that the 
rest of the world would eventually follow. What is happening 
here is beyond debate: Burning fossil fuel elevated the carbon 
dioxide content in the atmosphere. We have a crime scene, 
victim, suspect, motive, opportunity and smoking gun; plenty of 
evidence to convict.''
    It goes on to say that, for 420,000 years, the carbon cycle 
was in a rough range of balance. Carbon in the atmosphere 
ranged from 180 parts per million to 280 parts per million. 
Within the last 100 years, that has dramatically changed. There 
is more carbon in the atmosphere now than at any time in 
420,000 years.
    On that sobering note, we will begin the second of our 
hearings on this issue of climate change. Energy consumption is 
expected to grow some 23 percent. The Energy Information 
Administration predicts that, by 2025, worldwide energy use 
will grow 57 percent.
    Eleven of the past 12 years have been the hottest since 
1850; 2006, the warmest on record. Sea level is rising, as "The 
Whale and the Supercomputer" report. We are hit by the dual 
crunch of rising energy prices and rising carbon in the 
atmosphere. Legislation that produces increased energy 
efficiency and results in a degree of independence, hopefully 
total independence, is important for us to consider in the 
transportation sector. That alone accounts for over 27 percent 
of total greenhouse gas emissions in the United States, second 
only to electric power generation.
    And there are things we can do in this Committee with our 
legislation and with what is already in place, a good deal of 
which we have already enacted. A mode shift of only 10 percent 
to transit will save the equivalent of 550 million barrels of 
oil, the amount we import from Saudi Arabia every year. The 
President has joined the effort with his statement just a day 
or so ago establishing higher fuel efficiency standards for 
cars and concluded by saying the steps he announced today were 
``not a substitute for effective legislation.''
    Well, we are going to take the President at his word and, 
in effect, at his invitation and move toward legislation--not 
far-out stuff--but what is available, in a sense, off-the-
shelf. One provision of which we have already enacted_or not_I 
am sorry, that we have passed through Committee and through the 
House. It is pending in the Senate. That legislation would 
convert the Department of Energy building to photovoltaic 
cells. Not far-out technology, but that which is already 
available and has been developing for over 30 years.
    If we don't do these things, we are on a crash course with 
history. The Woods Hole Oceanographic Institute announced 
results of continuing studies predicting that summers that now 
average in the low to mid 80s by 70 years from now will average 
between 100 and 110 degrees in Chicago, Atlanta and elsewhere.
    Dr. Sam Epstein, of the Center For Health and Global 
Environment, who has spoken with our Committee Members several 
years ago, points to the rise in malaria, dengue fever, West 
Nile Virus and other vectors that transmit disease in a wider 
range and a wider latitude in the earth because temperatures 
are warmer and more favorable to the lifecycle of those 
vectors.
    There are many other considerations that I will enter into 
the record at this point with the complete statement, but I 
think that frames the subject matter. We are looking forward to 
the testimony of this first panel and the subsequent panels, 
and then we will jointly fashion a legislative response at the 
invitation, in effect, of the President, and do things that are 
realistic that are within the ambit of this Committee. These 
will hopefully contribute in the short term, as well as also in 
the long range, to reducing carbon emissions in the atmosphere.
    I thank the gentleman from Florida for his participation on 
this hearing. And I recognize and I yield to the gentleman from 
Florida.
    Mr. Mica. Thank you and thank you for convening the second 
session on the important topic of climate change and energy 
independence and our transportation infrastructure issues 
relating to how we can do a better job.
    I started off my comments last week again citing some 
simple facts, and I think you reminded us today that about 32 
percent of the greenhouse gas emissions come from power 
generation and cited the problem of even the U.S. Capitol 
building not being efficient, actually the second biggest 
polluter I guess, in Washington, D.C., I read afterwards. I 
didn't know it fell into the second category. I am sure 
automobiles and transportation, which account for 28 percent of 
those emissions, also pollute our Nation's capital's air.
    I didn't count sheep last night, but I did have a chance to 
read some of the testimony, and since I won't be able to stay 
through this, I am going to turn over to Mr. Duncan in a few 
minutes here. But particularly, I want to thank Mr. Millar. And 
I read some of his recommendations at the conclusion and concur 
with them that we have to have incentives.
    The other thing, too, that, with public transportation, and 
I consider myself a strong advocate of mass and public 
transportation, which we have done some in the United States, 
but not enough to promote but to, just looking at my own 
district, the lack of intermodal connectivity and convenience 
for passengers. And I represent six counties from Jacksonville 
all the way down to Orlando and found either lack of public 
transit systems or existing public transit systems that didn't 
move people through--throughout say even my district from 
Orlando to Jacksonville. No one thinks about it, but our long 
distance carrier is--today our long distance transit carrier is 
Greyhound, a company that actually makes a profit and moves 
people. But we don't accommodate Greyhound, which is our 
national carrier intermodal service in most of those bus 
systems. In fact, one of the--I went to Deland, Florida, the 
county seat of Volusia County, about a week ago, and the bus 
station is on the north side of town at a little stop. And we 
are building a new intermodal on the south side of town where 
our bus service will eventually feed through the county and 
into a regional system. But we have made no accommodation for 
that carrier.
    So we need to have considerations of convenience for people 
in truly intermodal functions in our policy. So I thank him.
    And then Ed Hamberger is here. Last week I cited, and I 
repeat again, in 2006, 1 gallon of diesel fuel moved 1 ton of 
Freight an average of 414 miles. And I saw on his testimony the 
potential that we have for moving--well, trucks do a very good 
job at moving much more freight in a very efficient manner and 
dealing with capacity issues for the future in an energy 
efficient manner, and I appreciated his testimony which I also 
read last night.
    Finally, we have got, Mr. Rader is here. Mr. Rader 
represents Colorado Railcar, and I am one of their strongest 
champions. They produce the most efficient transit rail vehicle 
probably in the world, right in the United States, developed it 
without Federal funds, at their own initiative. Colorado 
Railcar, which is now, we will hear in his testimony, where 
that is going to be used, but fuel efficient and emissions-
efficient and very proud of what he has done, American workers 
with an American product.
    And finally, on another panel, we have Jim May. I won't get 
to ask him the question, but I did check on the issue, and he 
does speak to it some, the issue of the European Union moving 
forward with plans to tax commercial passenger aircraft that do 
pollute the European skies. And I know that they are waiting on 
a ICAO, the International Civil Aviation Organization, to come 
up with some standards, but eventually, if measures aren't 
taken in the United States to deal with the aviation aircraft 
emissions, we will be held to task either by international 
organizations or by organizations of states like the European 
Union. And that is something that we also have to deal with.
    So with a couple of those comments, again, I am pleased to 
be here and thank you for carrying on this important 
responsibility.
    Mr. Oberstar. Again, I thank the gentleman from Florida, 
and I greatly appreciate your comments. And we will proceed in 
that spirit.
    Mr. Hamberger. Mr. Chairman, point of parliamentary 
inquiry.
    Mr. Oberstar. It is rare for a witness to make a point of 
parliamentary inquiry. Does the witness wish to be recognized?
    Mr. Hamberger. If the Chair would be so kind.
    Mr. Oberstar. Yes.
    Mr. Hamberger. I wonder if it would be appropriate to let 
Mr. Mica know, since he is leaving, that the number that he was 
using, 414 miles per gallon was accurate in 2005, but the 
number for 2006 is 423.
    And so I did not want to let that----
    Mr. Oberstar. It is so noted in the testimony that you will 
be delivering which I also read.
    Mr. Mica. I thank the gentleman for correcting the record. 
And we will put on suspension the sole minority staffer that we 
have until he gets those figures correct.

    TESTIMONY OF JONATHAN LASH, PRESIDENT, WORLD RESOURCES 
   INSTITUTE; WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
   TRANSPORTATION ASSOCIATION; EDWARD HAMBERGER, PRESIDENT, 
 ASSOCIATION OF AMERICAN RAILROADS; ANDY D. CLARKE, EXECUTIVE 
 DIRECTOR, LEAGUE OF AMERICAN BICYCLISTS; EDWARD HALL, GENERAL 
  MANAGER OF ENGINE TECHNOLOGY, GENERAL ELECTRIC; TOM RADER, 
 PRESIDENT, COLORADO RAILCAR; AND GREG COHEN, PRESIDENT & CEO, 
                AMERICAN HIGHWAY USERS ALLIANCE.

    Mr. Oberstar. With those trenchant observations and the 
quivering in the background, we will begin with our first 
panel: Jonathan Lash, President of World Resources Institute. I 
have been a fan of Mr. Lash's writings over many years, and he 
has piqued our conscience and stimulated the public debate and 
forced the issue to the forefront with factually based and 
substantiated writings for which we are most appreciative.
    Mr. Lash.
    Mr. Lash. Thanks very much, Mr. Chairman. It is an honor to 
be here with you this morning. We congratulate you on pursuing 
this issue in the Committee. The World Resources Institute is 
an environmental think tank. We work on global issues and have 
worked on issues of climate change for two decades now. It is 
great that we finally have the chance to begin to discuss the 
solutions with the Congress. I am going to very quickly run 
through a few slides, Mr. Chairman, confirming some of the 
things you said in your opening statement. If I could go to the 
next slide?
    The earth is warming. There is no doubt of this fact. It is 
warming rapidly. It has warmed a little less than 1 degree 
centigrade, most of that in the lifetime of those of us in the 
room. The pace of warming is outside anything in human history.
    Next slide.
    The warming is caused, as the Chairman pointed out, almost 
entirely by the build-up of greenhouse gasses in the 
atmosphere, most importantly carbon dioxide. As the Chair said, 
carbon dioxide levels are the highest in human history. In 
fact, they are now the highest in 650,000 years, we are quite 
certain. The Intergovernmental Panel on Climate Change, the 
official process that the United States is a party to, said it 
is more than 90 percent likely that the warming is largely 
caused by human activities.
    Next slide.
    The warming has gone far enough that we all have begun to 
see the effects of the warming. As oceans have warmed, both the 
Atlantic and the Pacific, the number of hurricanes that turn 
into Category 4 or 5 hurricanes, the most serious, has almost 
doubled. So, in the period from 1975 to 1989, there were half 
as many that became Category 4 and 5 hurricanes as there were 
in the period from 1990 until 1994. We saw the first South 
Atlantic hurricane in history 2 years ago. We saw a 3-year 
Amazon drought. That impacts the rain forest. A recent 
scientific study confirmed that we are apt to see such droughts 
in the Amazon about every decade now because of the changed 
ocean conditions.
    If we could go on to the next slide. The Chairman mentioned 
the changed conditions in the far north. The rapid melting of 
the Greenland ice sheet has shocked even scientists who 
predicted it because it is going so much faster than predicted. 
Glaciers around the world are retreating. That becomes a 
significant issue because many, many cities around the world 
depend on snow pack to supply them with water in arid areas. A 
group of 11 admirals and generals who looked at the security 
implications of warming issued a report a few weeks ago in 
which they said climate change can act as a threat multiplier 
for instability in some of the most volatile regions of the 
world and present significant national security challenges for 
the United States.
    They went on to call for action. Now, to mitigate those 
threats.
    Next slide please.
    That is also the call of the 22 major companies and six 
environmental organizations that joined together in the United 
States Climate Action Partnership and issued a call to action 
last January, urging the Congress to adopt mandatory 
legislation that slows, stops and reverses the build-up of 
emissions of greenhouse gasses from the United States that 
called for the United States to take unilateral action.
    They made that call because they saw that they needed 
certainty for investment that created an opportunity for 
technological change in the future. Also, because they believed 
that action sooner is cheaper than action later, and because of 
energy security issues, all of the steps we take for climate 
change would help.
    If we could go, skip the next slide. Skip this one. For the 
United States, the problem is essentially one of cars, coal and 
buildings. The buildings drive 70 percent of the emissions from 
the electric power sector. Cars are responsible for most of the 
27 percent from the transport sector. And coal is the major 
cause of emissions from the electric power sector.
    In each case, there is an opportunity to change 
technologies, technologies that are 50 to 100 years old, that 
will give us an opportunity to compete in tomorrow's markets, 
which will demand low carbon alternatives and which our 
industries can produce better than anyone else's if they are 
given a platform to do it from, one that gives them the 
opportunity to be assured of profit from low carbon 
technologies.
    Last slide.
    There are a number of measures that we can pursue that 
produce both benefits for energy security and benefits for 
climate. Efficient transportation, public transit, building 
efficiency are all very positive. But there are some we could 
do that might improve energy security but would be highly 
damaging to climate. For instance, the adoption of coal 
liquefaction technology. It is important to distinguish those 
that are in the upper right hand quadrant here that would 
benefit both national goals.
    Thank you very much, Mr. Chairman.
    Mr. Oberstar. Your complete statement will be included in 
the record and has a compendium of information, very thorough 
well researched presentation on the issues before us. Thank 
you. Excellent presentation.
    Bill Millar, President of American Public Transit--I am 
sorry--Public Transportation Association.
    Mr. Millar. Thank you, Mr. Chairman, and it is a pleasure 
to be with you, Mr. Duncan, the other Members of the Committee. 
And I appreciate your opening remarks and those of Mr. Mica. 
You have done a good job of outlining the urgency of the issue 
here. As has been said, the transportation sector accounts for 
about two-thirds of the petroleum used in this country, 28 
percent of the greenhouse gas emissions. If we are going to 
beat America's addiction to oil, we simply have to reduce 
transportation related petroleum consumption.
    I am pleased to report that the American public 
transportation industry is already leading the way in reducing 
petroleum use and greenhouse gas emissions. A recent study by 
ICF International concluded that the direct savings from public 
transit that is used already today in America is about 1.4 
billion gallons per year. APTA currently has a study under way 
that is going to look at the next order of savings because we 
know, if people use public transit, they live differently. They 
save additional oil beyond the obvious of, ``I took the bus; I 
didn't take my car today.'' The amount of savings that that 
amounts to, that savings amounts to, in that first order, is 
equal to all of the fuel consumed by cars in smaller States 
such as New Mexico or Utah. It is also five times the amount 
that would be saved by converting the Federal light duty 
vehicle fleet to alternative fuels. That may be a good idea, 
but I am just trying to give you a sense of the order of 
magnitude.
    Now these savings result from several important 
characteristics of public transit, certainly that transit 
carries multiple passengers in each vehicle, that traffic 
congestion is reduced because transit takes cars off the 
highways, and transit systems do not rely exclusively on 
petroleum to power their fleets. They can be flexibly, and many 
are, flexibly powered today.
    Now, the energy and emission reductions could be multiplied 
if we could have a greater use of public transit. Cities around 
the world that have more public transit use less energy. A 
study done a couple of years ago showed that European cities 
are on average two and a half times more energy efficient than 
American, and comparable Asian cities are five times more 
energy efficient. These are all cities that use an extensive 
amount of public transportation.
    Unfortunately, public transportation isn't available to all 
Americans who wish to use it. Only about one in four Americans 
actually has what they consider to be adequate--whatever that 
term means--public transportation. Nonetheless, Americans are 
using public transit in record numbers, Mr. Chairman, as you 
have noted over the years, more than 10 billion rides a year 
now being taken on public transportation. Public transportation 
use, over the last 11 years, is growing faster than the use of 
the automobile and much, much faster than the growth of our 
population.
    Now, as the Congress considers these important issues, and 
as it puts together its policy ideas on energy savings and 
greenhouse gas emissions, APTA wishes to offer five principles 
that we think are important to be included.
    First, transit use significantly reduces energy consumption 
and greenhouse gas, therefore encouraging public transportation 
must be a part of the overall strategy.
    Second, energy savings from emission reductions from 
increased transit use are long-term savings. These are 
investments we are making that will still benefit us 100 years 
from now. For example, Boston opened the first subway in 1901; 
New York City in 1904. More than 100 years later, those cities 
and indeed our nation is still benefitting by those investments 
made at that time.
    Principle three, public entities like public transit 
agencies that directly produce energy savings and reduce 
emissions should be eligible to receive revenues generated from 
any carbon tax or cap-and-trade style program.
    Four, energy conservation and greenhouse gas emission 
reduction should be factors in transportation and land-use 
planning. The Federal Government should encourage State and 
local governments to coordinate land-use planning, and Federal 
facilities should be cited to be accessible to public transit 
so employees and Federal employees as well as visitors to 
Federal facilities can easily use public transit to get there.
    Fifth, new investments in energy efficient public transit 
vehicles and facilities that will increase substantially the 
energy efficiency should receive encouragement from the Federal 
Government. And if there is to be a program of incentives, we 
certainly want to include that.
    My written testimony includes a series of more specific 
recommendations in the area of tax policy and promotion of 
green technology and related items. We certainly look forward 
to working with you and the Committee as you develop your ideas 
further. We would be happy to make any additional information 
available you might prefer. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much, Mr. Millar, APTA's 
members have done a spectacular job of providing increased 
mobility with lower emissions and reaching more areas of our 
metropolitan areas than ever before. And the remarkable fact 
for me is that, just 15 years ago, New York City accounted for 
60 percent of all transit trips in the Nation. That is down 
below 40 percent now. Not because New York isn't using transit_
their numbers have grown_but because the rest of the Nation has 
grown faster and has much further to go, but we are there.
    We have a recorded vote on the floor right now. I will 
recess for this vote, come back, and we will continue with 
testimony. There will be another series of votes later, but 
there is debate intervening.
    And so, Mr. Hamberger, we are anxious to hear about new 
high horsepower locomotives, information technology systems, 
reduced idling, and new locomotive crew training programs that 
are all a feature of the freight rail landscape.
    Mr. Hamberger. Look forward to it. Thank you, sir.
    Mr. Oberstar. And the rest of our panel as well. Thank you. 
Committee will stand in recess for roughly 10 or 15 minutes.
    [Recess.]
    Mr. Duncan. [presiding.] Chairman Oberstar told me to go 
ahead and proceed with the next witness. I am not attempting an 
Alexander Hague moment here.
    The next witness is our friend, Edward Hamberger, who is 
president of the Association of American Railroads.
    Mr. Hamberger.
    Mr. Hamberger. Thank you, Mr. Duncan. The AAR appreciates 
the opportunity to address the issue of climate change and 
transportation. Freight railroads are committed to being part 
of the solution to the challenge of climate change. Greater use 
of freight rail offers a simple, inexpensive and immediate way 
to meaningfully reduce greenhouse gas emissions without hurting 
the economy.
    Freight railroads are clearly the mode of choice for fuel 
efficiency. Greenhouse gas emissions are directly related to 
fuel consumption because railroads are on average three or four 
times more fuel efficient than trucks. Every ton mile of 
freight that moves by rail instead of truck reduces these 
emissions by two-thirds or more.
    I want to emphasize up front that the testimony we have 
submitted and my testimony today is not meant to be an anti 
truck diatribe. Our largest customer segment is intermodal. And 
that is achieved because of cooperation and partnership with 
the trucking industry. But having said that, the facts paint a 
very compelling picture that moving freight by rail is the most 
environmentally friendly way to move freight. For example, 
according to the American Association of State Highway and 
Transportation Officials, transferring just 1 percent of the 
long haul freight currently being moved by trucking to rail 
would reduce fuel consumption by 110 million gallons per year 
and decrease emissions by 1.62 million tons. The demand for 
freight transportation is projected to increase substantially 
in the coming years. And if the 10 percent of that traffic that 
is predicted to move over the highways could move by rail 
instead, the cumulative reductions in greenhouse gas emissions 
could reach as high as 212 million tons by 2020.
    Working with our suppliers, whom you will hear from a 
little later, railroads work constantly to improve fuel 
efficiency, with stunning results. In 1980, one gallon of 
diesel fuel moved 1 ton of freight an average of 235 miles. In 
2006, as I already mentioned, the same amount of fuel would 
move 1 ton of freight by rail an average of 423 miles, roughly 
equivalent to the distance from Boston to Baltimore and an 80 
percent increase over 1980.
    All seven U.S. Class I railroads have joined EPA's SmartWay 
Transport, a voluntary partnership between freight transporters 
and the EPA that establishes incentives for fuel efficiency 
improvements. To accomplish these goals, railroads make 
extensive use of technology, training and changes in operating 
practices to curb fuel consumption. New long haul locomotives 
are more powerful, more fuel efficient and emit fewer 
greenhouse gasses. New genset and hybrid-switching locomotives 
and idling-reduction technologies also reduce fuel consumption 
and emissions. On-board locomotive monitoring systems help 
engineers determine the optimum speed for moving the freight in 
the most fuel-efficient way.
    Information technology is used along with in-trip planning 
systems to smooth traffic flow, better utilize assets and 
reduce fuel consumption.
    It is important to note that freight railroads account for 
a very small share of U.S. greenhouse gas emissions, just .6 
percent in 2005, according to EPA. And we are quite proud of 
the fact that even though freight rail moved 42 percent of 
intercity freight on a ton-mile basis in 2005--we moved 42 
percent--our greenhouse gas emissions amounted to only 2.2 
percent of the total transportation sector greenhouse gas 
footprint. In addition to reducing fuel consumption and 
emissions, moving more freight by rail would also help reduce 
highway congestion and save fuel that otherwise would be 
consumed by motor vehicles caught in traffic. As you are aware, 
a single intermodal train can take up to 280 trucks off the 
road directly, and other trains could move the equivalent of 
500 trucks of pay load.
    Policy makers can and should take steps to attract more 
freight to railroads and expand the greenhouse gas emission 
benefits of rail transportation. Two ways of doing this are 
through tax incentives to expand rail capacity and through 
public-private partnerships for freight rail infrastructure 
projects. Both of these concepts are endorsed and supported by 
AASHTO and its freight rail bottom line report. And of course, 
this Committee gave great support to many freight public-
private partnerships in the SAFETEA-LU bill in 2005, including, 
in Chicago, the CREATE program.
    I would draw the Members' attention to H.R. 2116, a bill 
introduced recently with the lead cosponsorship of Congressmen 
Kendrick Meek and Eric Cantor, which is entitled, The Freight 
Rail Infrastructure Capacity Act, which provides a tax 
incentive for expansion capital--expansion capital only--also 
for an increase in horsepower for new locomotives. And I draw 
the Members' attention to that to consider whether that would 
be an appropriate way to encourage even more investment to 
expand capacity to move more freight by rail.
    We look forward to working with you, Mr. Chairman, and the 
Committee and others to address the challenges of climate 
change. Thank you.
    Mr. Oberstar. [Presiding.] Thank you for your very compact 
testimony and for the extensive documentation you have 
submitted to the Committee which will be included in the 
record.
    Our next witness, Andy Clarke for the League of American 
Bicyclists, is going to show us how we can convert from the 
hydro-carbon economy to the carbohydrate economy.
    Mr. Clarke. Mr. Chairman and Members of the Committee, 
thank you. On behalf of our members and the tens of millions of 
adults who will get on a bike and ride this year, thank you for 
giving us the chance to share what we think are some of the 
considerable roles that cycling and walking can play in 
combating climate change and promoting energy independence. 
This Friday, tens of thousands of people in communities across 
the country will bicycle to work in celebration of National 
Bike to Work day. In the D.C. Area alone, more than 7,000 
riders will participate. Now, if those 7,000 riders chose to 
drive to work instead of bicycling, they would generate 32 tons 
of carbon dioxide, one and a half tons of carbon monoxide, and 
they would burn half a tanker truck of gasoline, and they would 
do exactly the same thing on the way home. That is just 1 day 
in one community.
    The potential to increase the numbers of people bicycling 
and walking to work in the United States in the short term is 
even more impressive. San Francisco and other cities have more 
than doubled bicycle commuting between 1990 and 2000 through 
investment in bike lanes, trails, bike parking, maps, education 
programs, encouragement activities and a focused bicycle plan.
    Bicycling to work is just part of the picture however. More 
than three-quarters of trips a day are not for commuting at 
all. They are social, recreational, for shopping trips. And 
amazingly, more than 40 percent of all those trips are 2 miles 
or less, a very manageable bike ride. And more than 1 quarter 
are just 1 mile or less.
    These short trips are the most polluting and the most 
feasible to switch to bicycling and walking. The City of 
Chicago, for example, recently adopted a 2015 goal of getting 5 
percent of all trips 5 miles or less made by bicycle. And we 
would encourage Congress and the Federal Government to 
encourage more urbanized areas to establish such goals.
    When barriers to bicycling are removed, people start 
riding. A great example is Portland, Oregon, where bicycle use 
has more than quadrupled since 1994 as their bike network has 
grown from 60 miles to 260 miles. They, too, have invested in 
cyclist and in motorist education, encouragement programs and 
very simple measures, such as providing bicycle parking. They 
have fully integrated transit and walking and bicycling.
    Many of the short car trips in our metro areas are school 
related, parents driving their children to and from school over 
really very short distances. The Federal Safe Routes to School 
program created by SAFETEA-LU is a welcome opportunity to 
change the habits of a generation of school children by 
enabling them to walk and bicycle to school. And we know from 
the initial Federal pilot program in Marin County that real 
mode shift is possible.
    So what can Congress do today to encourage more people to 
walk and bicycle instead of automatically reaching for the car 
keys for all of their trips?
    First, we would encourage you to consider establishing 
automobile vehicle miles traveled reduction targets that States 
and localities can meet by shifting from short polluting trips 
by automobiles to walking, bicycling and to transit.
    Second, Congress can appropriate funding for the Conserve 
By Bicycle program, which was authorized in the Energy Act in 
2005. This program directs the U.S. DOT to develop and 
disseminate best practices on how to replace car trips with 
bicycle trips for those short distances.
    Third, Congress could pass the Commuter Tax Benefit Act, 
H.R. 1498, which would extend the transportation fringe benefit 
currently offered to transit, van pool and qualified parking 
plans to bicyclists.
    Fourth, Congress can ensure that any future rescissions of 
Federal transportation funds do not disproportionately hit 
bicycle and pedestrian funding programs. In 2006, for example, 
$600 million were taken back from the transportation 
enhancement program, a key funding source for bicycling and 
walking.
    Fifth, Congress could direct the General Services 
Administration to make the Federal Government a model employer 
for promoting bicycling and walking to work.
    And finally, in the next transportation bill, perhaps 
sooner, Congress could codify the U.S. Department of 
Transportation's design guidance on accommodating bicyclists 
and pedestrians so that every new and every improved highway 
project is a complete street that truly serves all users.
    Mr. Chairman and Members of the Committee, many new 
technologies and solutions will be presented as strategies for 
reducing greenhouse gas emissions and oil consumption. We 
support a full range of those strategies from congestion 
fighting to carbon taxes, from increased inner city and freight 
travel by train to road pricing. All of these have the 
potential to help shift travel to bicycling and walking, 
provided our two modes are considered from the outset.
    I urge you not to overlook the simple tried and tested 
existing technologies of bicycling and walking. Unlike any of 
the other options presented to you as we move forward, these 
two options will not only tackle climate change and energy 
independence but will simultaneously address critical issues of 
obesity, physical inactivity, congestion and air quality. Thank 
you again for allowing me to be part of the hearing, and I hope 
you will consider some of our considerations.
    Mr. Oberstar. Thank you very much. We certainly are going 
to consider and include those, especially the design guidance 
issue in the next iteration of the Surface Transportation Act. 
And we are also going to have a provision in the aviation bill 
to make parking for bicycles at airports an eligible item--not 
require it--but make it an eligible item so airport by airport 
can decide to build bicycling facilities. We have many 
instances of persons who want to commute to the airport, take 
their plane, but they have no place to leave their bike. And I 
think that everything we can do to encourage commuting by 
bicycle is a positive way forward for the country. I will not 
unfortunately be able to participate in the bike-to-work 
program on Friday. I did it last Saturday. I biked from Potomac 
down to the tidal basin, but the last 2 miles are way too 
dangerous to do it alone.
    You need guidance to bike that last 2 miles up to Capitol 
Hill from down there. But unfortunately, I have to be on a trip 
to Canada.
    Our next witness, Mr. Hall, general manager of engine 
technology from G E. And I greatly appreciate the work that GE 
has done. One of the first trips that our Ranking Member, Mr. 
Mica, took with me when I chaired the aviation Subcommittee was 
to Cincinnati to see the GE 90, which was then nearing its 
completion of development. It was the most advanced aircraft 
engine in the world at the time. Others have caught up since 
then.
    But it was interesting to note that, 50 years earlier, GE 
had developed the first jet engine with a thousand pounds of 
thrust, and that day, we saw 90,000 pounds of thrust. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, for inviting me to 
address the Committee. As executive leader of engine 
engineering for GE Transportation, I am responsible for, among 
other things, all phases of diesel engine development. GE 
Transportation is the world's leading manufacturer of diesel 
electric locomotives with more than 15,000 locomotives 
operating around the globe.
    My testimony this morning will focus on two technologies 
that are being introduced right now for locomotives, hybrid 
technology and what we call trip optimizer, both of which will 
be beneficial for reducing greenhouse gas emissions and 
increasing our energy independence. The first technology I 
would like to discuss, the hybrid locomotive, will be 
demonstrated for the first time later this month at a planned 
GE eco-imagination event in California.
    We are all familiar with hybrids in the automotive context, 
but let me explain how it works for locomotives. All hybrid 
vehicles use some form of energy storage to recover energy that 
would otherwise be wasted. The difference between a car and a 
train however is that while a hybrid car can recover and store 
energy from a single vehicle, a hybrid locomotive has the 
potential to capture and store the energy from the hundreds of 
rail cars and thousands of tons of freight being pulled. 
Locomotives, like non-hybrid cars, use brakes to dissipate the 
energy of the moving vehicle by converting this emergency to 
heat and venting that heat to the atmosphere. GE's evolution 
hybrid is a modified version of our evolution locomotive that 
has the ability to store some of the energy generated during 
braking in a series of specially designed lead-free batteries. 
The evolution hybrid utilizes existing drive motors to convert 
this braking energy into electrical energy that is stored in 
the battery system. When needed, the batteries supply the 
locomotive with extra power that can then be used to reduce 
fuel consumption and reduce emissions.
    So now, when the locomotive is traveling downhill, making 
sharp turns or slowing down for speed limits, the energy 
generated by braking will be stored in the battery and that 
power won't go to waste. This reduces the total power that 
needs to be generated by the diesel electric engine, saving on 
total fuel burn and emissions. The evolution hybrid can even 
use the batteries as the primary source of power to reduce 
emissions in restrictive zones.
    In terms of carbon reduction, the evolution hybrid has the 
ability to reduce fuel consumption by 10 percent when compared 
to today's evolution locomotive. Using 10 percent less fuel 
directly reduces the emissions of carbon dioxide, NOX and 
particulate by 10 percent. If hybrid technology replaced 100 
Tier 1 locomotives now in service over the next 10 years, it 
would save over 510,000 tons of carbon dioxide from being 
produced, equivalent to removing 8,900 cars annually or 89,000 
cars over 10 years from our roads.
    In terms of potential energy savings, if the evolution 
hybrid replaced 100 Tier 1 locomotives in service, it would 
save more than 45 millions gallons of fuel over next 10 years.
    The second technology I would like to discuss is called 
trip optimizer. Trip optimizer is a locomotive control system 
enhancement that manages the speed and throttle settings to 
minimize fuel consumption taking into account the composition 
of the train, the terrain, track conditions, train dynamics and 
weather without negatively impacting the train's arrival time. 
Put simply, trip optimizer uses global positioning systems, or 
GPS, and forward-looking terrain mapping to plan a locomotive's 
trip, and it develops a recipe to minimize fuel usage and meet 
speed limits along the way. The recipe is constantly updated 
and gives the on-board crew a tool to manage the journey in a 
completely novel way, by allowing explicit trades between 
journey completion time and the fuel used as opposed to 
operating at or near the speed limit all the time.
    In principle, trip optimizer could be applied to any engine 
and achieve a 10 percent fuel savings and a 10 percent 
reduction in carbon dioxide, NOX and particulate emissions. To 
give you a sense of the large potential benefits of this 
technology, applying trip optimizer to a single GE evolution 
locomotive would save 360 tons per year of carbon dioxide 
emissions and 32 gallons of fuel annually.
    If this technology is installed on a thousand Tier 2 GE 
evolution locomotives in a given year, we have the possibility 
of 360,000 fewer tons of carbon dioxide emitted. These two 
technologies show that there are innovative solutions for our 
transportation systems that can achieve both the reduction in 
all emissions and the net savings in fuel. As this Committee 
considers climate change and energy independence, GE believes 
it is critical that government policies encourage innovations 
that save fuel and reduce emissions overall, taking into 
account traditional pollutants and carbon dioxide and, at a 
minimum, provide incentives to railroads that adopt such 
technologies and ensure that existing and future policies do 
not present obstacles to their introductions; on the contrary, 
policies should promote their development.
    Mr. Chairman, again, thank you and the Members of the 
Committee for the opportunity to testify this morning.
    Mr. Oberstar. Thank you, very much, Mr. Hall. We will come 
back to you in a little bit.
    Mr. Rader, thank you also for being with us. We--I had the 
privilege of riding your rail car a few years ago in Colorado, 
and I was very impressed with the domestically developed 
technology and the smooth ride. It wasn't a very long ride, but 
it was a nice smooth ride. Thank you for being with us today.
    Mr. Rader. Thank you, Mr. Chairman, and thank you for this 
invitation to discuss with your Committee the effects of global 
warning and the rail transit industry. I, like you, am old 
enough to remember magazine covers and numerous headlines 
proclaiming eternal winter and the coming ice age. Yet I think 
it is important to note that we don't necessarily have to 
accept all of the theories of global warming to realize that 
the time has come to redouble our efforts to reduce fossil fuel 
consumption and its consequent emissions. Furthermore, it is 
time to utilize all of the tools at hand to accomplish this 
goal.
    The Congress of the United States and specifically your 
Committee can take several key steps towards significantly 
reducing the consumption of fossil fuel in our country by 
understanding and encouraging the utilization of technology 
that has been developed and tested during the last 4 years.
    The ever-increasing cost of fossil fuels means that the 
cost of travel, and specifically commuting, is pushing more 
Americans to utilize more efficient forms of travel, including 
rail transit. This growth means that rail system capacities 
must rise and that rail systems, new rail systems, will be 
created.
    You can ensure that these expanding and new systems 
contribute to the reduction in fossil fuel consumption and 
emissions by encouraging the use of newly demonstrated and 
efficient technologies like the modern clean diesel multiple 
unit train. When we study the benefits of that train, it 
becomes obvious why they are so popular in Europe and 
elsewhere. When we compare the operation of DMUs to traditional 
locomotive haul trains using data from U.S. transit agencies, 
we get some astounding results that are quite relevant to the 
subject of today's hearings.
    Mr. Rader. A clean diesel multiple unit train will produce 
a 50 percent reduction in fuel consumption, a 68 percent 
reduction in emissions, a 75 percent reduction in noise. It 
will reduce the operating costs of the train set by an amount 
equal to twice the capital cost of the train over its 30-year 
life.
    These will all come at no increase in total capital cost to 
achieve the benefits. Therefore, the development of this 
technology and the manufacturer of DMUs in the U.S. to U.S. 
standards addresses many issues of importance to this Committee 
and to the U.S. citizenry as a whole.
    First, it will contribute to energy security by reducing 
fuel consumption per passenger mile in rail transit by 50 
percent or more. This is a conservation measure whose capital 
cost is self-liquidating over the life of the rail car.
    Second, it will contribute to improved air quality by 
reducing engine exhaust emissions by 68 percent or more per 
passenger mile. The DMU could save thousands of pounds of 
emissions from entering our atmosphere.
    Third, it will develop the U.S. technological know-how to 
produce more efficient products in the future.
    Two years ago I testified that the principal reason that we 
had not enjoyed the benefits of DMUs in the United States was 
that there was no U.S.-owned manufacturer with the incentive to 
develop advanced cars for the nascent U.S. market; that in fact 
foreign manufacturers had brought their structurally 
noncompliant cars to the United States, demonstrated them, and 
then explained to us that we just needed to change our 
standards of strength and safety so that they could use their 
noncompliant cars. This campaign continues to this day.
    Today I am pleased to report that due to the joint funding 
of the Federal Railroad Administration at the direction of 
Congress and the Florida Department of Transportation, clean 
diesel multiple unit technology trains are in use in south 
Florida and they are producing a savings of more than 50 
percent in fuel per seat-mile and at least a 70 percent 
reduction in emissions per seat-mile compared to the locomotive 
haul technology that is also in service there.
    How can this Committee ensure that expanding in new rail 
transit systems will use the best available technology to 
reduce fossil fuel consumption and emissions?
    First, I think you can encourage the FTA to reward systems 
that reduce fossil fuel consumption and emissions by increasing 
the percentage match for those who meet such goals.
    Second, you can work with other Committees of Congress to 
ensure that research and development tax credits continue to 
incentivize U.S. companies to develop advanced technologies 
that achieve your goals.
    Third, continue to encourage and fund demonstration 
programs at the FRA and other agencies which get these new 
technologies into the field where they can be proven and 
subsequently adopted by agencies.
    Thank you very much for this opportunity.
    Mr. Oberstar. Again, thank you for your innovative work.
    Now, Mr. Cohen, the Highway Users Alliance. I welcome your 
presentation. Thank you very much for being with us this 
morning.
    Mr. Cohen. Thank you, Mr. Chairman, Mr. Duncan. I am 
honored to have the opportunity to present testimony on behalf 
of highway users on the subject of climate change and energy 
independence.
    The Highway Users Alliance is an umbrella association that 
brings together the interests of various users of the highway 
modes that contribute to the highway trust fund, including AAA 
clubs, truckers, bus companies, RVers, motorcyclists, and a 
wide variety of businesses.
    For 75 years we have worked closely with this Committee to 
advocate for highway bills and to promote a strong and 
trustworthy highway trust fund.
    My written testimony contains more information on what 
individual highway users can do to reduce their greenhouse gas 
emissions and fuel usage. It also discusses legislation under 
consideration in other Committees and how this Committee might 
weigh in, particularly on how to protect the trust fund under 
legislation to increase alternate fuels or to tax or cap 
carbon.
    The good news is the Transportation and Infrastructure 
Committee is capable of taking the lead to reduce mobile 
greenhouse gases, minimize wasted fuel, and grow the economy 
and increase America's global competitiveness. The key to this 
success is what I call a "war on congestion." congestion is not 
inevitable; it can be reversed. As our current honorary 
chairman and former Secretary of Transportation Norm Mineta 
says, it is not a scientific mystery, it is not a fact of life, 
nor is it an uncontrollable force.
    Congestion results from poor public policy choices and a 
failure to separate solutions that work and that are effective 
from those that are not. Fighting congestion also happens to be 
the most realistic and effective way to decrease pollution, 
greenhouse gas emissions, and wasted fuel. That is because 
Americans overwhelmingly choose to travel by highway, shippers 
overwhelmingly choose to move freight by truck, and both will 
continue to do so, barring some economic collapse or massive 
contraction.
    To this end, this Committee should authorize a 
comprehensive data-driven national congestion relief program. 
Frankly, it is surprising that a data-driven program of this 
type doesn't currently exist. We believe a core congestion 
relief plan would greatly reduce lagging support for the 
Federal Aid Highway Program and may even increase support for 
raising user fees to keep the program solvent and growing.
    Like the new data-driven Highway Safety Improvement Program 
authorized under SAFETEA-LU, a core performance-based 
congestion relief program would be a revolutionary advancement 
in the Federal program.
    Removing the Nation's worse bottlenecks. Bottlenecks are 
locations where highway demand exceeds capacity, and they 
represent about half of total congestion in this country. 
Improving the worst 203 bottlenecks, those with more than 
700,000 hours of delay, would reduce carbon dioxide emissions 
by an astounding 390 million tons over 20 years, even after 
accounting for the increased emissions during construction.
    On average, carbon dioxide emissions and fuel usage at the 
worst bottlenecks would drop by a remarkable 77.2 percent, and 
over 20 years the amount of fuel saved would be more than 40 
billion gallons; 48 billion vehicle hours of wasted time would 
be saved as well, along with over 220,000 injuries that would 
be avoided, and $470 billion in economic benefits that could be 
realized.
    The other 50 percent of congestion is really due to 
nonrecurring delays. These are delays caused by incidents on 
the road, or weather, and they can be addressed through 
increased support for operations planning, particularly 
intelligent transportation systems investments, the next 
generation of vehicle infrastructure integration, which will 
allow cars and roads to communicate to divert traffic around 
congested sites. And I hope the Transportation and 
Infrastructure Committee will continue to significantly support 
these programs.
    I would like to briefly talk about the pitfalls I hope the 
Committee will avoid. Unfortunately, it is a popular notion 
that reducing highway use is realistic and an advisable 
approach to reducing greenhouse gas emissions and saving fuel. 
Some advocates of this approach even promote punitive measures 
that create financial and time burdens, punishing highway users 
so that driving becomes more costly or congestion more severe. 
The goal is to force drivers to give up their cars and reduce 
their driving, but these approaches include diversion of 
dwindling supplies of highway user fees to off-highway 
purposes, congestion pricing, tolling, and opposition to new 
highway projects that add capacity.
    We contend that these so-called solutions are not only 
unlikely to succeed, but actually will damage the environment 
as well as the economy, despite the goal of protecting the 
environment, and that these programs are particularly damaging 
to working-class and disadvantaged populations because, as the 
DLC study on welfare to work has shown, in most cases the 
shortest distance between a poor person and a job is along a 
line driven in a car.
    America's highway users are ready to help. We want to 
reduce greenhouse gas emissions, prevent wasted fuel, we want 
to be part of the solution and we stand particularly ready to 
support congressional action to comprehensively fight traffic 
congestion. We believe this is the most realistic way to solve 
the problem. This approach is also one of the few direct 
actions Congress can take to reduce energy use and provide 
enormous benefits to drivers, consumers and the economy. Other 
approaches need to be considered carefully, but we ask that you 
really reject the punitive measures that highway users should 
be punished for driving or that highway user fees should be 
diverted from desperately needed projects.
    As every Member of this Committee knows, those road needs 
are overwhelming. Thank you for the opportunity to be here.
    Mr. Oberstar. Thank you, Mr. Cohen. I will take your 
concerns into very serious consideration, as we are doing, and 
of course the hearings that Mr. DeFazio chaired in the hearings 
he is conducting as we prepare for the next authorization.
    I have a number of questions for each of the witnesses. We 
have a vote and there are minutes remaining. That is not so 
important as there are 165 Members who haven't voted yet. My 
rule of thumb is when it gets down to 100, then I leave my 
office for the House floor and I can make it in time for that 
vote.
    Mr. Lash, I want you to mull some of the thoughts that I 
began my statement with. The obvious things that are happening 
in the environment around us, the Arctic snow reflects sun, 
that it has a huge effect on heating of the sea. If you have 
snow-covered ice, it reflects 80 percent of the sun's energy. 
Bare ice reflects 65 percent of the sun's energy. Melt ponds, 
only 35 percent. Open water reflects less than 7 percent of the 
sun. And then you begin to absorb, and the water begins to 
absorb the sun's energy; 93 percent absorption, that means the 
water is warming, the Arctic is warming, ice is melting, sea 
levels are rising. Dramatic, maybe irreversible, changes 
happening in that environment that affect the entire world.
    I want you to think about that. I am going to come back 
right after this.
    [Recess.]
    Mr. Oberstar. The Subcommittee will resume its sitting, and 
when we left for the votes I propounded some thoughts for 
Jonathan Lash. Would you like to respond?
    Mr. Lash. Thank you, Mr. Chairman.
    The short answer to what you were saying is "yes." the 
Chair was describing what the scientists call the albedo 
affect. If you lose the reflective power of snow and ice, the 
warming goes more quickly; particularly when you are talking 
about sea ice, it is a profound change, and that is going very 
rapidly.
    It is one of a number of mechanisms where the effect of 
warming creates a feedback that accelerates the warming. It is 
like the melting of the tundra releasing methane. Methane is a 
greenhouse gas, so that in turn accelerates the warming. There 
is a whole set of physical mechanisms like that which 
scientists are concerned become much more serious at about 2 
centigrade warming, so there is a consensus building that we 
ought to stop at 2 degrees centigrade. If we want to do that, 
that means we have to start thinking about reducing U.S. 
emissions by 60 to 80 percent in the next 30 to 40 years. It is 
a big task. We need to start.
    Mr. Oberstar. Now, the scientific environment in which we 
discussed this question of global climate change has with 
several international groups created a body of knowledge or 
developed a body of knowledge based on evidence from Greenland 
ice cores, not just a little scoop, but cores 2 miles deep. 
These go back hundreds of thousands of years.
    Last week at the opening of our hearing, I cited the work 
of Dr. Wallace Broker at Columbia University on the great ocean 
circulating current commonly known as the conveyor belt, which 
starts with a cold--I don't need to lecture Mr. Lash about this 
but I will just regroup the issue--and that starts in the 
Arctic with dense cold water with high salinity content, and as 
it travels down past the coast of North and South America, 
travels into the Southern Pacific and through the Philippines 
and moves back, it loses its salinity, loses some of the cold 
water, tempers the Pacific Ocean, a vast river of water equal 
to the flow of all the rivers of the world or all the rainfall 
of the entire globe on any given day measured in drip units.
    Then it brings that warmer water back, and, with a much 
more powerful effect on climate than the gulf stream, warms the 
British Isles and the European continent. Every 100,000 years 
or so, something has happened to the great ocean circulating 
current.
    Milutin Milankovich, the Serbian mathematician of the late 
19th century, postulated that there is a tilt of the Earth's 
inclination of less than one-half of 1 degree that occurs in 
that period of time, and possibly linked Scottish scientists to 
the bulging of the ocean at the Equator due to warming. The 
ocean expands, tilts, globe tilts, and then something happens, 
conveyor belt shuts down, and we have an Ice Age. Just the 
opposite of what people think about climate change, but over 
long periods of time.
    What are your thoughts about the direction in which climate 
change is taking us?
    Mr. Lash. Just to build on what the Chair said, the concern 
is that the natural process that has led to the great ocean 
conveyor shutting down could be replicated by the human-driven 
process of warming. And if you create melting of the Greenland 
ice sheet, you have fresh water coming down and diluting the 
very saline water. You have most warm air crossing the 
Greenland ice sheet and changing conditions above that northern 
ocean, and you stop this huge flow of water dropping down from 
the surface to 10,000 feet deep and that the conveyor might 
stop, and in historic terms it hasn't stopped over a period of 
500 years, it stopped over a couple of years. So it is quite 
sudden.
    There was just a major study released earlier this week in 
which scientists concluded that the pace of warming is warming 
northern Europe so fast that that is likely to largely offset 
the loss of warmth if the great ocean conveyor stops. So that 
rather than Europe going into an ironic deep freeze when the 
rest of the world is getting hot, you will have somewhat of a 
more balanced process.
    But that doesn't mean it is not important. What we are 
talking about is one of the three or four major drivers of 
weather systems on Earth, and of biologic systems, and we have 
no idea what the consequences are of stopping that.
    Mr. Oberstar. The question, then, I pose is these great 
long-lasting forces in Earth processes, climate rather than 
weather, are difficult to slow down and to turn around. Unless 
there is some way of extracting carbon from the atmosphere, it 
is going to be there for a very long period of time, and the 
urgency of action is for us to deal with it now to moderate 
over a long period of time the presence of carbon. Is that 
right?
    Mr. Lash. That is absolutely right. The weather conditions 
that we are experiencing today are the result of decisions that 
were made a generation or two ago. The decisions we are making 
today won't affect us, they will affect our children and their 
children. The weather system has so much momentum that if we 
stabilized the concentrations of greenhouse gases in the 
atmosphere tomorrow morning, the temperature would go on rising 
for 30, 40, 50 years, and ocean temperatures and the expansion 
of the ocean would go on for longer than that.
    This is a very big system and it is going to turn around 
very slowly, but we are accelerating in the wrong direction.
    Mr. Oberstar. Thank you. Sobering thoughts for all of us 
why actions we take now will either benefit the next two 
generations or adversely affect them.
    Mr. Millar, that comes to you. I had, how shall I say, a 
positive experience, pleasure of riding a hydrogen bus in Santa 
Barbara a few years ago as a result of legislation that I 
included in ISTEA in 1991 to stimulate the production of fuel 
cell buses. It took a decade to develop, put on the road, but 
it actually was operating. They pulled it out of service now.
    What is the future of hydrogen buses, electric buses, which 
I also rode in Santa Barbara? I saw that they could climb hills 
just as smooth with a development of power as conventional bus 
service. You have testified to, and I have cited those numbers 
many times, that transit use is growing faster than population, 
much faster than population, two or three times faster than the 
population growth. So what is the future for alternative fuel 
bus services?
    Mr. Millar. Certainly bright. Let me give you a baseline as 
I understand it now. Almost 20 percent of the urban transit 
buses that are in service at the moment are alternately fueled 
or hybrid buses. 35 to 40 percent of the buses that are on 
order are also in those categories as well. So we are clearly 
heading to a situation that, in very short order, more than 50 
percent of the transit buses will be alternately fueled or 
powered.
    When you look at a specific technology, for example, the 
fuel cell, for the last 15 years or so it has always been that 
we have been 7 years away from that becoming common. I sit here 
today to tell you we are at least 7 years away, still. It 
hasn't gelled yet. But there are a number of cities--at the 
moment, the Coachella Valley, Palm Springs area of California 
is probably the lead in that area. But AC transit on the east 
bay of the San Francisco Bay area is experimenting with that. 
Others in the California area are as well.
    So I think it is still going to take a while. It does 
appear that the hybrid technology is a good interim step. We 
are getting significant savings in pollutants, greenhouse gas 
emissions. We are getting remarkable increases in energy 
efficiency out of it, doubling and tripling.
    So I would say we are making steady progress and 
improvement in those areas.
    Mr. Oberstar. Thank you very much. I will have other 
questions. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    First let me compliment you for putting together a series 
of very important hearings about this very important problem. I 
told you earlier that I was pleased at how balanced the panels 
have been, first having in the hearing last Friday the top 
government officials, and now having witnesses from business, 
from industry associations, from environmental groups.
    I want to compliment the witnesses not only for very 
informative and helpful testimony, but also because the common 
theme here of this panel--and I assume the panels to follow--is 
that all of these people seem to be doing everything they 
reasonably can to help out in this situation or help combat 
this problem.
    I do think that our best hope in combating global warming 
is to rely primarily on the free enterprise, free market 
system, because the worst polluters in the world have been the 
socialist and communist countries. And only in a free-
enterprise, free-market system do you generate the excess funds 
to do the good things for the environment that everybody wants 
done. And one danger that we need to recognize is we don't want 
to overregulate our economy in an overreaction to global 
warming so that we end up causing more harm to the environment 
than good that we do. I have noticed that some people who 
believe so strongly that global warming is the top problem, 
they become very angry, in fact hateful at times, about people 
who even dare to question them.
    So I want to express, I want to try to explain, the 
Chairman very wisely did not have opening statements except by 
him and the Ranking Member because he wanted to get to the 
witnesses, so I am going to use my time to express a few 
thoughts and concerns, as I have already done.
    I am going to read some quotes here that I think might help 
explain why some of us on our side are a little bit skeptical 
at times on some of this global warming/climate change issue.
    Richard Lindzen, who is a professor of atmospheric science 
at MIT, a few months ago wrote in the Wall Street Journal about 
what he called the alarmism and feeding frenzy surrounding the 
climate change/global warming debate. And he said this, quote: 
But there is a more sinister side to this feeding frenzy. 
Scientists who dissent from the alarmism have seen their grant 
funds disappear, their work derided and themselves libeled as 
industry stooges, scientific hacks, or worse. Consequently, 
lies about climate change gain credence even when they fly in 
the face of the science that supposedly is their basis.
    Professor David Deming, a geophysist, said, quote: The 
media hysteria on global warming has been generated by 
journalists who don't understand the provisional and uncertain 
nature of scientific knowledge. Science changes.
    Robert Bradley, president of the Institute for Energy 
Research wrote in the Washington Times, quote: The emotional 
politicized debate over global warming has produced a "fire, 
ready, aim" mentality, despite great and still growing 
scientific uncertainty about the problem.
    And he went on to say, quote: Still, climate alarmists 
demand a multitude of do-somethings to address the problem they 
are sure exists and is solvable. They pronounce the debate over 
in their favor and call their critics names such as deniers, as 
in Holocaust deniers. This has created a bad climate for 
scientific research and for policymaking. In fact, the debate 
is more than unsettled.
    So I use those quotes just to show why there is still some 
uncertainty and some concern about this,, and I do appreciate--
I will say once again--I think the balance that the Chairman is 
attempting to approach this issue. I think we probably need to 
do as much as we can on this. On the other hand, we don't need 
extremism on this issue, we need balance and common sense.
    Some places global warming is apparently a really bad, 
maybe even terrible thing. Some places it may even be a good 
thing. Georgianne Geyer, a nationally syndicated columnist, 
wrote a few days ago--she said at one point in this column: In 
short, what they are talking about, still privately for the 
most part, is the idea that as the world continues to warm and 
the melting ice here bares secrets long held, underneath 
Greenland's huge mass could house gold, diamonds, even oil. The 
long dreamed-of Arctic route from Europe and Russia to the 
American continent and beyond could become a reality.
    She gave many other examples that I won't go into at this 
time.
    I think that we have had a very reasonable and fair hearing 
so far, and I appreciate the testimony of the witnesses. And I 
guess I will come to questions, get to questions on my second 
opportunity. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much for your always judicious 
and thoughtful remarks.
    I emphasize once again what we are seeking as we move to 
craft our part of what will be an energy package, we are 
looking at practical things that are within reach, that are 
doable now, using technology that has been demonstrated that in 
each piece can make a reasonable contribution to slowing down 
the emission of carbon into the atmosphere.
    I appreciate the gentleman's observations on that, that we 
have balance and common sense. I am seeking that.
    Mr. Duncan. Will the gentleman yield for a moment?
    Mr. Oberstar. I certainly do.
    Mr. Duncan. I think that this Committee has done more than 
almost any other Committee in the Congress in helping to 
improve the environment by attempting to relieve congestion and 
also to encourage energy efficiency in this very big and 
growing and important segment of our economy. So I appreciate 
the work that you have done and this Committee has done on this 
issue in the past, far more than of most other Committees in 
the Congress.
    Mr. Oberstar. I agree with that. In the last 12 years, in a 
very bipartisan way, we have moved very good legislation.
    The gentleman from New York, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. I apologize for coming 
in late.
    The President's budget request for fiscal 2008, if I 
remember correctly, cut funding for transit programs by $200 
million from what would have been authorized and what hopefully 
will still be authorized under SAFETEA- LU.
    I guess, Mr. Millar, this question is for you: What does 
that tell you about the administration's commitment to seeing 
transit as a means of dealing with the issue of dependence on 
foreign oil and on global climate change?
    Mr. Millar. The President's budget would underfund SAFETEA-
LU guarantees by $309 million; 300 million of that would come 
out of the so-called new starts and small starts programs. 
Those are the parts of the Federal program that lead to the 
expansion and extension of public transit systems.
    We have argued consistently that now is not the time to cut 
back on Federal investment. I mentioned in my testimony that 
private investment that was made in Boston and in New York more 
than 100 years ago in the subway system is still giving 
benefit.
    So to perhaps achieve some short-term budgetary goals, we 
are sacrificing the long-term needs of the country if we take 
that approach.
    Mr. Bishop. Thank you for that. I am pleased to observe 
that the budget resolution that the House passed, and hopefully 
will prevail in the conference report, carries forward SAFETEA-
LU funding at the authorized level for fiscal 2008. Hopefully 
we will be moving in the right direction there.
    Mr. Hamberger, if I may, the percentage improvement in fuel 
efficiency that the railroad industry has realized is very 
impressive, 80 percent over the last 20 some years. What 
lessons are there for other industries--I mean for the airline 
industry, for the automobile industry? Are there any lessons, 
any best practices that can be derived from your success that 
could be applied to other industries?
    Mr. Hamberger. I appreciate that question. I wish I had a 
better answer. I think it not so much of a silver bullet as 
really working across all aspects of the industry and in 
conjunction and cooperation with the manufacturers who produce 
the locomotives and also with the freight car manufacturers who 
are helping to design better cars so that they are more 
aerodynamic, have less drag as they go along the rail. We have 
top-of-rail lubrication to cut down on friction, operating 
practices for the engineers to get the optimum use.
    So it is really a combination of factors and it is clearly 
something that we focus on. It is the second to the largest 
variable cost next to labor for the industry. So it is, I 
guess, a commitment to try and improve the fuel efficiency that 
would be, I guess, the overarching lesson.
    Mr. Bishop. Thank you very much. One more question for Mr. 
Hall. The evolution hybrid locomotive which seems to hold great 
promise for the future, your projection is that approximately 
10 percent--it will become approximately 10 percent of the 
annual locomotive market. Why not more? Just seems like such 
great technology. Is that just a very conservative estimate?
    Mr. Hall. Yes, Congressman. We really input that as a 
conservative estimate at this point. Feedback from customers, 
there is a lot of interest, but we don't know exactly what the 
total sales projection would be.
    Mr. Bishop. But you are prepared to meet whatever the 
market might demand?
    Mr. Hall. Absolutely.
    Mr. Bishop. Thank you. Mr. Chairman, thank you. I yield 
back.
    Mr. Oberstar. Thank the gentleman. The gentleman from 
Maryland, Mr. Gilchrest.
    Mr. Gilchrest. Thank you very much, Mr. Chairman.
    Mr. Oberstar. Resident biologist.
    Mr. Gilchrest. Resident wannabe biologist. Don't have a 
degree. Had a couple classes in college but just enjoy nature's 
design.
    Mr. Lash, can you describe the difference between the 
ability of a carbon tax and a cap-and-trade to address our need 
to reduce greenhouse gases and what the costs and benefits of 
each are, in your view?
    Mr. Lash. Thank you, Congressman. I will take a crack at 
it. I will also supply you with a study that we did with 
Brookings, looking at some of those questions.
    The economists love the idea of a carbon tax because of its 
simplicity. It applies throughout the economy. It sends the 
economic signal of the importance of being more efficient in 
our use of energy throughout the economy with complete even-
handedness. Very simple to administer and it generates a source 
of revenues which you can either use to lower other taxes or to 
invest in technologies. The difficulty with a carbon tax is you 
set a particular level of tax and then you get only as much 
reduction in CO2 emissions as the economy gives you back.
    A cap-and-trade system, you set a particular level of 
emissions and you know you will get that level of reduction.
    That is what you did with sulfur dioxide. You said we are 
going to make a 50 percent reduction; you knew you would get a 
50 percent reduction. You allowed trading between sources of 
sulfur dioxide in order to reduce the costs.
    The difficulty with a cap-and-trade system is it is very 
difficult to apply it throughout the economy. You can't apply 
it to every source. You have to choose larger sources for 
simplicity of administration, and you don't have a guarantee 
about what the costs will be before you start.
    The group of companies that we worked with, the United 
States Climate Action Partnership, ended up recommending a cap-
and-trade system because they feel that it is important to send 
the economy a big signal about changing technologies 
immediately. They want to know that they have to achieve 
certain levels of reduction because they are making billion-
dollar investments in new technology.
    Mr. Gilchrest. So a CAP agrees that if the government sets 
the target, sets the goal, which is to set the cap, then the 
market--if the program was structured appropriately, then the 
market would set the price for the greenhouse gases.
    Mr. Lash. That is correct. You have the model of the sulfur 
dioxide program that you enacted in 1990. Very successful. The 
cost of a ton of sulfur dioxide, the cost of a ton of reduction 
for that program was predicted to be $1,600. Very expensive.
    Mr. Gilchrest. Given the fact--I guess we will come back, 
but we are running out of time for probably this silly vote, 
Mr. Chairman--but given this is going to be economy-wide, going 
to deal with every single sector to one extent or another about 
the reduction of emissions, and given sulfur dioxide I think 
dealt with about 1,000 power plants, is there any way to 
predict in advance what the cost of a ton of CO2 is going to 
be?
    Mr. Lash. There are many models that are making predictions 
of the cost but I wouldn't want to rely on any of them. I think 
there are programs you could enact that would enable you to 
test the price.
    Mr. Gilchrest. Do you think it is an essential part of the 
process we go through here to develop a cap-and-trade program 
to have some idea of the cost of a ton of CO2?
    Mr. Lash. Yes, I think you need to talk to a range of 
economists, they will give you a range of prices. You need to 
recognize that none of us can be certain about it. I personally 
would not support some of the measures that are proposed; to 
have a safety valve, to say if the cost of a ton of CO2 goes 
above $10, that you add extra credits in, because I think that 
undermines the environmental effect of the cap.
    Mr. Gilchrest. I see. Mr. Chairman, I guess when we come 
back we can pursue other questions.
    Mr. Oberstar. We have a quorum call in progress now, with 6 
minutes remaining. It is a most unusual occurrence. We haven't 
had a quorum call in years on the House floor. It is like 
taking attendance in grade school.
    We will stand in recess and Ms. Napolitano will be next.
    [Recess.]
    Mr. Oberstar. With apologies to the present and future 
witnesses, Subcommittee will resume its hearing. It will be 
rather unpredictable this afternoon. Challenges on the floor. 
But we will do our best to persevere. The gentlewoman from 
Texas, Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and thank you very much for your leadership in holding these 
hearings.
    This is a very important topic today, and as a 
representative from the State of Texas, I know a lot about 
energy, and I know a lot about extreme weather. And I know that 
the way we use energy and the types of energy that we use is 
going to have to change or else the weather is going to get 
worse for a whole lot of people.
    In 2005, a series of powerful hurricanes hit the United 
States. One of the most powerful of these was hurricane Rita. 
It crossed into southeastern Texas on September the 24th and 
wiped out a number of coastal communities, took the lives of 
many and caused over $11 billion in damages. Over 1 million 
people were forced to evacuate in the path of the storm. Costly 
and dangerous storms like Rita are what we might expect more 
frequently in the warming world.
    In other parts of Texas, we will face increased water 
shortages and droughts. Flash floods will be more frequent and 
tropical disease, such as malaria, may become more frequent as 
a warmer climate moves north.
    Contrary to what many might think, the State of Texas has 
actually been a leader when it comes to addressing climate 
change. The State government realizes the close connection 
between energy use and greenhouse gas emissions. As a result, 
Texas has among the more forward-thinking energy policies in 
the country.
    In 1999, the Texas Public Utilities Regulatory Act was 
passed, and this law required Texas to increase its use of 
renewable energy sources that do not generate greenhouse gases. 
As a result, Texas has been on a rush to generate wind power; 3 
to 4 percent of Texas's energy needs are expected to come from 
wind in 2010, up from less than 1 percent in 1999.
    The irony of this Texas policy is that it was signed into 
law by then Governor Bush. Unfortunately, the President has not 
been quite as forward thinking over the past 6.5 years in 
Washington. As a result, it is now time for us, the Congress, 
to step in and take action on the very important issues of 
climate and energy. I look forward to working with the 
Chairman, to moving forward on this point and with this 
Committee.
    Today's hearing will be valuable as the witnesses will 
provide us with numerous suggestions of proposals to increase 
our energy independence while at the same time decreasing the 
Nation's greenhouse gas emissions. I look forward to hearing 
the testimony. Thank you.
    I am sorry, Mr. Chairman I guess I was supposed to ask a 
question following my statement.
    This is to Mr. Lash. Given the abundance of coal in the 
United States, what are the negative ramifications of liquid 
coal as a fuel source?
    Mr. Lash. The use of coal to make liquid fuels is not new. 
Germany did it in World War II. Switzerland did it in World War 
II. South Africa did it when they were isolated. It takes 
significant energy to turn coal into liquid fuel. The use of 
that energy creates additional CO2 emissions. So if you dig 
coal, make it into liquid fuel, you create CO2 emissions when 
you are converting it and then again when it is burned in an 
engine to drive a car or a truck.
    It is possible to capture the CO2 from the conversion of 
coal to liquids and store it underground, a technology which 
has been demonstrated but not in commercial scale, but at 
considerable cost. Then what you would end up with is the 
equivalent of very, very expensive gasoline.
    Ms. Johnson of Texas. More expensive than we have now?
    Mr. Lash. Oh, yes, ma'am.
    Ms. Johnson of Texas. Thank you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. The gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. The witnesses have 
been here for a long time. I thank you for your testimony. I 
will make this relatively short. I know that there certainly 
are benefits that rail does show in terms of reducing energy 
usage, but I think public transportation is probably the most 
useful place that we can make real changes to conserve energy 
and reduce greenhouse gases.
    I want to focus, especially during the bike-to-work week, 
Mr. Clarke, I am also a, I am a member of the LAB, and you 
know, I want to thank the Chairman for all the work that he has 
done on trying to move us forward in allowing people to use 
their bikes to get around, to get to work. You know it can make 
a big difference. So many of the trips that we make are such 
short distances, and they certainly can be done on a bike.
    Unfortunately, go over to Europe and also in Asia and you 
see the tremendous usage of bikes for transportation is very, 
very common.
    I have real questions about how much--how far we can 
actually get in doing this. Certainly, we can do a lot more 
than we have, and what Chairman Oberstar has been able to get 
into transportation bills, including SAFETEA-LU, if we can get 
more money appropriated, certainly that will be very helpful.
    But one thing I just want to pick out from your testimony 
here, you are saying that Congress should direct GSA to make 
Federal Government a model employer in promoting bicycling and 
walking to work. How exactly do you see that being done? 
Because I think that, in a lot of ways, the government needs to 
be a leader when we are talking about changes that we can make 
to impact energy usage. But I want to--I wanted to hear what 
you specifically think can be done by the GSA.
    Mr. Clarke. Thank you for the question. There are numerous 
examples of corporations across the country that have tried a 
variety of different techniques to encourage people to ride 
their bikes to and from work. They range from simply providing 
decent bicycle parking, showers, locking, changing facilities, 
to going much further and providing mentoring programs, credit 
for someone to buy a bike, route mapping and assistance in 
finding routes to help people take routes to and from work, to 
improving the physical infrastructure around the workplace, to 
improve acces by putting in bike lanes and trails and working 
with the local community to do that, to providing fleets of 
bicycles on larger campuses and work sites so people can better 
travel in and between buildings in a campus setting.
    So there is a range of different incentives, different 
infrastructure, different promotional programs and even tax 
incentives that are available to encourage people to at least 
occasionally ride to work.
    Mr. Lipinski. Do you have any studies that you have 
commissioned or that you know what the cost would be, that you 
think would be associated with GSA doing some of these things?
    Mr. Clarke. It would very much depend on the scale, and I 
think you would have to begin by finding that out, as has been 
done through a program called the Travel Smart Program, which 
is an individualized marketing program that first asks people 
realistically what percentage of the workforce lives and works 
within a reasonable cycling distance, what needs they have for 
carrying things to and from work that might preclude them from 
riding. But once you have found a population that can feasibly 
switch to a bike, you have a better sense of what kind of 
investment will be necessary.
    The cost of a bike parking rack is $75. Simply putting in a 
few of those in most work places would be an enormous step 
forward. If every post office in the country had good bike 
parking and a good bike access to and from, it would go a long 
way towards enabling people to make those kinds of errands and 
trips by bike. So it does not have to be a very expensive 
endeavor. There are communities that require new buildings as 
they are developed to accommodate cyclists and also runners and 
other people taking exercise with showers and lockers and 
changing facilities. That is something which can be done up 
front in the cost of a new building in the development code 
that would be very forward thinking.
    Mr. Lipinski. Thank you. I know there was an issue in 
Minneapolis airport about someone who rode their bike there and 
didn't have a place to put it and winded up getting it taken 
away. Simple things can make a difference. Thank you.
    Mr. Clarke. I think the Chairman knows that story very 
well.
    Mr. Oberstar. Not only that, the traveler came back to find 
his bike cut in pieces. So I mobilized the bicycling community 
in Minneapolis to repair the bike, restore it to its original 
condition. He got a new bicycle seat and other new parts for 
the bike and that is where the idea for bicycle parking 
facilities authorized in the next FAA authorization has come 
from. Here is this guy trying to do the right thing. He rides 
to the airport at 3 o'clock in the morning when there is no 
transit. Come on. Let's do the right thing.
    Ms. Napolitano, we do have a vote on the floor, but we have 
plenty of time--not a vote. It is a quorum call. A nuisance 
action. Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman, and I am glad to 
see the diversity in the panels. And I have about 100 
questions, and I am only going to be able to ask 1 or 2. As I 
have said before and during comments in this Committee, I have 
one of the most used quarters in my area. Pollution to me is an 
every day life. I have the City of Pico Rivera who not too long 
ago was the number one polluted city in the whole State of 
California, so I understand the pollution. And I have been 
trying to figure out how do we incentivize more trucks to 
change into diesel or the mechanism to allow for less 
production of pollutants.
    One of the things, the statement that I want to make is 
that during the Olympics in Los Angeles, the Ford Motor Company 
I was employed by went to nighttime delivery. Works well. They 
are still using it. Why are we not incentivizing some of the 
companies to look at other alternative methods besides, as we 
well know, daytime, the sunlight causes for pollutants? Why not 
incentivize telecommuting? People have computers. Why aren't we 
looking at all of the other solutions besides the normal ones 
we can think of?
    I would love to see all the three big manufacturers of 
automobiles in California go to hybrid. They haven't. We should 
be able to incentivize those companies to produce hybrids so 
that we can cut that pollution. And then California had a 
program not too long ago, about 10 years ago, where we paid for 
old cars so that they wouldn't pollute. I forget what the 
amount was, $1,000, I can't remember, old vehicles.
    All of the other things that we know can help, what is it 
that collectively you can suggest besides what we have been 
discussing, all the different things, railroad, going to newer 
diesel burning engines, more effective? All those things that 
we talk about, what else can we do to be able to ask the 
Federal Government to participate, whether it is GSA or anybody 
else, Federal agencies that have a part in this, what can we do 
collectively? Anybody.
    Mr. Millar. Certainly, in my testimony, I talked about many 
things. We can certainly use the Tax Code to incentivize. We 
can take the unfairness out where free parking gets a larger 
tax break than if someone uses transit, and if they use 
bicycles, they don't get any break at all. So there is 
certainly a matter of leveling the field. We need to expand 
options for people. People can't use what they don't have, so 
we need to make sure that we fully fund the transit program, go 
beyond fully funding if we can and make sure that communities 
are able to expand their systems.
    We need to do things like the President has proposed to 
encourage buying of hybrid buses, the waiving of certain local 
match requirements. Well, that is fine as far as it goes, but 
with a limited amount of money, it actually decreases the 
amount of total money State, Federal, local that gets invested. 
So setting up a new program that encourages people to buy new 
hybrids, companies to buy new hybrid buses for example and pay 
for it, doesn't require a local match. Those kind of things.
    Ms. Napolitano. Anybody else? Mr. Rader.
    Mr. Rader. Yes, I think the local match problem is a very 
serious problem and one that needs to be addressed. I think, 
most importantly, FTA issues funding today without any 
consideration about whether or not the vehicle being purchased 
is fuel efficient, whether or not--they measure in great detail 
the return on the investment, the numbers of riders, and 
nowhere in the formula is how much fuel is this going to burn 
over the next 30 years? What is the payback? I think that is 
something we need to get in, and we will have an immediate 
effect.
    In the City of Los Angeles, something like 50 percent of 
the commuter trains are 3 bilevel cars and a 275,000 pound 
locomotive. Appropriate technology would cut the fuel burned by 
60 percent and would cut the emissions by nearly 70 percent, by 
just going to appropriate technology that is available today, 
for those half of the trains that are just three cars and 
locomotive. So there are a lot of things we can do in I think 
the very short term, and it doesn't take 20 years to fix that. 
Those locomotives are going to come up for a rebuild. Put 
appropriate technology in.
    Ms. Napolitano. And incentivze to be able to purchase them.
    Mr. Rader. Absolutely, absolutely and another thing, when 
we are looking at new starts, we are forever being inquired of 
by people who want to do new starts. Could we lease equipment? 
Well, in today's environment, there is no incentive to lease. 
There is no incentive for a private company to come out and 
lease, and when they are competing with FTA funding for 
expansion, the answer is, no, you can't afford to lease. If we 
could come up with a proper tax program that puts some 
incentive for private people to supply equipment into this 
market and help supplement the new starts market, I think we 
could go a long way with lease equipment and Tax Code and FTA 
problem.
    Ms. Napolitano. Are you suggesting that maybe we have a 
specific bill to address incentives to be able to achieve what 
we are all looking for?
    Mr. Rader. I think that would certainly be one way to do 
it, yes, ma'am. I think the other might be to simply 
incorporate it into some of the new authorizing legislation as 
we are moving forward. Either one. My concern about the latter 
is that it gets so big, we don't get anywhere; whereas if we 
can do it a little piece at a time, we can get there quicker 
because we can get general agreement across the board on it.
    Ms. Napolitano. Thank you, Mr. Chairman, and I would like 
to submit some questions for the record.
    Mr. Oberstar. Without objection, questions will be 
submitted for the record and let me ask the witness to respond. 
We have 4-plus minutes remaining.
    Mr. Gilchrest, do you have some questions you would like to 
ask at this point? There are 324 Members who have not, quote, 
voted.
    Mr. Gilchrest. I like your calculations, Mr. Chairman. Yes, 
sir, I have a couple of questions if I could get them through.
    Mr. Millar, I was talking to Mr. Lash about a cap-and-trade 
versus a carbon tax on reducing greenhouse gas overall in a 
pretty wide-ranging economy-wide program. And I think I am 
beginning to hear that a cap-and-trade program, as opposed to 
the carbon tax, is something that, if the Federal Government 
sets the goal, the market could adjust to a mechanism that was 
appropriate.
    Can you give me some idea of how you think a cap-and-trade 
program would affect the transportation industry and how could 
we best--or you best--or all of us best position a cap-and-
trade program to benefit the transportation system?
    Mr. Millar. First, let me state, I am not expert on cap-
and-trade, but I am rapidly learning about it. And we do 
believe that cap-and-trade has a very significant place in 
reducing greenhouse gas emissions. We think public transit 
services, which already are energy and greenhouse gas efficient 
compared to private automobiles, should participate in that. We 
think that the cap-and-trade could be a source of money, 
private sector money, that would be put into investing in 
public transportation, into encouraging people to use public 
transportation, thus by saving even additional energy and 
greenhouse gas emissions. We are working right now a report I 
hope I can make available to the Committee by midsummer that is 
going to examine some of those issues that relate specifically 
to public transit. But we think there is a lot of good there, 
and we are strong supporters of it.
    Mr. Gilchrest. That same investment in public 
transportation_could that be an investment to the automobile 
industry to create better gas mileage, hybrid cars, those kinds 
of things?
    Mr. Millar. Again, I am certainly not an expert on all the 
extent of it, but it would certainly seem reasonable, what you 
said.
    Mr. Gilchrest. Thank you, very much.
    Mr. Oberstar. The Committee--are there any witnesses at the 
table who need to leave for some urgent purpose, like eating 
or--I know Mr. Duncan has some questions that he wants to pose. 
And I have just a few sort of bullet points to establish for 
the record. And I do want to say, these are important because 
we are going to fashion, in the end of this month and month of 
June, our portion of the energy package that the House 
leadership is bringing together across Committee lines, and so 
all of your comments and those of last week are very important 
for us as we move forward. The Committee will stand in recess.
    [Recess.]
    Mr. Oberstar. Subcommittee will resume sitting, and Mr. 
Duncan is next.
    Mr. Duncan. Well, thank you, Mr. Chairman, and I know you 
want to get on with the other panel, so I will just be very 
brief, but the staff has asked that I ask unanimous consent 
that they be permitted to submit their questions to all the 
witnesses following this hearing.
    Mr. Oberstar. Without objection, so ordered.
    Mr. Duncan. All right, Hamberger, I have heard at times in 
the past that most of your, or some of, your members use a 
billion dollars or more fuel or oil in a year. And I just 
wondered, how much oil or how much fuel are they using now 
typically on average, and how does that compare say to 10 years 
ago?
    Mr. Hamberger. Thank you, Mr. Duncan, the best information 
I have is that, in 2005, we burned 4.2 billion gallons of fuel. 
I believe that is more than the United States Navy. It is the 
second, as I said, the second largest variable cost for the 
industry. And as my testimony pointed out, if we had not made 
the progress that we have since 1980, we would have been 
burning an additional 3.3 billion gallons of fuel in 2005--I am 
sorry, that is 2006--I correct myself, not 2005; that is 2006 
we would have burned an additional 3.3 billion gallons of fuel.
    Mr. Duncan. An additional 3.3 billion, and I assume that 
you are carrying much more tonnage now than you were in 1980 
or----
    Mr. Hamberger. Absolutely correct, 2006 was the record year 
for freight.
    Mr. Duncan. So you are carrying much more tonnage or much 
more in goods for really quite a reduction in energy costs.
    Mr. Cohen, what difference do you think it would make if 
the Congress was able to change some of the CMAQ eligibility 
rules so they could apply to highway capacity projects? Many of 
the traditional highway projects are not eligible for CMAQ 
funding.
    Mr. Cohen. That is right. Currently, the CMAQ program does 
not allow highway capacity outside of HOV lanes to be eligible. 
I believe HOV lanes are eligible under CMAQ. The congestion 
relief program that I would envision would allow full 
eligibility for anything, whether it be a highway investment, a 
transit investment, road building or an ITS, but that would be 
a performance-based program in which in order to use these 
funds or--it really has to be worked out because I don't want 
to create a whole bunch of new layers of planning process for 
this. So I would like to work it out with you. But what I 
envision is that an improved CMAQ program or a completely new 
congestion relief program be created that allows full 
application of any solution available provided that it give you 
the most bang for the buck. And in my view, bottle-neck relief, 
which is not currently eligible under CMAQ, would be a very big 
bang for the buck type set of projects to look at and should be 
eligible.
    Mr. Duncan. Mr. Lash, in one of our morning publications 
that we receive here, I don't remember whether it was Congress 
Daily or the CQ Today, but one of those just a few days ago, I 
think last week, maybe a week before last, said that farmland 
had its biggest increase ever over the past year, had gone up 
22.5 percent, not every place of course, but they said part of 
it was due to inflation. Part of it was due to farmland close 
into the cities becoming more valuable, but that most of it was 
due to the ethanol craze or whatever you might want to call it. 
Yet I saw an energy expert on television Friday night that said 
that ethanol costs about as much in energy use as it does in 
energy that it saves. And I notice that you have mentioned 
something about that in your testimony, yet, of course, 
ethanol--we can produce a lot of ethanol domestically where we 
can't supply all of our oil needs.
    Is ethanol the answer and the solution that a lot of people 
seem to think it is?
    Mr. Lash. Congressman, I don't think it is, at least not 
corn-based ethanol as it is produced now. The problem that you 
raise is exactly right. For the most part, corn-based ethanol 
is made now using natural gas and because of that, the benefits 
in terms of reduced CO2 emissions are quite small, depending on 
the technology. There are huge benefits to farmers. I have a 
house on Chesapeake Bay, and there are fields being planted 
with corn that I have never seen planted before. And it is a 
great thing for farmers.
    There certainly are opportunities to make ethanol that 
would be of much more a benefit from a climate point of view, 
using cellulosic ethanol technologies that are still a few 
years off before it is commercial. And we are getting some 
energy independence benefit from the current production of 
corn-based ethanol. There is an energy benefit since it is a 
domestic source.
    Mr. Duncan. Thank you, very much.
    Mr. Hall, you have heard, you may have heard my statement 
earlier in which I said that I think that if we allow the free 
enterprise, free market system to work, that we will solve many 
of these problems, that we can really do more that way than 
through the government. And I was very impressed by the energy 
that you are producing from dynamic braking, and I did not know 
about that. I was told that is also being done in cars and 
buses and so forth. And you know, I said, well, somebody a lot 
smarter than me came up with that, but, boy, I think that is an 
amazing sign of progress. And I think that if we allow the free 
enterprise system to work, that the genius of that system will 
do more than almost anything to help us with the problems we 
are talking about here today.
    But we need to get on to the next panel, and you all have 
been here far too long, but I just want to say I appreciate 
your patience. I appreciate your testimony. You have been very, 
very helpful to us.
    Thank you.
    Mr. Oberstar. I concur with the gentleman's remarks about 
the helpfulness and patience of this panel. We are likely to 
have a batch of additional votes.
    I would just pick up on Mr. Duncan's comments about 
ethanol. The first ethanol plant in the State of Minnesota was 
built in my district. Yet it now has moved to complete 
recycling of material using recyclables to fuel the plant so it 
is no longer dependent on fossil fuel to operate an ethanol 
facility. And the by-product of producing ethanol is a filter 
cake that is high protein feed for cattle and now has achieved 
a 1.6-to-1 benefit-to-cost ratio. And other plants are moving.
    But, as Mr. Lash pointed out, there is a finite limit to 
corn production, even using marginal lands which will require 
more nutrients and more limestone to apply to acid soils to 
make them productive. Switch grass, my colleague from 
Minnesota, Chairman of the Agriculture Committee, Collin 
Peterson, points out is a native grass, has three cycles, it 
has a three-crop production capacity, is perennial, does not 
need to be reseeded and produces 900 gallons of ethanol per 
acre compared to 600 gallons per acre for corn-based ethanol. 
And as this farm bill moves through, there will be an incentive 
to moving to switch grass. And all of these, these are all 
pieces, each piece that we add reduces our dependence on 
foreign-sourced oil.
    Mr. Hamberger, your testimony cited great efficiencies, 
huge progress. You do mention switching locomotives. How many 
of the member railroads of your association are using Green 
Goats, as they are affectionately called in the switch yards, 
using biofuels? And what has been the effect of moving to the 
Green Goat technology?
    Mr. Hamberger. I don't really have that data on the top of 
my head. I would like to respond for the record, but it is the 
Green Goats, but it is also the Genset, where they have as many 
as three different engines in the locomotive so that when you 
are moving, doing switching and moving a car or two, you are 
not using all 4,000 or 2,500 horsepower; you are using just 
that amount of motive power that is necessary.
    In addition, we have the alternative power units which we 
sit on the side of the locomotive, and in cold Minnesota, for 
example, in February, if you turn the engine off, the viscosity 
would get such that you could freeze up so you have to keep it 
running while these alternative power units do that in a much 
more fuel efficient way, and so that kind of technology is 
moving throughout all of the members. I don't have the 
specifics on the Green Goat.
    Mr. Oberstar. I have seen from one or two of your members, 
their promotion pieces on Green Goat technology and using 
technology soybean-based fuel that has relatively small or 
negligible particulate discharge, NO, SO2 or NOX, and is more 
friendly to neighbors of switch yards.
    Mr. Hamberger. We have been doing a lot of research on that 
down on the Texas transportation center, and I think part of 
that is with the suppliers as well. And a couple of issues have 
popped up, one of which is, how does that work again in cold 
climates? It is not always as effective, and there are also 
some issues with the warranties with the manufacturers.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T5926.157
    
    Mr. Oberstar. You have spoken in the past of, and your 
various principals have spoken, about needs for tax credits to 
make further investments. Would you submit for the Committee 
record to be shared on both sides their recommendations for 
legislative initiatives as we--whether they are within the 
jurisdiction of this Committee or not--we can recommend those 
to be done by others, for a legislative initiative that we are 
going to put together?
    Mr. Hamberger. Very pleased to do so, and as I did mention 
in my opening statement; that is, H.R. 2116, introduced by 
Congressman Meek and Congressman Cantor, that is pending. The 
bill has been referred to the Ways and Means Committee.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T5926.158
    
    Mr. Oberstar. I would like sort of an order of priority 
suggestion to the Committee.
    Mr. Clarke, I have known Andy Clarke since he first 
emigrated here from England. He has pretty much lost his 
British accent, which I don't know what effect it has on his 
working relationship with Americans; they would always bow to a 
British accent. But he has certainly been a very effective 
advocate.
    My goal for bicycling is to establish it as a mode of 
transportation, not just a fun thing to do or, as I mostly do, 
for fitness. But also in my capacity, I ride to promote 
bicycling as a mode of transportation, and to encourage others 
to do it. And I do these promotional rides both in my district 
and elsewhere around the country. My 2,800 miles a year a 
couple of years ago is declining as I have more 
responsibilities and fewer morning hours and fewer weekends to 
devote to it.
    But about bicycling, what do you recommend that--I have 
sent a letter to Secretary Peters asking her to include that in 
the departmental initiative. What else do you suggest we do in 
that regard?
    Mr. Clarke. The Energy Policy Act of 2005 authorized 
funding for a study and a series of demonstration projects, as 
you know, to determine what the most effective ways are of 
achieving this switch from cycling--from car trips to bicycling 
trips. The funding needs to be appropriated. And if there were 
some way that, either through the appropriations process or by 
the encouragement being given to the Department of 
Transportation to find the relatively small amount of money, 
just $6.2 million, in their existing budget, it would go a long 
way towards providing some terrific examples and to disseminate 
the best practices that exist and can be created; to show how, 
through encouragement and education programs, people can be 
encouraged to switch modes and to find the appropriate 
technology for certain trips.
    Mr. Oberstar. Well, switching modes is eminently doable. In 
Munster, Germany, a city of 250,000 people, which was leveled 
by the Allies in World War II in retaliation for Coventry--the 
city has been rebuilt. It is on the German-Dutch border, 
northwest of the Netherlands; has bicycle mode share 48 
percent, nearly half of all trips for all purposes, parking for 
4,000 bicycles in the city center. The mayor rides to work 
every day, rain, snow, shine, on bicycle. They have a 20-foot 
head start at intersections for bicycles over automobiles. They 
have a 20-second head start at signaled intersections in 
addition to the 20-foot headstart for bicycles. Makes a big 
difference. We can do that in cities in the United States. That 
is why we have the nonmotorized transportation pilot project in 
four cities that have been designated in SAFETEA-LU.
    We are moving in that right direction, but your numbers 
right on the Netherlands is roughly 30 percent; Denmark is 20 
percent mode share for bicycling. And for those relatively 
short trips, we can make it safe, and we can make it efficient. 
And we just need to continue every--we have to use squeeze 
every practical realistic opportunity to cut the carbon out of 
the atmosphere so that projections that Mr. Lash and others and 
serious scientists have made aren't proven true; that we cut 
them off, delay them off into the future.
    Mr. Cohen, what do you mean by data-driven congestion 
relief programs?
    Mr. Cohen. What I mean is basically for you to authorize 
programs with incentives for cost-per-ton of carbon dioxide or 
other greenhouse gas emissions as a factor in project 
selection. I think if you do that, and you look at the actual 
cost per ton of pollution removed, whether it be a pollutant 
that is a criteria pollutant or carbon dioxide, you will find 
that, on the basis of just biggest bang for the buck, you will 
have a very significant amount of that funding going to 
congestion relief projects. And I think, as the CMAQ program 
was intended to do, it would both solve congestion problems and 
air quality problems. But you can't just say, well, all these 
things are eligible except for highways and not have a 
performance basis to it. If you add the performance requirement 
and make anything eligible and reward those who do the best 
job, then I think that is the kind of data-driven performance-
based program that I would like to see.
    Mr. Oberstar. Thank you. There are--that opens some 
opportunities for to us work on as we move to a legislative 
package.
    Mr. Rader, you say that electric vehicles are not zero 
pollution; they use electricity generated principally by fossil 
fuels, but the diesel multiple-unit train does produce 
electricity and does produce fewer or lower total emissions.
    Mr. Rader. It is a very interesting finding there was just 
a paper published, peer-reviewed paper published by the 
National Academy of Sciences Transportation Research Board, the 
double-deck clean diesel DMU in an environment like Denver 
where we generate our power in the same basin that we run the 
train, actually has fewer emissions than an electric vehicle 
because of course we have the emissions right there, right next 
door. And an electric vehicle frequently is a pollution 
transfer device. If I am in Southern California, I get to move 
my pollution to Arizona. But it is a very interesting study. 
The cost emissions per seat mile from the new clean diesel are 
actually lower than those of the electricity generated to drive 
a heavy electric rail system.
    Mr. Oberstar. So what do we need to move that technology 
forward?
    Mr. Rader. We are doing it today. I think the key is now 
that through the direction of Congress, the FRA-funded 
demonstration project, people are now seeing it run. We are in 
an industry that does not adopt new things easily. Now, that it 
is out running, we see another year or two approving, I think 
you are going to see pretty universal adoption. We have 17 
agencies that we are working with today who would like to see 
clean diesel DMU technology in the next 10 years.
    Mr. Oberstar. Thank you.
    Mr. Hall, once we achieve the--when science and engineering 
achieves breakthroughs, people sort of plateau and think, well, 
that is the limit, just as with the GE 90, now GE has produced 
much more powerful aircraft engines.
    What is the next step in technology and how widespread will 
be the use of the breakthroughs that you cited in your 
testimony, Mr. Hamberger cited in his testimony?
    Mr. Hall. I think what we have in our plans to run forward 
is a combination of technologies that we can apply to improve 
the engine by itself and then more of these overall sort of 
control system strategies that we can use to reduce emissions 
and fuel consumption for the total locomotive system. So hybrid 
is just one example of that. The trip optimizer is another 
example.
    There is an enormous amount of braking energy that can be 
recovered from these large trains. These two technologies only 
tap into a portion of it. There is still a lot more to be had, 
and we will continue to work on that.
    Mr. Oberstar. The weight of the vehicles is also--weight of 
locomotives and weight of the passenger cars are a detriment to 
efficiency because they are pulling so much weight. When the 
French achieved their world speed record, 358 miles per hour 
steel-on-steel passenger rail in April, just the day before our 
Committee Members traveled on the TGB from Brussels to Paris, 
185 miles per hour, also in lighter rail cars, 3 minutes apart, 
all day long, 1,100 passengers, 94 percent load factors, 
extraordinary accomplishment, all requirements for heavier rail 
cars are safety based.
    Is it possible for to us change those standards, still 
protect safety, reduce the weight of locomotives and passenger 
cars and achieve these efficiencies? Mr. Hall? Mr. Hamberger? 
Mr. Millar?
    Mr. Rader. I can certainly speak to that because we spend a 
lot of time in Maglev study, and the answer is, yes and no. The 
yes part of the answer is, if we provide a dedicated right-of-
way for passenger service, such as is provided for the TGA and 
for the Shinkansen, then the answer is absolutely yes. But as 
long as we are going to use the existing rail systems that are 
interconnected and we are running heavier trains on them, then 
the answer is no. We can't make a safe car substantially 
lighter. With one exception, we are currently studying crash 
energy management technologies that are used in Europe and in 
part of the trains in Japan. And that may lead us to some 
lightening, but not terribly significant.
    Mr. Oberstar. Much depends on the system in which the rails 
are operating.
    Mr. Rader. Absolutely. If we were to spend per passenger 
mile in the United States for rail what is spent on the road 
bed in either Japan or France, given distances that we have, 
there is not enough money in the Federal budget. I think that 
is the big challenge we face. We have to face the realities 
that we have much longer distances, many more miles, many more 
grade crossings to protect, et cetera. It could be done, but 
the cost is enormous.
    Mr. Oberstar. In that spirit, Mr. Hamberger, let me ask you 
the hard question.
    Commuter rail access to freight rail track, what I hear 
from local governments repeatedly, is the impediment to 
improved commuter rail service. Gaining access to freight rail 
tracks may entail double tracking where there is only single 
track or sidings.
    Now, without mentioning individual railroads, there have 
been some that have been very cooperative and very responsive 
to commuter rail interests. And others have dragged their feet. 
In most cases, it has been very difficult to work it out. What 
do you think we should do to ease the burden of access?
    Mr. Hamberger. You won't be surprised to me hear me say 
that I find that all of my members are forthcoming in this 
regard and that, in fact, I believe the number Mr. Millar used 
at a hearing on this issue a couple of years ago was 400 
million trips a year. And I like to characterize that as 400 
million opportunities where we have cooperated around the 
country, and it really is on all the Class I railroads that 
have entered into bilateral arm's length agreements with the 
local authorities.
    And I think the discussion you were just having with Mr. 
Rader about what was happening in Europe and what is happening 
in Japan, if you take a look at Europe, because you have been 
there, you know that they move less than 10 percent of their 
freight by rail. They have a pretty good passenger system, but 
they have not a very good freight rail system.
    Mr. Oberstar. In fact, freight rail is operating on the 
passenger rails.
    Mr. Hamberger. You cannot have, in my opinion, a high-speed 
passenger rail system operating on a freight rail system. And 
so when it comes to commuter rail, I think the answer is, there 
has to be enough capacity for both. You do not achieve your 
clean air goals, congestion mitigation goals, fuel saving 
goals, by getting people out of their cars onto commuter rails 
while at the same time you are getting those UPS trucks back on 
the highway instead of riding double stack on the back of the 
rail car.
    Mr. Oberstar. The answer has to be intermodal.
    Mr. Hamberger. The answer has to be intermodal, and the 
answer has to be enough capacity for both.
    Mr. Oberstar. And in building more capacity. Finally----
    Mr. Hamberger. Which I might add would be accomplished by 
H.R. 2116, which we encourage.
    Mr. Oberstar. We are going to work on that.
    Mr. Lash, the emissions trading, preserving a rain forest 
in Ecuador in order for a power plant in Ohio to continue its 
energy production, as cited as an example of success and 
advancing the cause of freezing carbon emissions, but it is not 
advancing the cause in my--as I see it. What are your thoughts 
about emissions trading regimes, such as that the European 
community wants to do in aviation, for example?
    Mr. Lash. There are many forms of very legitimate emissions 
trading. You created an SO2 trading system in 1990 that has 
worked very well. The Europeans are now trading carbon on the 
European carbon exchange, and that is reducing the cost for 
them of meeting their obligations.
    The idea that you can include in that system offsets from 
avoided deforestation seems to me not legitimate at this time. 
We don't have agreed-upon rules even of what you would count 
for avoided deforestation. It is a great way to avoid 
deforestation. It is not a great way to avoid global warming.
    Mr. Oberstar. Thank you, each of you for your very 
thoughtful and sobering comments and for your extraordinary 
patience in being with us throughout this day. If you have any 
further suggestions or recommendations for our Committee to 
consider in formulating legislative initiatives, we would 
welcome those. Thank you very much.
    Our next panel on public buildings includes the American 
Institute of Architects, Mr. R. K. Stewart; American Council 
For an Energy Efficient Economy, Mr. William Prindle; Alliance 
to Save Energy, Jeff Harris; Solar Energy Industries 
Association, Mr. Christopher O'Brien. And we will be in recess 
for about 15 minutes pending this vote and a subsequent vote on 
the House floor.
    [Recess 3:00 p.m.]
    Ms. Norton. [presiding] As you can see, a madhouse has gone 
mad. So I am going to have to ask that we proceed as 
expeditiously as possible with brief opening statements so that 
we can move through this very important panel.
    If you have been here previously, you will understand that 
our Committee--each of its Subcommittees is, of course, 
involved in the effort of the Full Committee to design energy 
policy that affects our Committee, and our Committee is 
centrally affected in many ways.
    I am Chair of the Subcommittee on Public Buildings and 
therefore have a special interest in Panel II. We will be 
submitting a number of proposals; I already have a number of 
proposals. I will be especially interested in your ideas to 
enhance and add to my own.
    I am pleased to welcome all of you. I apologize for the 
delay, of which I must assure you we had no notice. It doesn't 
come from our side, I might add. I intend to proceed as quickly 
as possible. Please summarize your statements. And I am going 
to ask you to proceed, I suppose beginning with Mr. Stewart.

   TESTIMONY OF R.K. STEWART, FAIA, PRESIDENT, THE AMERICAN 
 INSTITUTE OF ARCHITECTS; WILLIAM PRINDLE, EXECUTIVE DIRECTOR, 
AMERICAN COUNCIL FOR AN ENERGY EFFICIENT ECONOMY; JEFF HARRIS, 
VICE PRESIDENT FOR PROGRAMS, ALLIANCE TO SAVE ENERGY; AND CHRIS 
     O'BRIEN, CHAIRMAN, SOLAR ENERGY INDUSTRIES ASSOCIATION

    Mr. Stewart. Thank you, Madam Chair. I am R.K. Stewart, 
President of the American Institute of Architects, and on 
behalf of our 81,000 members and the 281,000 Americans who work 
for architecture firms nationwide, I would like to thank you 
for the opportunity to appear today. I would like to share the 
thoughts of our Nation's architects on energy consumption and 
how it relates to the most overlooked sector in the greenhouse 
gas debate, buildings: the buildings in which our people live, 
work, and play.
    I have submitted written testimony to the Committee but 
would like to stress those points the AIA feels are most 
important. The AIA believes strongly that now is the time to 
react to address climate change by tackling energy use in 
buildings. Our Nation needs to begin making significant 
reductions in the amount of fossil fuel-generated energy our 
buildings consume. As your Committee has jurisdiction over the 
Public Building Service of the General Services Administration, 
this Committee is in a unique position to make policy decisions 
that could result in new and renovated Federal buildings using 
far less energy than current buildings.
    According to the Department of Energy, buildings and their 
construction are responsible for nearly half of all greenhouse 
gas emissions in the U.S. every year. The building sector alone 
accounts for 39 percent of total U.S. energy consumption, more 
than either the transportation or industry sectors. Building 
operations consume 71 percent of U.S. electrical production and 
buildings in the United States account for 9.8 percent of 
carbon dioxide emissions worldwide. Put another way, U.S. 
buildings account for nearly the same amount of carbon 
emissions as the economies of Japan, France, and the United 
Kingdom combined.
    If we want to be serious about energy use reductions, 
buildings must become a significant part of the discussion. The 
AIA believes that architects must advocate for the sustainable 
use of our Earth's resources. We have adopted an official 
position establishing energy reduction targets in buildings. 
Architects across the country have embraced this position and 
are expanding the use of design practices that enhance design 
quality as they increase the environmental performance of 
buildings.
    To truly revolutionize the way our Nation designs and uses 
buildings, a combination of regulations and incentives must be 
used to greatly reduce fossil fuel-generated energy use, and 
improved energy efficiency nationwide. The AIA strongly urges 
Congress to take the lead in fighting against climate change by 
establishing new energy consumption standards for Federal 
buildings. The AIA recommends that Federal agencies be required 
to immediately ensure that new buildings and buildings 
undergoing major renovations consume no more than half the 
fossil fuel energy that a similar Federal building constructed 
in 2003 would consume. Beginning in 2010, agencies should be 
required to meet a declining cap on energy consumption such 
that they meet minimum energy reductions compared to the 2003 
baseline.
    We propose that by 2010, new and significantly renovated 
Federal buildings be required to reduce fossil fuel-generated 
energy by 60 percent. By 2015 the cap should be lowered to 70 
percent reduction, continuing until 2030 when we should achieve 
100 percent reduction in fossil fuel-generated energy for all 
new Federal buildings.
    Setting declining caps on energy use is not a new idea. In 
the past Congress has passed similar legislation, and recently 
Governor Bill Richardson of New Mexico established energy 
reduction targets in his State.
    Energy reduction requirements have shown a record of 
success, as referenced in my written testimony. That record 
demonstrates that the AIA-recommended energy reduction targets 
are readily achievable.
    There is increasing evidence confirming that the public is 
concerned about how we are able to reduce the use of fossil 
fuels in our buildings. They increasingly believe it is in the 
best interest of our Nation and the planet to reduce our 
reliance on fossil fuel-generated energy and move towards a 
sustainable future. Reducing energy use in Federal buildings 
would be a major step in redesigning the future and point the 
way for the private sector.
    We encourage Congress to consider our proposal and I 
welcome your questions and thank you very much for the 
opportunity to present to you today.
    Ms. Norton. Thank you very much, Mr. Stewart.
    Mr. Prindle.
    Mr. Prindle. Thank you, Madam Chair.
    Good afternoon. My name is Bill Prindle. I am the Acting 
Executive Director of the American Counsel for an Energy 
Efficient Economy. We are a national nonprofit organization 
based here in the District that advances energy efficiency for 
energy security, economic prosperity, and environmental 
protection. I am pleased for the chance to share our thoughts 
with you.
    The theme of my testimony today is that energy efficiency 
should be used as the first fuel in America's race for a clean 
and secure energy future. We face unprecedented energy 
challenges as we enter this new century. Conventional energy 
markets, especially for oil, have shifted such that the era of 
cheap fossil fuel energy is over. The global warming challenge 
is going to further force us to change our energy use patterns.
    Now, energy efficiency is one of the very few resources 
that addresses both energy security and global warming while 
also boosting economic prosperity. We can develop domestic 
energy supplies with low carbon content, but that is going to 
take time. So we can and we must start now to accelerate 
efficiency investment. Every clean energy strategy that you can 
imagine, whether it is based on renewable energy or advanced 
coal or safe nuclear, depends on energy efficiency to succeed. 
As we study the markets today we find that energy demand is 
growing too fast for any realistic supply plan to catch up. So 
our first job is to make policy that accelerates efficiency 
investment.
    Energy efficiency is actually an infrastructure issue. We 
happen to be blessed in this country with a massive energy 
service infrastructure. When I say that, I am not talking about 
the supply infrastructure; I am not talking about refineries 
and pipelines and power plants. That is the supply 
infrastructure. I am talking about the millions of energy using 
systems in our vehicles, our buildings, in our factories.
    People tend to think of energy efficiency as little things, 
light bulbs, thermostats, things we can see and touch. But our 
research estimates that we spend as a Nation about $200 billion 
annually on energy efficient technologies. And as close as we 
can account, we only spend about 100 billion on all the energy 
supply infrastructure in this country in a given year.
    So we spend more money on energy efficiency on all those 
lighting systems, motors, windows, all the components of our 
buildings and factories and vehicles that use energy, we spend 
more on that than we do on the whole supply side. So it is big 
business. It is a big part of our economy. It is surprising to 
a lot of people.
    But, in fact, energy efficiency is one of the prime engines 
of economic growth in the United States. We use half as much 
energy per unit of economic output than we did when I came into 
this field 30 years ago. If we had not made those gains, our 
economy would not have been able to sustain the prosperity that 
we have seen in these recent decades. And even though we have 
made a lot of progress, we still have enormous potential to 
accelerate efficiency investment. We estimate in the range of 
another $200 billion every year. That is a big infrastructure 
investment that we can make and we need to make.
    There are numerous studies about this. We do some, there 
are others, and consistently what we find in the research is 
that we can meet most if not all of the growth in our energy 
needs over the next several decades through energy efficiency. 
That is what will allow us to win the energy security battle 
and to win the climate battle.
    But it takes public policy commitment to make this happen. 
Even though market forces are working, and we do believe in 
market solutions, there are significant market barriers and 
there are other economic forces at work that are limiting the 
rate of investment that we need to achieve in efficiency.
    We have recently completed a study for the International 
Energy Agency that shows that simple market barriers--that 
every serious economist will acknowledge affects half or more 
of the energy used in our residential and commercial 
buildings--with those kind of market barriers in place, we 
can't expect the market to deliver the results. We have to have 
some serious policy help to move markets forward.
    I want to touch also on energy efficiency and the way it 
plays in climate policy. We have been studying this issue for 
several years. We were stakeholders in the Regional Greenhouse 
Gas Initiative that stretches from Maryland to Maine now. I 
know the District is talking about joining RGGI, as it is 
called. The detailed studies that we have participated in show 
that any way you look at it, energy efficiency makes climate 
policy affordable. It reduces carbon prices, reduces energy 
bills, it improves economic growth while reducing carbon. And 
that is great, but here is the paradox. The climate policy 
designs that we are talking about today, whether they are cap-
and-trade or carbon taxes will not be sufficient to obtain the 
energy efficiency investment that would make carbon policy 
affordable.
    Let me say a little bit more about that. Cap-and-trade 
systems set caps up at the power plant level, and when you 
reduce energy use down at the customer level, that doesn't 
change the cap on emissions at the smokestack level. Emission 
traders tell us we will not accept credits for people who say 
they saved energy in a building. That is a fundamental 
structural problem in cap-and-trade design and we need to fix 
that.
    Secondly, a lot of the effects that are expected from 
climate policy come from price effects. Carbon taxes or carbon 
allowance prices raise the price of energy. What we find by 
looking at how markets are actually working today, those 
effects are very weak and we are not going to see energy prices 
that will motivate energy efficiency at the rate we need to see 
it.
    I want to compress some of my other remarks and get to a 
few of our policy recommendations. Certainly we have to have 
carbon policy designs that encourage energy efficiency. If 
there is a cap-and-trade program, there has to be an allowance 
allocation policy that sets aside a large chunk of allowances 
to get after energy efficiency and the other low-carbon 
technologies that won't happen automatically under the cap-and-
trade system. We need complementary policies that come in at 
the appropriate level of the market to get efficiency where it 
exists in vehicles and buildings.
    In the transportation sector in this Committee's 
jurisdiction under SAFETEA-LU and those kinds of legislation, 
we would recommend that the Committee look at State allocation 
formulas for Federal transportation funding to encourage State 
and local governments to consider greenhouse gas emissions 
improvements as part of that process.
    We would like the Committee to order a study of the climate 
benefits of a Federal policy that was more active in supporting 
transportation and land use planning at the State and local 
level. My colleagues have already talked a lot about building 
codes and building standards. I won't go into that. Appliance 
standards are also part of that picture. Research and 
development is part of that picture. We need to rebuild the 
research and development infrastructure in this country. And 
our research also shows that significant carbon savings can be 
realized at very low cost to energy efficiency. So we urge you 
to use efficiency as the first fuel in the race for clean and 
secure energy.
    Thank you for your time and I will be happy to answer any 
questions.
    Ms. Norton. Thank you, Mr. Prindle.
    Mr. Harris.
    Mr. Harris. Thank you, Madam Chair. It is a pleasure to be 
here to talk with you on this important topic and to join my 
colleagues from our fellow organizations. My name is Jeffrey 
Harris. I am the Vice President for Programs at the Alliance to 
Save Energy. The Alliance is a bipartisan, nonprofit coalition 
of more than 120 business, governmental, environmental. And 
consumer leaders. Our mission is to promote energy efficiency 
worldwide to achieve a healthier economy, a clean environment, 
and greater energy security.
    The Alliance was founded in 1977 by Senators Charles Percy 
and Hubert Humphrey. This year we are enjoying our 30th 
anniversary. We currently enjoy the leadership of Senator Mark 
Pryor as our chair, with congressional vice chairs Congressman 
Ed Markey, Zack Wamp, Ralph Hall, and Senators Jeff Bingaman, 
Susan Collins, Larry Craig, and Byron Dorgan.
    In addressing the topic of today, I would like to focus on 
the importance of improving energy efficiency and reducing 
energy waste within the Federal Government in both fixed 
facilities and mobile operations. This is a topic we have 
already heard several of the earlier witnesses in Panel I 
address. I would like to go into a little more detail and point 
out that although I am emphasizing Federal Government 
opportunities, virtually all of these opportunities also apply 
at the State and municipal level, and as we have seen from the 
important examples of policy leadership recently on energy 
efficiency, in the District government here.
    The U.S. Federal Government is the world's single largest 
user of energy and also its largest waster of energy. In 2005 
Federal agencies accounted for about 2 percent of total energy 
use in the country and cost U.S. taxpayers $14-1/2 billion. Of 
this total, about $5 million goes to heat, cool, and power 
about a half million Federal buildings around the country, but 
the majority of this Federal energy use goes for mobility 
purposes. This includes the light and heavy duty fleet 
vehicles, military aircraft and ships, and a huge variety of 
mobile systems that must be deployed and fueled wherever they 
are needed, both for defense purposes but also for disaster 
relief and recovery, for scientific research and for a host of 
other Federal purposes, and it is this mobility energy that now 
needs most of the new attention, in our view.
    Thanks to concerted efforts by Congress and leaders in 
Federal agencies, government as a whole has reduced primary 
energy use by 13 percent in the past 20 years and this has also 
led to a 25 percent decrease in real dollars in the 
government's energy bill. These savings have been dramatic, but 
there is a strong potential for additional energy savings, 
especially in the case, as I mentioned, of this Federal 
mobility energy use, which was actually higher in 2005 than it 
was 10 years previously.
    We already have on the books a number of ambitious targets, 
standards, requirements and programs aimed at reducing Federal 
agency energy use. Most of these focus on conventional Federal 
buildings. These requirements, some of them at least, were put 
in place within the last 2 years and as a result are not yet 
fully implemented. So we still have a challenge in 
accomplishing them fully, and this requires the active 
involvement of Congress in three ways: periodic oversight, 
assurance of adequate funding, and in several cases 
supplementing or strengthening the existing statutes in on the 
books.
    The most important step to reduce Federal energy use is to 
fully implement the policies already in place, and these 
include a wide range of efforts for energy efficiency standards 
in new Federal construction, energy metering and energy savings 
targets for existing buildings, performance contracts for 
third-party financing of energy saving improvements, energy 
efficient government purchasing, and use of life-cycle costing 
for government investment decisions.
    We believe that Congress' first role here is to conduct 
thorough and sustained oversight to help focus the attention of 
government officials on meeting their agency's energy savings 
and cost-effectiveness targets.
    Second, though, Congress has to assure adequate funding for 
Federal energy efficiency improvements that generate and 
sustain long-term savings. This will require billions of 
dollars of investments but it will save even more. In recent 
years, though, the annual appropriations that we have seen for 
energy efficiency in Federal buildings have been only on the 
order of $100- to $300 million a year. This funding needs to be 
increased, but Congress also needs to emphasize the importance 
of Federal agencies using the innovative financing mechanisms 
available to them, the energy savings performance contracts and 
utility energy service contracts that allow agencies to upgrade 
energy efficiency at no initial cost to the government.
    These ESPCs and UESCs, as they are called now, provide--at 
one time provided more than $500 million a year for energy 
savings investments, but after the authorization by Congress 
lapsed temporarily in 2003, we still haven't arrived at the 
same level of investment from these innovative funding sources.
    We have several recommendations in our detailed testimony--
let me just summarize them here--for additional policies that, 
first, would require comprehensive energy and water saving 
evaluations for each Federal agency to be updated periodically.
    Second, require that Federal agencies actually implement 
all of the water-saving and energy-saving measures identified 
in these evaluations, all the measures that have a payback of 
15 years or less; and, in doing so, allow agencies to combine, 
in any way that is suitable, appropriated funds and this third-
party financing that I mentioned.
    Third, make sure that agencies provide for start-up 
commissioning of energy-using systems and for periodic review 
of performance and diagnostics to make sure that these systems 
work as they are planned, and keep on working.
    Fourth, extend the energy efficiency requirements for new 
Federal buildings that were put in place by the Energy Policy 
Act of 2005 so that they also apply to leased Federal 
buildings, and that we add to these requirements provisions for 
smart growth, principles applied to the location and siting of 
Federal facilities to make sure that they are accessible for 
employees and for the public by means other than single 
occupancy automobiles.
    Finally, we need to look beyond the Federal building sector 
alone and establish new savings goals and policies for the 
mobility sector, which accounts for the largest component of 
Federal energy use.
    Let me conclude my comments and I would be happy to answer 
your questions.
    Ms. Norton. Finally, Mr. O'Brien.
    Mr. O'Brien. Thank you, Madam Chair. Very much appreciate 
the opportunity to testify today.
    My name is Christopher O'Brien, I am Vice President for 
Strategy and Government Relations for Sharp Electronics 
Corporation Solar Energy Solutions Group. Sharp is a producer, 
leading producer of solar photovoltaic panels. These are panels 
that produce electricity without pollution directly from 
sunlight. I have a miniature example of the types of panels we 
produce at our factory in Memphis and on the sign board an 
example of one of the more common applications where these 
solar panels are installed directly on Federal buildings or on 
buildings to reduce the energy use in those buildings.
    I would like to focus today on the main point which is that 
solar technologies can play a significant role in reducing 
energy use in Federal buildings. There is ample roof space 
available, and wide deployment of this solar technology will 
have associated benefits, including the reduction in peak 
energy demand and significant economic development or jobs 
growth.
    Let me first emphasize that the single most important 
action that the Federal Government can take to encourage the 
increased use of solar energy across the country would be to 
enact the provisions of H.R. 550, the "Securing America's 
Energy Independence Act." this includes an 8-year extension of 
the solar investment tax credit for homeowners and businesses 
who install solar energy systems. Note that this investment tax 
credit would be applicable to both public sector and private 
sector entities because, in most cases, projects on Federal 
facilities would be developed by third parties who could use 
the tax credit, and it would be a significant catalyst to 
increased solar usage.
    Let me now outline--I am here before the Committee today in 
my role as chairman of the board of the Solar Energy Industries 
Association. There are over 400 companies that are members of 
SEIA, including Sharp, and it is in that role that I appear 
before you today.
    I would like to, first, outline SEIA's recommendations for 
specific policies to encourage the increased deployment of 
solar energy on Federal facilities. SEIA recommends the 
creation of a new strategic initiative, the solar technology 
utilization and deployment program. This program would create a 
framework for Federal, State and local governments that would 
facilitate the installation of solar energy systems, including 
solar thermal, and would expedite the purchase of solar-
generated electricity by third-party financing. The target 
would be to achieve 3 gigawatts of mandated solar capacity at 
Federal facilities by 2012 and would be complemented by a 
voluntary commitment from State and local governments.
    Federal commitments would be established in 2007 and 2008. 
Agency requirements to deploy solar would be calibrated to 
their energy consumption so the more the agency spends annually 
on energy, the higher their target for solar deployment would 
be. There are several reasons why the Federal Government should 
take the lead in launching this solar program. The Federal 
Government is the largest single user of energy. The program 
would have a significant stimulus to jobs growth. I can speak 
directly to this from our experience at Sharp where we have 
over 200 jobs created in the last 3 years and many hundred more 
jobs among the businesses that we serve as customers.
    Third, the Federal Government is uniquely stable 
financially in its ability to back long-term commitments to 
help support the financing for these projects. Finally, this 
program would displace roughly 3 million metric tons of CO2 
emissions as a result of full implementation.
    In order to launch and implement the program the following 
legislative changes would be required. First, the program would 
require legislation to provide GSA with an exemption from the 
current 10-year restriction. This would be applicable for any 
utility service contract that supplied energy from new 
renewable resources. This is necessary because most private 
sector solar installations will pay out over a period of 10 to 
30 years, so the utility service contract must cover that 
duration.
    Second, the legislation should authorize Federal agencies 
to offer leases of underutilized real property, both rooftops 
and underutilized land areas, to solar developers.
    Third would be to enact legislative language setting 
required targets for increased use of solar power in Federal 
facilities. This kind of top-down guidance would provide much--
by agency heads to the facility staff would greatly increase 
the pace of solar deployment.
    Finally, Congress should demonstrate its leadership and 
commitment by launching an initiative to require the Architect 
of the Capitol to issue an RFP for deployment to 5 megawatts on 
congressionally controlled properties and structures. This 
would be an immediate and a highly visible deployment and would 
demonstrate the congressional leadership is sincere in its 
commitment to a carbon-smart future.
    Thank you for the opportunity to comment today. I look 
forward to addressing any questions that you may have.
    Thank you very much.
    Ms. Norton. I must say that this testimony is just chock 
full of ideas, I think many of them are very practical. I don't 
know where to begin, especially since we intend to--my own 
concern in a list of priorities would be to look at what is 
least costly and most immediate. Got to begin.
    The Chairman, as virtually the first piece of legislation 
out of here, has already got a photovoltaic proposal approved 
for the Department of Energy. That will, I think, send a 
message and also prove something about the use of energy. We 
all know the Federal Government. It would bring down the cost, 
since we are the biggest user of energy in the country.
    Let me begin by asking just a few questions, given my 
interest in submitting proposals to the Chairman for 
legislation that could be immediately produced, recognizing 
that we have a huge deficit that everybody is going to be 
controlled by.
    Mr. Stewart, you say that the goal of the AIA is that all 
new buildings, I guess that means public and private, should 
meet an immediate reduction of 50 percent in fossil fuels--
fossil fuel-generated energy compared to the 2003 baseline. 
Immediate, by when? And all new buildings, how? That is design 
or some kind of performance or building system standards. When 
you say immediately, compared to 2003, that would seem to be 
now. Can they do it? Can they do that kind of huge reduction?
    Mr. Stewart. Yes, ma'am. We believe it is possible to make 
those kinds of cuts immediately. If you begin to look at an 
integrated----
    Ms. Norton. You mean buildings already up, or new?
    Mr. Stewart. New and major renovations. So that we are 
talking about projects that we will be looking at in the entire 
assemblage. So you start to talk about window assemblies and 
their insulating value, the insulation placed in the walls and 
roofs, the equipment that goes in to heat, cool, ventilate the 
building; lighting systems, utilizing day lighting more 
extensively in control systems so that you don't need to light 
spaces that have good daylight. And then you start to deal with 
just those kinds of systems before you get into more advanced 
technologies.
    We believe it is possible to achieve these kinds of 50 
percent cuts today. But a lot of this has to do with looking at 
the separation that exists today between capital costs and 
operations and maintenance budgets. Oftentimes what we see is 
decision makers chasing first cost, to lower the first cost, 
and ignoring the implications of a building's 75-year life.
    Ms. Norton. That is the great problem in this country, from 
Wall Street to building design. Everybody looks at what the 
returns are. Wall Street looks at returns every virtual month, 
sometimes we think every minute, and we end up making hugely 
erroneous and costly decisions that way. The first thing we are 
going to hear is it costs too much money, which is related to 
something else you say on page 11 of your testimony, that you 
yourself, the AIA, is apparently going to analyze a study of 
the benefits. I take it you mean economic benefits of energy 
efficient billing.
    I would like to know, first, when that study will be 
concluded. And one of the things we have had the hardest time 
finding an authoritative study of, but what we think would be 
most convincing is not the 75-year life of a building. Too many 
people will say I won't be here for 75 years, and I have got to 
show that I am building efficiently and with low cost now.
    Is your study designed to show what the benefits, the cost 
benefits are by years, let's say 5 years, 10 years, 50 years, 
100 years?
    Mr. Stewart. The study is designed to both address energy 
savings as well as cost savings. It is underway right now. We 
expect to have it done in the next couple of months and we will 
be more than happy to share it with you. One of the things that 
has been interesting in the data that has emerged over the last 
year is that a lot of the first cost assumptions are proving to 
be erroneous as the market tends to mature.
    Turner Construction issued a report at the end of 2006 that 
indicated their experience has been that the additional costs 
for more sustainable design is roughly .8 percent of the 
initial construction budget. Davis Langdon, which is an 
international cost estimating firm, has told us that it is 
statistically insignificant, trying to find those additional 
costs. So I think the market is changing rapidly over time and 
what people perceive as first cost impediments are really 
starting to go away.
    Ms. Norton. Somebody has to do an economic model that shows 
us how these shifting costs should play into how they figure 
out whether savings will be, again, because of the short-term 
vision of not only people that build buildings but, frankly, 
people who do everything in this country.
    Mr. Harris, much of what you suggest, what I am really 
intrigued by is the page where you indicate the first thing to 
do is essentially to meet the standards that already are in 
existence. You suggest there is not a lot of enforcement going 
on, and that if there were, that very substantial reductions--I 
don't use enforcement in the policing sense--but nobody is 
watching, nobody is monitoring, or at least not enough, and 
some of them are just very intriguing because you cite already 
existing executive orders.
    For example, one that intrigues me I have to ask you about, 
I guess it is page 3, you say each agency is to reduce energy 
use intensity by 3 percent per annum, or 30 percent by 2015. 
That really sounds good. You want them to meet earlier target, 
culminating in 30 percent between agencies--mostly met--I'm 
sorry--earlier targets between 1985 and 2005. But you say that 
total energy use reductions have been smaller as energy 
intensive facilities are excluded from these targets and as the 
targets are interpreted as applying to site energy. Are you 
talking about Federal policy now? Who was excluded?
    Mr. Harris. There are some detailed guidelines that the 
Federal energy management program at the Department of Energy 
has issued, and there are now some requirements to look at 
cost-effective measures in an energy intensive facility, 
industrial-type facilities, defense maintenance facilities, a 
whole range of laboratories and other things that are not what 
we think of as a classic office building or a residence, for 
example, for a military family.
    So the difference is that there are no quantitative targets 
of the same sort that we have seen for the so-called standard 
Federal buildings. There has been substantial progress made, 
but the trail is getting steeper. The rules that we are facing 
ahead are 3 percent per year, and that will pose a bigger 
challenge to Federal agencies. That is why we argue that it is 
important for Congress to maintain its oversight function and 
to make sure that there is adequate funding of these programs 
and adequate training and support and technical assistance that 
comes from the Federal energy management program.
    Ms. Norton. Mr. Chairman, are you going to have to go vote 
again? I don't have to vote in Committee. I guess I should 
watch out about seeking a larger vote from the Committee of the 
Whole.
    I should ask you, Mr. Chairman, if you have any questions 
before you run again.
    Mr. Oberstar. Thank you very much. You are doing very well 
with the questions. Many of those are ones I wanted to propound 
myself but I will have to leave in a few minutes to make this. 
These are protest votes that we are having to do on the House 
floor, and I understand that, having been in the minority, we 
did some of the same things.
    Mr. Stewart, the Institute of Architects, for whom I have 
great admiration, has, throughout the testimony you have 
presented, set goals for reduction of fossil fuel consumption 
through building design and through life-cycle design and 
construction facilities. Which raises the issue that the 
continued objection that we hear to conservation, to reduction 
of greenhouse gases through changes in technology is that these 
are not obtainable, except at great economic cost and loss to 
the economy. And wherever there is resistance, these are the 
objections that are raised. We can't meet these goals.
    You say IAI approved an official position stating all new 
buildings and major renovation of existing buildings be 
designed to meet an immediate 50 percent reduction in fossil 
fuel-generated energy. If you had to retire that, amortize that 
cost to the first year, that would be a huge--a steep hill to 
climb. But if you amortize it over 20 years or 30 years or 
longer, the life-cycle of that building, then it becomes 
imminently achievable, does it not. Or am I mistaken? Did I 
miss the beat somewhere?
    Mr. Stewart. No, sir, you are spot on. We have been working 
with the Congress. In the 2005 energy bill, as you recall, 
there was a tax credit provision up to $1.80 a square foot for 
energy reductions, and Congresswoman Schwartz has authored a 
bill to extend that credit to 2012 and enhance it to $2.25 a 
square foot. We are also in a number of conversations with the 
financial markets to recognize the value of increased energy 
efficiency and more sustainably designed projects in an effort 
to get discounted financial rates. The insurance markets are 
recognizing the increased value of sustainably designed 
buildings and are offering discounts in their insurance rates 
for buildings that have been designed in this manner.
    So I think the economy, in one sense, is starting to catch 
up with recognition of the value that these kinds of projects 
bring to the table.
    Mr. Oberstar. That is a very significant point; that 
insurance rates are lower for--at least adjusted for energy 
efficiency. That is the market response, is it not?
    Mr. Stewart. That is correct.
    Mr. Oberstar. Mr. O'Brien, you may have heard me say on one 
or more occasion that in my second term in Congress I had the 
good fortune to preside over a hearing of the Subcommittee on 
Public Buildings and Grounds, as it was simply called then. Now 
we have added other responsibilities to it. Which Ms. Norton 
chairs.
    The Sheet Metal Workers Union presented testimony during 
the course of our hearings on public building energy 
efficiency, presented results of a 2-volume study that they 
commissioned on conversion of Federal civilian office space to 
photovoltaic cells, the result of which was it would create 
135,000 jobs in the Sheet Metal Workers Union-- which is 
equivalent to, I think, their total membership at the time--and 
it would save the government enormous amounts of money and also 
contribute less to atmospheric carbon emissions.
    While I thought this was a splendid idea, they suggested 
$175 million a year for the government to buy and install, the 
private sector to build facilities. At the time, the cost of 
energy from photovoltaic cells was $1.75 a kilowatt hour. The 
same kilowatt hour for the private sector was $0.07 a kilowatt 
hour.
    So I introduced the bill. Senator Humphrey called me up, 
saw the news release, said, "You send me that bill, we will 
introduce it over here." and he moved it to the Senate, we 
moved it through the House, President Carter signed it into 
law. He provided the $75 million for the first of a 3-year 
program designed to drop the cost down of energy from 
photovoltaics from $1.75 to the range of 15 to 20 cents over a 
period of 20 years.
    President Carter put the money in his last budget. Then he 
lost the next election, and President Reagan just dissolved the 
entire alternative energy budget of $960 million.
    So time passes. I have become the Chairman of the 
Committee. I say this is still a great idea to do. We have 
jurisdiction over 367 million square feet of Federal civilian 
office space in this Committee. The energy cost for those 
buildings is 5 billion 800 million dollars. Why wouldn't you do 
something just to save money, if for no other reason, to save 
money to taxpayers that would use alternative forms of energy?
    So we moved the bill through Ms. Norton's Subcommittee to_I 
call it_"future fitting" the Department of Energy building, 
which was built with the south wall blank, no window or doors 
to accommodate a solar application. We moved this through the 
Subcommittee, Full Committee, through the House. Virtually 
unanimous vote. It is pending in, as we affectionately call 
them, the other body, and we hope that they will do something 
soon. I know there is a willingness to do it on the part of the 
chair, Ms. Boxer.
    Well, use that as a template, show that it can be done, but 
at the same time move ahead with legislation to equip all 
Federal buildings under jurisdiction of this Committee with 
solar power. Just makes imminent good sense. That is a 
statement you can respond to.
    Mr. O'Brien. I fully agree with you. I think that the types 
of signature projects such as the one that you outline in your 
legislation are to be commended and I think do set a great 
example and a highly visible example of what can be done. I 
think the resource that you talked about is absolutely spot on; 
there is an enormous resource of rooftop space, of Federal 
lands that could be used and, in many cases, at a considerable 
cost advantage for the deployment of solar.
    So some of the changes that we have outlined in our 
recommendations are really just unlocking those resources. And 
that is really focused on two areas. One is making some of that 
space available for developers to come and develop projects. We 
are finding an increasing model in the private sector of what 
we call a PPA model, where a developer will come and build and 
develop a solar project on someone else's rooftop, will give 
them a long-term energy contract and say we will provide you 
with energy at a 10 percent discount, 5 percent discount, and 
over a period of 15 or 20 years, and so to make--and that could 
work in the Federal buildings as well.
    It requires a couple of things. One, it requires access to 
the rooftops and, second, it requires the ability of the 
building host, in this case the Federal facility owner, to 
enter into a long-term contract like that to buy the energy 
into that long-term contract.
    Mr. Oberstar. How long a period of time is, in your 
judgment, the current payback for investment in solar energy? 
By the way, the cost has gone down from $1.75 to roughly 25 
cents a kilowatt hour just without significant stimulus.
    Mr. O'Brien. A lot of that is because of developments, and 
you mentioned the curtailment of support here in the U.S. That 
did not stop some other countries from moving ahead. So where 
the solar industry grew very quickly and solar PB industry grew 
very quickly was in Japan and Germany most recently. The irony 
is Germany has the amount of sunshine the equivalent of Alaska, 
but they are now the largest market of solar PD in the world, 
largely because of a strong political commitment that has been 
taken to ensure that renewables in general and solar in 
particular are a significant part of the energy mix by 2020.
    I think in terms of the payback, it ranges. It may be up to 
in the area of 10 years or more for residential application. 
Many commercial applications would demand a paypack 
considerably shorter that. That is usually possible with some 
of the State-level incentives that are in place. It will be 
greatly facilitated by a Federal tax credit such as is included 
in H.R. 550. But at the same time, what is happening is there 
is a development of this PPA model where in many cases 
commercial customers are able to sign up today and pay less 
than their peak cost of energy right from the get-go.
    Mr. Oberstar. I have to stop you there, but Ms. Norton will 
have other questions. I will vote and return. I want you all to 
be thinking about specific initiatives that we can craft into 
legislative language as we fashion our part of the energy and 
conservation package that House leadership is planning to bring 
to the floor in July.
    Ms. Norton. Thank you, Mr. Chairman.
    Just completing the Chairman's round of questions on solar, 
I am informed a Federal Archives building with solar panels 
inlaid into the building was just opened within the last few 
weeks in Waltham, Massachusetts. This is a Federal building. In 
fact, the GSA has been pressing ahead where the funds are 
available.
    Would you explain to me the difference in the panels--and 
you can see the way the temperature is recorded, that it was 
working; of course, some of us uneducated on solar energy would 
wonder what the difference was in sun intensity and the 
efficiency of solar energy. Waltham, Massachusetts would not 
come to mind if that is what one was thinking about. This was 
an archives building. I don't know if it is a building with 
lots of people in it or what, but I am wondering about the 
universality or not of solar energy in public buildings.
    Mr. O'Brien. It is a good question. I think the quick 
answer is that there is--obviously among the broad portfolio of 
Federal facilities, there are going to be some places where the 
economics work well in the short term and others that are going 
to work better as the cost of solar technology comes down.
    I think that what is important to recognize is that the 
economics depend not just on the amount of sunshine available 
but also on the value of the energy that you are displacing. So 
in many cases Waltham would be a good example where the 
electric rates are comparatively higher than they might be in 
New Mexico, for example. So even though it has comparatively 
less sunshine, it has comparatively more valuable electricity 
being displaced. And the solar industry has grown very 
sophisticated in terms of modeling what the economics would be 
for any particular site so it requires--a site survey would be 
pretty straightforward to determine what the payback would be 
and what the economics would be for the different Federal 
facilities.
    The overall message, though, is that the technology is 
quite universal in application. As I mentioned, Germany is the 
largest market today, which is probably an outlyer in terms of 
insulation.
    Ms. Norton. Mr. Prindle, in your testimony you don't give a 
lot of currency to one of the new kind of progressive ideas, 
not necessarily widely embraced yet, but the notion of a carbon 
tax. And you indicated it would not stimulate efficiency. I 
would like to have you elaborate on that. In other words, you 
don't think that causing the price to go up matters much.
    Mr. Prindle. As we have observed the actual behavior of 
energy markets in recent decades, what we find is that price 
elasticity effects, as economists refer to them, are much 
weaker than they were once thought.
    Ms. Norton. Where, Mr. Prindle?
    Mr. Prindle. They are weaker in motor fuel markets.
    Ms. Norton. Are we talking about the United States? If you 
are talking about the United States, I don't think anybody has 
ever done anything in the United States, or done very much, to 
make energy more expensive. In fact, all of the policy, all of 
the rhetoric is designed to make the American people believe 
they deserve cheap energy and, yes, so it is at $3 a gallon 
now, and even more if you happen to live in my district. You 
ask a comparable European resident what she or he would think 
of a comparable $3 a gallon gas. I wonder if we have 
experimented with it. I am not advocating it, but I can't 
believe that we would take our own policy, what comparable 
countries have felt they must do while we scream and shout 
about the Middle East and about the cost of energy, and even in 
the 1970s when we had the long gas lines, went right back, 
because in fact the experience is quite the opposite, not that 
we have seen high prices, but on the contrary, that the prices 
tend to go down and therefore reassuring the American public, 
see, you deserve this. Everybody else in the world doesn't. Let 
them raise the cost of energy but we deserve, and we can prove 
that it doesn't work because, see, you pay high prices. When--
over what sustained period have the American people paid high 
prices for energy?
    Mr. Prindle. Well, we have seen increases, particularly in 
gasoline prices, in the last 3 to 4 years. And what we have 
also seen, this has been measured by researchers at the 
University of California Davis. I recite it in my testimony. 
What they found is that the price elasticity effect, the 
response of customer behavior to changes in prices is about six 
times weaker than it was measured in the 1970s. And so we have 
a fundamental problem if we expect high prices alone to 
motivate enough change in investment, enough change in 
behavior. I am not saying prices don't work, I am not saying we 
should ignore energy prices. But if we want to meet the energy 
security challenge we have in this country, and especially the 
climate challenge, prices alone will not be sufficient.
    Ms. Norton. If you are saying prices alone, I am sure you 
are right. I am sure you are right. I don't even know if prices 
will do it. I just don't believe that this is a fair--that we 
have had a fair test of that. And what worries me most is that 
Americans think it is unfair, it is unfair for them to be 
tested in this way. We have reinforced the notion that they 
deserve high energy and thus that we are having to turn around 
a whole culture and mentality on greening.
    Fortunately, as we begin and the facts get out there, 
people are beginning therefore to wonder. I mean, one of the 
reasons I think why Detroit hasn't had any real reason to 
change is the Congress hasn't wanted to push beyond where the 
American people are. Nobody has had the guts to do that. And 
Detroit says well, shucks, why should we change? We are here 
where energy doesn't matter, the cost of energy doesn't matter. 
And now they are saying that we're behind the 8 ball, with not 
even a decent number of hybrids to put on the market. It just 
goes to show you what the Europeans did initially, frankly only 
with price. And then, when price was up, that encouraged the 
industry to go to different, more efficient automobiles and 
things began to show results there that we have not had.
    I am not disputing the initial notion and I think it is a 
very important notion to put forward because I do think we are 
a magic bullet society. And that has come forward as the latest 
magic bullet. I must say I am very intrigued, Mr. Harris, on 
your notion of incentives. Boy, am I intrigued about that. I 
believe in win-wins. I am intrigued by the whole set of things 
that people can do because I believe the way to break Americans 
into the energy conservation business is with old-fashioned 
conservation, old-fashioned things, for example, yeah, turning 
the lights off and finding a way so that it happens. I think it 
happens without giving much responsibility to somebody. When 
nobody has the responsibility, the building superintendent, for 
example, and doesn't get rewarded for it, why should he do it?
    Now we give bonuses here in the Federal Government to 
people for doing good work. I have never heard of a bonus given 
to a working stiff who is a building superintendent for making 
sure that all the things you say the executive orders already 
say to do. The notion of incentives, I would like you to 
consider the Federal workforce, 2 million people, to elaborate 
on--and if not bonuses, and I am not suggesting money and 
bonuses are the only way--but to elaborate on incentives.
    Mr. Harris. I certainly agree with a lot of what you are 
saying. And from my experience over quite a few years working 
with Federal employees and a number of agencies, it is true 
that not everybody focuses on energy efficiency as much as I 
might like them to do. But there are a lot of dedicated people 
out there for whom energy efficiency is something they care 
about and is something they try to do. They are not always at a 
level of the agency where they can make the decisions that 
matter and so----
    Ms. Norton. Where are they?
    Mr. Harris. Down at the working level, managing a facility. 
They may be the staff person responsible.
    Ms. Norton. Managing the facility. Isn't that just the kind 
of person who is at the level where he can have an effect?
    Mr. Harris. There is a chain of command above that person, 
above him or her, and often you have capital investments that 
must be made at the top levels of an agency, you have budget 
constraints. We need Federal personnel from top to bottom 
recognizing the importance of these goals and encouraged to 
make decisions that are based on, as we were talking earlier, 
life-cycle costing, looking at the long term, and looking at 
what the savings will be, not just what the initial cost will 
be.
    I think, as you said, there is no single silver bullet to 
resolve this, but I think a variety of mechanisms can help. 
One, as I mentioned before, is congressional oversight, not 
just once but continually to pay attention to what you the 
agencies are doing.
    Let me tell you a small anecdote, if I might, because you 
mentioned European experience. There is a European requirement 
now that is just rolling out, being implemented, that calls for 
a certification of the performance of large buildings every 
year. This also requires that when a building is sold, when it 
changes hands through a lease when it is first built, that 
there has to be a disclosure of how much energy that building 
uses.
    There is a special requirement for public buildings and 
that is that all public buildings must post their energy 
performance for the public to see. In Denmark they have gone 
even further. In Denmark every building, I believe, over 
100,000 kilowatt hours, has a special recording meter that 
takes the energy, electricity use from that building and puts 
it on the Web so that anybody can see it in real time. I don't 
speak very good Danish but I have gone to that Web site. An I 
heard a wonderful story about a minister who one Friday evening 
went to the Web site for his building and saw that the building 
systems had not been shut down for the weekend as they should 
have been. He got on the phone, talked to the energy manager, 
and he read him the riot act. He said, Do you know that this 
information is out there for anybody in the public to see; and 
by the time I get up tomorrow morning I better see something 
different on our agency's Web site.
    Now, I don't know whether that story is true or not, but 
the point is it is being circulated as it if is something that 
could happen. So transparency, openness, and feedback on what 
buildings are actually doing can be a very powerful force at 
motivating people for being recognized for the good work they 
are doing; and if they slack off, to recognize they have got to 
fix it. So there is a different incentive that is important.
    Ms. Norton. I recognize that we are further along in 
capital investment in some of these devices than in others. You 
say some will require capital investment. For the immediate 
term, I am not looking at those that require capital 
investment. GSA does a lot of automatic turn-off of lights, 
those things that turn off and turn on when you come into the 
ladies room and so forth, or the kitchen part.
    I believe that if you begin people where they are, you can 
take people where they want to go. And when people hear us 
talking about energy now, they say, for God's sake, they just 
know they are so far from either being able to do what they 
think is affordable or afford the tax that would be necessary 
to do it. That basically the only way we have gotten their 
attention is through what Al Gore and others have done with 
warming and the fear that has now emerged.
    Mr. Prindle and Mr. Harris suggest an interesting issue. I 
certainly would love to get ahold of that and wonder how they 
do it: where essentially both of you in one way or another want 
the Federal Government to get tougher on codes, or stricter 
codes. But, of course, in our system, that is usually 
considered a local issue. How do you see the Federal Government 
able to make the demand and make it stick?
    Mr. Prindle. Madam Chair, it is ultimately a local issue 
and, as you know, the District government has recently 
instituted some very strong new building codes for private 
buildings.
    Ms. Norton. So you would expect a local jurisdiction. Are 
you saying the local jurisdiction, or are you saying the 
Federal Government can have an effect?
    Mr. Prindle. The Federal Government can have a very strong 
effect by working at the national level, with the national 
organizations that develop what we call model codes. Because 
the standards that the District implemented weren't invented 
overnight, they were developed by national organizations.
    Ms. Norton. Or by the District.
    Mr. Prindle. The District deserves credit for taking the 
leadership to implement it, but these are very technical 
documents and so there are national processes and national 
organizations that develop the models, and the Federal 
Government could be a lot more aggressive in pushing for those 
50 percent better performance levels in the national model 
codes and then at least the State and local governments have a 
model that they can draw on. They can feel more confident in 
adopting one of those models if it has been developed and 
endorsed by a national organization.
    Mr. Harris. Madam Chair, if I could add to that, I 
certainly agree with everything that Mr. Prindle has said. The 
Alliance to Save Energy, working with a number of other 
organizations, many of which you see here at the table, has 
actually proposed some legislation to do exactly that, to 
establish clear benchmarks for these national model codes to 
progress over time towards the kinds of goals that Mr. Stewart 
was talking about earlier.
    There is a second role that I think is very important and 
we have been talking about it in the last few minutes, and that 
is that the Federal Government and, for that matter, State 
government agencies, local agencies, school districts can be 
the leaders, can say that their buildings are going to not only 
meet these new codes but go beyond them.
    We have right now in Federal law a requirement that Federal 
buildings should be 50 percent more energy efficient than the 
current code. And as Mr. Stewart said earlier, AIA is proposing 
that these standards should be even higher for Federal 
buildings in the future, and our organization strongly endorses 
that.
    I also point out--and Mr. Stewart may want to comment on 
this--that the vision 2030 goals that the AIA has outlined had 
been endorsed by the U.S. Conference of Mayors, by hundreds of 
mayors around the country. It is those same mayors whose 
building officials and building departments have responsibility 
for code adoption and for code endorsement in many cases, and 
they are also the building officials who go to the 
organizations that Mr. Prindle referred to and establish the 
model codes.
    I am sorry to say that many times we see a very 
conservative approach from these building officials, and we 
would like to see the opposite; we would like to see them 
stepping out and providing leadership. And I think the mayors 
can be encouraged to talk to their building officials and say, 
when you go to this next code conference we want you to speak 
up for making building energy codes stronger than they have 
been. I think there is a lot to do at all levels of government.
    Ms. Norton. I would like to ask all four of you for some 
friendly advice. You saw me ask in the beginning about--or 
bemoan the absence of some universally accepted model for 
payback, life-cycle costing, or costing even in the nearer 
term. And I am wondering who might the Federal Government 
commission to do something like that. When we have had 
comparable things, although I must say this may be different, 
we have gone to somebody like the National Academy of Sciences 
or somebody like that.
    To go to any of you is to go to people who will be seen 
with a vested interest, and I hope you do have a vested 
interest. The point is to give everybody else a vested interest 
as well. The fact that we can't put our hands on something 
definitive has not helped us. Obviously, if you sit down with 
experts, you can kind of figure out these models and what they 
mean; I mean, yes, from a technical and expert point of view 
that says this is what it means, America. Who in the world do 
you think could definitively do that and have it accepted as an 
objective source by the professions, by science, by the 
government and by the public?
    Mr. Prindle. I will take a quick stab at that and my 
colleagues, I am sure, can add to that. There are some 
established available for life-cycle costing. The Department of 
Energy, for example, has life-cycle costing methods that it 
uses for setting appliance standards, in setting Federal 
building standards. The broader challenge, I think, is to 
translate those--you know, those are sort of economic analysis 
methods. Those have to be translated into the marketplace. For 
example, in the residential mortgage market, a mortgage should 
be underwritten based on the total of principal, interest, 
taxes, insurance and energy costs. If mortgage underwriters 
took energy costs into account when they underwrote a 30-year 
mortgage, that would change behavior in the mortgage market.
    And so that the economic analysis tools are there. It is 
creating policies that gets them used in the market in real 
ways. Because even though the tools are there, what we see is 
market barriers and other forces continue to make those short-
term driven decisions; you know, lowest first cost, and I am 
sure my colleagues would have additional thoughts on that.
    Mr. Stewart. As you noted earlier in some of your comments, 
that kind of short quarterly, annual time frame where people 
are looking for payback is really very, very shortsighted when 
we know building lives are so extended. Some of the comments 
Mr. Harris made about exposing the real costs to tenants and 
the people who occupy buildings is important.
    My firm, Gensler, did a survey of building owners and 
managers and tenants from our London office, and what we found 
there was that tenants were becoming increasingly disturbed at 
the fact that they were paying for inefficiently designed 
buildings. And so as the marketplace begins to recognize that 
they are assuming real-time costs now for decisions that were 
made long ago, I think we will begin to see that change.
    Places where the studies can be done are like, NIBS, 
National Institute of Building Sciences, in places like that. 
We are working with Mr. Harris in the large Berkeley lab on 
some proposals to look at ways where we can enhance 
sustainability as well as examine the payback. So I know you 
have been working a lot with that, Jeffrey; you may want to 
comment on that.
    Mr. Harris. Sure, thank you. I will. I think there is a 
whole lot to do in this field and I think that is probably a 
topic for a separate hearing which we would be delighted to 
attend. Suffice to say, I think going back to what Mr. Prindle 
said, there are lots of methods out there for doing the 
economic calculations. I think it is a question of how to 
deliver the message as both of you have, I think quite rightly, 
said.
    Let me give you one example. If you buy a refrigerator now, 
go into a Circuit City or wherever you want to shop for 
appliances, you will see a yellow label that is the FTC energy 
guide label. And if you squint carefully and take out your 
glasses you can find a dollar amount. The problem is most 
people can't see it. And research has shown--research from Mr. 
Prindle's organization--that a significant number of people who 
see that number, $75, think that it is the savings number and 
not the annual energy cost, which in fact it is.
    Ms. Norton. So government, of course, can require that it 
be seeable and knowable from reading it.
    Mr. Harris. That is exactly right. And right now the FTC is 
in the middle of a proceeding to try to redo that label to make 
it much clearer and easier to understand, so that is a great 
example of how delivering information is really key.
    Let me suggest another way in which delivering information 
is going to matter. When Congress approves the budget for 
constructing a new Federal building, I believe, if you look at 
one thing and that is the price tag for that building, you are 
not looking at the price tag for the building, you are looking 
at part of the price tag for the building, as Mr. Prindle, Mr. 
Stewart and Mr. O'Brien of said.
    What we should find is ways to get Congress to look at the 
total price, the true cost of building and owning and operating 
that building, including its energy costs, because that 
building is going to be there for half a century, maybe longer.
    Ms. Norton. You think we can do that even for leased 
buildings? Because we are the ones--they lease them, but they 
need us in order to have a building in the first place.
    Mr. Harris. And I think leases, because they have already 
spread out the costs in the lease payments, are one of the 
better ways to get at the question of not only the cost of 
occupying the building but of paying for the energy bill for 
the building.
    Ms. Norton. One of the reasons that strikes me is because 
we lease many buildings for long periods of time, that we do 
not then own at the end. When you lease--energy savings for 
having leased a building all that period.
    Mr. Harris. I agree with you, Madam Chair. One of the 
recommendations we make in our written testimony is that the 
requirements for energy efficiency in a building that the 
Federal Government builds and pays for up front should also 
apply to any building that is built by a private developer for 
the purpose of leasing to the Federal Government.
    Ms. Norton. What about buildings we already lease and we 
for the most part_let's say in the District and the region_we 
will be leasing buildings that are already up, sometimes we 
have been leasing for some time. Do you think that we could 
have same or similar effect on those buildings?
    Mr. Harris. I honestly do. And I think the way to do that 
is over time as these leases are up for renewal, every 5 years 
or whatever it is, there should be a requirement that the lease 
renewal include a renovation cycle, a retrofitting of the 
building for all measures that are cost-effective over some 
period of time, perhaps the term of the next lease.
    Now once you have a building in place, as Mr. Stewart said, 
you are limited in what you can do with it. But there are still 
major renovation cycles that occur in buildings, and that is 
the opportunity certainly to renew the lighting system, 
sometimes to replace windows, and oftentimes to renew or redo 
the heating and cooling system and controls. So there are 
opportunities even in leased space. And we need to use the 
market power, especially in the Federal Government, especially 
here in the District to make energy efficiency happen.
    Ms. Norton. So much power so unused makes me cry. In your 
own testimony you say we could drive the cost of energy down 
throughout the United States.
    I want to thank you very much for testimony that has been 
enormously enlightening, and for suggesting ways that we can 
immediately approach these very important issues. And I am 
going to turn the meeting over to the next round. The next 
round is aviation and----
    Oh, please be seated, Mr. Costello. And here the Chairman 
is coming back. We will have some questions on remaining 
questions for you.
    Mr. Costello. [presiding.] Gentlemen, we have a number of 
questions left, and we will submit them in writing to you and 
ask you to reply.
    Mr. Oberstar. Will the Chair yield for just a moment? I 
will announce that an agreement has been reached on the House 
floor that resolves the matter that has been the subject of 
repeated quorum calls, motions to rise, and attempts to disrupt 
the proceedings on the floor. The issue has been resolved. We 
will be able to proceed in an orderly fashion and hear 
testimony from this panel and the succeeding witnesses without 
disruption.
    Mr. Costello will be in the chair, and I will return, but 
not necessarily for this panel, because I have another meeting 
I have to attend to.
    Mr. Costello. The Chair thanks the distinguished Chairman 
of the Full Committee. And I have two questions that I would 
like to pose to the panel, and then the rest of the questions 
will be submitted and we will ask you to submit your answers in 
writing.
    All of us recognize that the Federal Government has come a 
long way in the past two decades regarding energy consumption, 
and the question is, where would you put your efforts in the 
next decade; research and development, alternative sources of 
of energy, consumption restrictions, adhering to stricter 
standards or efficiency investments?
    Mr. Stewart, if you would like to go first.
    Mr. Stewart. I think I would look at splitting my efforts 
between research and development. There is a lot of technology 
out there on the edge that could and should be brought to 
market that I think we will see great benefit from.
    I would think the other opportunity would be to advance the 
regulations and incentives because the opportunities to use the 
carrots and the sticks of the marketplace and the regulations 
to get people to actually implement and adhere to the 
standards, I think is one of the bigger challenges we face.
    As we have talked about this afternoon, there is a lot that 
can be done, but yet the market fails to respond. So if we can 
find ways to bring them around in their understanding of the 
benefits, not just in terms of the environmental benefits but 
the cost benefits, I think we would see a huge shift in the 
marketplace.
    Mr. Costello. Chair thanks the gentleman.
    Mr. Prindle.
    Mr. Prindle. Thank you.
    I would say that we need a balanced portfolio of energy 
efficiency policies. The beginning of the pipeline, if you 
will, for energy efficiency infrastructure is research and 
development. Energy efficiency research and development has 
been reduced by more than 25 percent during the current 
administration's tenure. After inflation, it is even worse. And 
that is not just cutting a few dollars; that is actually 
beginning to shut down whole sections of research institutions. 
That is infrastructure. That is infrastructure that we need to 
build the clean energy future. Congress needs to start by 
rebuilding the R&D and deployment programs at the Department of 
Energy and the other agencies, just to get us back on track.
    We also need to expand the labeling and voluntary programs 
we have through Energy Star. Those are working very well. They 
are underfunded. But we are also going to need regulations. Our 
markets will be where the problem gets solved, but markets work 
best when they have targets to hit. And so we need to set 
standards for individual appliances. We have been doing a lot 
of that in the last few years, 15 products in the Energy Policy 
Act of 2005. We need standards for buildings, as we have been 
discussing, building codes. And we are also seeing at the State 
level, the States are setting energy efficiency targets on the 
macrolevel for entire utilities, for example. And for renewable 
energy.
    And when you set targets for energy efficiency and you set 
targets for renewable energy, we are seeing some States that 
can actually see their carbon emissions beginning to go down in 
the next 15 years because they are beginning to do that. And so 
that is going to take some judicious regulation as well. It is 
really a spectrum. It starts with R&D and goes through 
regulation.
    Mr. Costello. The Chair thanks the gentleman. The agreement 
that Chairman Oberstar just announced lasted about 2 minutes 
and we now have another vote on the floor.
    I have 12 minutes to get over, but let me--I am going to 
ask a final question, Mr. Harris and Mr. O'Brien, and then we 
are going to dismiss this panel and ask the third panel to come 
forward. We will go over and vote--there are two votes--and 
then come immediately right back. And if the third panel can be 
at the witness table, we will proceed immediately.
    Mr. Harris, what are the biggest obstacles you view to a 
national energy policy?
    Mr. Harris. I don't know that I can do that justice in a 
minute or so, but let me take a stab at it.
    I certainly think that we have a lot of education to do to 
help people understand better how energy is used and where the 
opportunities are in their daily lives and the way they run 
their businesses and, in the case of policymakers and elected 
officials, in the areas under their jurisdiction for saving 
energy.
    So I think education has got to be a centerpiece of what we 
do, and overcoming what I don't think is really reluctance--I 
think people are all busy, we have day jobs. I am fortunate 
that my day job is energy efficiency. But I think that we can 
nonetheless start with our elementary schools, and the Alliance 
to Save Energy is working with a number of school districts to 
do that and carrying it on throughout the school system and 
beyond. If there were a single thing that I would like to see 
happening that is not getting enough attention--and I agree 
with the list that my distinguished colleagues have just given 
you--it has to do with educating the general public to be 
literate in energy and understand where energy-saving 
opportunities lie.
    I think there is a flip side of that, and that is helping 
the people whose job is not only building buildings and 
operating them, but designing and installing industrial 
systems, running our utility companies to understand the 
opportunities for energy efficiency. We have, Mr. Chairman, in 
this business, in the energy efficiency business, a serious and 
growing workforce issue to deal with. We have people who--I 
will take the responsibility and let my colleagues jump in on 
this--are, frankly, getting a little long in the tooth. We have 
been in this business maybe 20, 30 years or longer, and finding 
the people who will replace us and come behind us, let alone 
let this field grow, is not going to be easy. So I think there 
is a huge education and workforce development challenge, and I 
hope that we can address it together.
    Mr. Costello. Mr. O'Brien.
    Mr. O'Brien. You know, we have talked just a few minutes 
ago about the challenges of overcoming the mentality that 
focuses on the first cost, and I think that has a lot--I think 
we can take a look at the national--the lack of ability to move 
forward with a clear national energy strategy--in the same way 
that there is a limited political accountability for some of 
the consequences of maintaining the status quo, which, in the 
short run may be lowest first cost.
    If you took a national energy strategy that was more akin 
to a life-cycle cost, the long-term consequences, you would end 
up with a portfolio that would include a much heavier dosage of 
energy efficiency and onsite renewable energy.
    Mr. Costello. Mr. Stewart or Mr. Prindle, would you like to 
respond quickly? Mr. Prindle, apparently, had the answer to the 
question so----
    Mr. Prindle. The biggest obstacles to a national energy 
policy--I was going to say ignorance and apathy, but Mr. Harris 
spoke about education. I think he is really right, there. I 
think what we really have to grapple with in this new era of 
expensive energy and serious climate threat is we need to get 
past the argument about regulation versus markets. You know, 
there is this kind of split; you either have a free market 
energy policy or you have a regulated.
    And we don't see it that way. We think that smart 
regulation actually helps markets work better. And let's get 
past this idea of the free market is going to do it or you need 
to regulate every facet of a marketplace. We have seen States 
in particular come up with very smart regulatory policies that 
have helped their economies and helped their energy industries. 
And we can find that sweet spot where regulation actually 
drives markets forward. I think that is a message we need to 
get across.
    Mr. Stewart. I would simply add to the education 
discussion, is that a better understanding that the decisions 
we make today have a ripple effect on out through the decades 
for 50, 60, 70 years, and shortsightedness with which we tend 
to make these decisions really will be the problem that future 
generations will come back to us and ask, What were we 
thinking?
    Mr. Costello. The Chair thanks all of our witnesses here in 
this panel today, and this concludes the testimony and the 
questions from the second panel.
    We would ask those who are on the third panel testifying--I 
would expect that we would be back here in the Chair in about 
15 minutes and would ask you to be prepared to give your 
testimony. I will give an opening statement--a brief, very 
brief opening statement, and go directly to the third panel.
    But, again, gentlemen we thank you for being here and 
presenting your thoughtful testimony and answering the 
questions of the Members. Thank you.
    [Recess.]
    Mr. Oberstar. [Presiding.] The Committee will resume. And 
Mr. Costello, Chair of the Subcommittee on Aviation will return 
to continue chairing the proceedings.
    I regret that the announcement I made at the last vote was 
that this was the last vote that we were going to have of this 
kind. But there is still a disruption proceeding on the House 
floor that may go on for some time yet, a matter that we 
thought had been resolved at the leadership level, but there is 
still a Member proceeding on his own agenda, and we have no 
idea what is going to happen. So I would propose that we bring 
the Water Resources panel to the table. It will make for a long 
table. But make sure that we can get everybody together. And we 
will hear all testimony and then proceed with any questions 
that Members may have.
    So are all--is Mr. Brandt, Mr. Fitzgerald--I think there 
were some who had time constraints. We did not anticipate this 
to be a marathon 7- or 8-hour hearing today. But those are 
matters beyond our control.
    So we will begin in the order in which the witnesses are 
listed. And perhaps--no, we will just go through the Aviation 
panel and then the Water Resources panel. I think that is the 
best way to proceed.

    TESTIMONY OF JIM MAY, PRESIDENT AND CEO, AIR TRANSPORT 
   ASSOCIATION; GREG PRINCIPATO, PRESIDENT, AIRPORT COUNCIL 
  INTERNATIONAL--NORTH AMERICA; MICHAEL McQUADE, SENIOR VICE 
   PRESIDENT FOR SCIENCE AND TECHNOLOGY, UNITED TECHNOLOGIES 
    CORPORATION; AND RICHARD L. ALTMAN, EXECUTIVE DIRECTOR, 
         COMMERCIAL AIRCRAFT ALTERNATE FUELS INITIATIVE

    Mr. Oberstar. So, Mr. May, welcome to the Committee. Thank 
you for your patience throughout this long day. And welcome to 
the legislative process.
    Mr. May. Thank you, Mr. Chairman. This evening I would like 
to emphasize three key points. First, commercial airlines are 
extremely carbon efficient. Second, we are committed to driving 
our carbon efficiency even further. Third, as commercial 
aviation is a global industry, the United States should 
continue to support efforts by the International Civil Aviation 
Organization to further address aviation's contributions to 
climate change. Recent media reports from Europe have raised 
alarm bells about commercial aviation's contributions. Some 
rhetoric is extreme. Air transportation has been categorized as 
sinful.
    Let me try and set the record straight. Commercial aviation 
contributes about 2 percent of domestic U.S. greenhouse gas 
emissions. At the same time, commercial aviation is critically 
important to our economy, driving about 1.2 trillion in 
economic activity, 6 percent of the country's economic output, 
over 11 million jobs, nearly 9 percent of employment. We have 
been able to deliver more value to the economy and reduce our 
carbon footprint because we are constantly improving fuel 
efficiency.
    Since 2001, commercial aviation has achieved a 35 percent 
improvement. That is both in fuel efficiency and in our carbon 
footprint. U.S. airlines are highly motivated to continue the 
trend. Fuel is our largest cost, over $38 billion in 2006. But 
even in these highly constrained financial times, we have 
invested heavily in fuel-efficient capital and technology.
    In the next 3 years we are going to receive over 500 new 
highly fuel-efficient aircraft from companies, the likes of 
which are Boeing and Airbus, who have been doing a terrific job 
in improving their own technology. We have relentlessly pursued 
operational opportunities to reduce fuel burn, including 
cutting-edge software to permit more direct routes, aircraft 
weight reduction programs, and improve ground operations.
    There is a need for congressional leadership in three 
areas. First, you should ensure that this country's inefficient 
air traffic control system is modernized to permit more direct 
routing, saving fuel and emissions. Modernization can improve 
fuel efficiency----
    Mr. Oberstar. Excuse me, Mr. May, could you bring your 
microphone just a little closer to you?
    Mr. May. Yes, sir, Mr. Chairman.
    Mr. Oberstar. Thank you.
    Mr. May. Modernization will improve fuel efficiency and 
reduce greenhouse gas emissions an average of 10 to 15 percent 
on every single flight.
    Second, we urge Congress to reinvigorate NASA and FAA 
environmental aeronautics research and development.
    Third, we urge congressional action to spur further 
commercial development of alternative fuels. We urge Congress 
to move forward with legislation on all of these points.
    A significant part of ATA carriers' operations are 
international, and U.S. airlines compete vigorously in that 
format. In light of our global nature, ICAO has endorsed the 
use of voluntary measures, and adopted formal guidance on 
voluntary agreements and operational measures to reduce fuel 
burn and emissions, which ATA and its member carriers helped 
develop.
    Given these efforts, countries such as Japan, Canada, both 
of whom are parties to the Kyoto Protocol, and whose economies 
are closely aligned to the United States, have also chosen to 
address aviation greenhouse gas emissions through voluntary 
agreements.
    So I close by asking you to note the achievements of the 
industry in reducing fuel burn and emissions. And while we are 
asking for congressional leadership, we are not asking you to 
work for us; we are asking you to work with us in addressing 
the environmental concerns. Thank you.
    Mr. Costello. [Presiding.] Thank you, Mr. May.
    Mr. Principato.
    Mr. Principato. Thank you, Mr. Chairman, for allowing 
Airports Council International-North America to present the 
views of the Nation's airports on these important environmental 
issues. As has already been stated, the aviation sector 
contributes a very small amount to greenhouse gas emissions, 
yet ACI-North America members are doing their part to minimize 
impacts on climate change, just as they do in other areas such 
as water quality, noise, and local air quality.
    Greenhouse gas emission reduction strategies employed by 
airports have included investing in and promoting the use of 
alternative fuel and low-emission vehicles and energy saving 
equipment, recycling building and construction materials, waste 
and water, improving the operational efficiency of the airfield 
and landside systems, acquiring green power, and providing 
emissions-reducing services for aircraft at the gate.
    For example, Dallas-Fort Worth International Airport has 
converted nearly all of its fleet of vehicles to low-emission 
or alternative fuel. Portland and Denver have conducted 
inventories to determine their contribution to greenhouse gas 
emissions. Los Angeles has an onsite hydrogen fuel generating 
system. Numerous airports have installed 400-hertz power and 
preconditioned air units at gates to minimize emissions from 
aircraft auxiliary and ground power units. Sacramento installed 
a jet fuel pipeline to eliminate emissions from fuel truck 
traffic.
    Airports have also reduced greenhouse gas emissions by 
implementing initiatives to reduce waste disposal and energy 
use. Last year, Terminal A at Boston became the first airport 
terminal in the world to be certified by the U.S. Green 
Building Council as meeting the requirements for LEED, 
Leadership in Energy and Environmental Design. Several other 
airports are currently working toward LEED certification for 
new or renovated terminal projects, including Indianapolis and 
Oakland.
    Sustainability programs and environmental management 
systems, EMS's, are also becoming increasingly widespread at 
airports across the U.S. as mechanisms to minimize their 
environmental footprint. Chicago O'Hare has developed this 
Sustainable Design Manual to guide its entire modernization 
program. Miami-Dade, Westchester County, and Denver have also 
implemented EMS's.
    On the industry level, the Airport Cooperative Research 
Program has provided a valuable resource for airports in 
helping to better understand and address many of the 
environmental issues facing the industry. Now, to further 
support these efforts, ACI has advocated a number of very 
specific ideas. We are working very closely with the staff on a 
number of them.
    Rather than take the time to go through each of them, 
because we have spent a good deal of time working with the 
staff on AIP pilot programs and so forth to promote energy 
efficiency, low-emission vehicles and that sort of thing at 
airports, I just want to assure you that we are working very 
closely with the staff on these matters.
    I want to close by making two specific specific points: 
Number one, asking you to consider making ACRP permanent at the 
administration's requested level of $15 million, and also 
supporting the designation of $5 million for much-needed 
environmental research; and also, airports do support Next-Gen 
initiatives that will make the air traffic control system more 
efficient, both en route and on the ground, and reduce 
emissions and noise.
    So with that let me close, and offer to answer any 
questions you might have. Thank you.
    Mr. Costello. We thank you.
    And the Chair now recognizes Mr. McQuade.
    Mr. McQuade. Thank you, Mr. Chairman, for the opportunity 
to testify. I am Michael McQuade. I am the senior vice 
president for science and technology at United Technologies 
Corporation. I am very pleased to testify today.
    The approach Congress and businesses together adopt to 
tackle the climate change issues present both challenges and 
opportunities for the Nation.
    Let me tell you a little bit about UTC. We are a $50 
billion global company, a diversified company, headquartered in 
Hartford, Connecticut. Our chairman and CEO likes to say that 
our entire business is about combating gravity and the weather. 
We make things go up and down, we make things go hotter and 
colder. The common denominator in everything we do is the 
conversion of energy into useful work, whether it is in 
elevators or air conditioners or in the aerospace industry. So 
we are highly alert to the energy and conservation agenda for 
transportation and stationary applications.
    Through a series of technology process and policy 
initiatives in the company during the period from 1997 to 2006, 
UTC reduced our absolute energy use by 19 percent, even as we 
doubled the size of our company. So we believe we bring a 
credible voice to the policy debate, as we have been a leader 
in addressing climate change by reducing energy use in our 
global operations and incorporating energy efficient 
innovations in our products.
    Aviation is a global industry. On any given day, an 
airplane can literally be in multiple countries and on multiple 
continents. You have heard already from other witnesses about 
the importance of ICAO. We want to echo those remarks. ICAO, 
with its 190 contracting member states, is the place to 
establish guidance and policy to address global environment 
issues. We are an active participant with ICAO, and we support 
global solutions to global problems. We remain firmly committed 
in our support to alternate fuel initiatives, and participate 
fully in the work my colleague, Rich Altman from CAAFI, will 
describe next. At the same time, UTC believes the more 
immediate path to lower CO2 emissions for aviation is through 
energy efficient engine gains.
    Our Pratt & Whitney business makes military and commercial 
aircraft engines, and we are taking a leadership role in 
developing new technologies, such as our unique geared 
turbofan, that will offer significant improvements in fuel 
efficiency and thereby directly reduce carbon dioxide 
emissions. Pratt & Whitney will have in place production- ready 
engine technology for the next generation of single-aisle 
aircraft. Key elements of our technology include the geared 
turbofan, low-emission combustor technology known as TALON, an 
advanced high-pressure compressor, and a suite of new high-
pressure turbine technologies.
    This unique engine configuration offered by the geared 
turbofan will deliver 12 percent reduction in fuel burn over 
best current single-aisle engines, a 55 percent reduction in 
NOX emissions over the ICAO 2008 standard, a 20 percent 
reduction in noise over ICAO chapter 4 standards, and a 40 
percent reduction in engine maintenance costs. And just to 
note, a 12 percent reduction in the aviation industry fuel 
usage would save over $14 billion a year, a figure which would 
exceed the current profitability of the industry and lead to 
increased energy security by reducing our dependence on foreign 
oil.
    We are working in other areas to improve engine efficiency 
and reduce aircraft emissions. During the course of normal 
operations, airborne material is ingested into an aircraft 
engine and deposited on the internal parts. As you can imagine, 
over time this material builds up and leads to a drop in fuel 
efficiency. This performance deterioration can be restored by 
regular engine washing, which historically has been a very long 
process, using toxic chemicals. Pratt & Whitney has made this 
once labor- and time-intensive process operationally efficient 
with our environmentally friendly EcoPower Engine Wash System. 
Washing every engine airline system twice a year with EcoPower 
could save over half a billion gallons of fuel, the equivalent 
of 10 million pounds, or 5 million tons of carbon dioxide.
    Major sources of air pollution at our airports are not 
limited to aircraft operations. Ground vehicles, automobile 
shuttles and public transportation for people and goods, 
baggage handling, maintenance repair, all contribute to the 
energy and emission footprint. We see fuel cells as a solution 
for this component of airport emissions. With more than 40 
years of experience, UTC Power is the world leader and only 
company that develops and produces fuel cells for stationary 
transportation and space applications. Fuel cells combine 
hydrogen and oxygen to produce electricity with only two 
byproducts, heat that can be used for downstream heating, 
cooling and clean water. Fuel cells and other clean power 
technologies can be used to reduce air emissions for buses and 
ground support equipment, terminals, and adjacent hotel 
operations, backup power.
    Let me summarize. Energy conservation presents the greatest 
near-term opportunity to reduce both consumption and emissions 
and should be a high priority for our Nation. UTC is investing 
heavily, and working in partnership with various government 
agencies to bring climate-friendly technologies to the aviation 
industry. The Federal Government should increase its focus and 
investment in existing and emerging alternate energy efficiency 
technologies, should support the VALE portion of the FAA 
reauthorization proposal, and invest in those technologies that 
have a high potential to be affordable and cost-effective to 
lead to market acceptance. This is why we focus on fleet 
applications for fuel cells rather than the distributive 
automotive industry.
    We look forward to working with Members of this Committee 
and other stakeholders to ensure the commercialization of these 
advanced energy efficient technologies. Thank you for the 
opportunity to testify.
    The Chair thanks the gentleman.
    Mr. Costello. The Chair recognizes Mr. Altman.
    Mr. Altman. Thank you, Mr. Chairman, for providing the 
Commercial Aviation Alternative Fuel Initiative with the 
opportunity to testify on the compelling issues of climate 
change and energy independence as relates to aviation. It is 
particularly satisfying to me to be represented on the panel 
with three of our sponsors, the Airport Council International, 
ATA and United Technologies, as part of the Aerospace 
Industries Association. CAAFI is a data-gathering and 
communications process that seeks to increase both the quantity 
and the quality of dialogue among its airline, airport, 
manufacturer and FAA sponsors. It also seeks to engage multiple 
government, industry and university stakeholders.
    The fundamental belief of the sponsors in forming the CAAFI 
process is that aviation is data-driven and relatively small in 
size, allowing it to benefit from such a process. CAAFI 
sponsors and stakeholders recognize the data they develop and 
collect, in the hands of key analysts and decision-makers in 
such matters as safety, security, and the environment, will be 
a catalyst for informed and expedited solutions which serve all 
components of the supply chain well. Such clarity of solutions 
and messages, we believe, will spur suppliers to invest in 
solutions suitable for commercial aviation. The goal is to make 
our relatively small sector of the transportation market a 
customer of choice for alternative fuels.
    My role as executive director is simply to be the 
facilitator of that process. While I am an independent 
contractor to our FAA sponsor in this role, my task is to 
balance the interests of all four supply chain sectors. So 
getting to the aviation fuel option specifically, we are 
evaluating three fundamental categories. One, largely non-
renewable from coal and gas, could be available in the zero to 
5-year time frame, in some quantity; I want to make clear, not 
for all the total supply.
    As can be expected, there is far more data available on 
these sources, and consequently more information that will be 
discussed regarding both the technical and business 
perspectives.
    In near- to mid-term, 5 to 15 years, biodiesel renewables 
and some more difficult to extract non-renewable sources, such 
as shale oil, are possible, according to the United States Air 
Force Science Advisory Board. Blends of renewable and non-
renewable sources can be brought into play in this time period. 
Some analysis of how deployment can be effective in this area 
have been brought to CAAFI's attention, and I will address 
those very briefly.
    Long term, 15 years and beyond, biofuel renewable 
candidates from a variety of alternative processes could be 
targets for aviation. Let me give you a very brief summary of 
those three categories, both from the R & D certification and 
qualification status, the environmental status, and also what 
the business scenario looks like for each.
    In the case of the certification qualification of Fischer-
Tropsch coal-to-liquid or gas-to-liquid fuels, two specific 
types; one, Syntroleum, that flew last year on a B-52, and 
Sasol, a coal-to-liquid derivative, have been tested. The 
testing is complete to industry standards now, and could be 
qualified by midyear. There will be created a generic 
specification for coal-to-liquid or gas-to-liquid. Any Fischer-
Tropsch process will be completed by the end of the year. And 
then lastly, within the next year, about 100 percent will 
follow.
    In fact, the CO2 output of this particular item without 
coal capture or without carbon capture and sequestration is, in 
fact, worse. However, most of the plants that are being 
contemplated do have provision for sequestration. And in 
addition to that, they have the ability to use the carbon in 
some cases. Local air quality is extremely important in these 
cases, and the Fischer-Tropsch fuels we are talking about have 
significantly better attributes in terms of particle matter, 
and also in terms of sulfur, which is particularly significant 
in that it allows the same fuel to be used in ground equipment, 
could conceivably be used in jet aircraft.
    There have been significant studies done by the Department 
of Energy, and it shows affordable cost in this particular 
area. There is a limit in current production, and therefore 
incentives would be required to move forward. There are also, 
in the case of Fischer-Tropsch fuel, there is an opportunity to 
add biomass to that fuel. And those particular provisions, if 
they are at the 20 percent level, will create a significant 
opportunity.
    It is very significant, I think, to Mr. Costello that one 
of the studies that was done has been done by Princeton 
University in southern Illinois, Fayette County, showing the 
economics of combined Fischer-Tropsch and agricultural 
capability and how that could work.
    Lastly, the last option that we are looking at here are 
oils, vegetable oils, fuel from algae. That particular type of 
technology is further out in time, and the economic case for 
those types of renewables has yet to be made. I think it is 
important that it be looked at in similar depth to what's been 
looked at in the case of the Fischer-Tropsch coal-to-liquid 
fuels.
    So with that, I will leave with one final statement. And 
that is that the FAA authorization requests--and this was 
mentioned by Greg--in terms of the ACRP program, is extremely 
important in terms of the Clean Research Program that they have 
indicated they will spend on alternative fuels. Those two 
things the people who I work with consider to be right-sized 
and totally appropriate and should go forward in the 
reauthorization. Thank you.
    Mr. Costello. If the Chair would yield?
    Ms. Johnson of Texas. [Presiding.] Yes.
    Mr. Costello. Let me thank all four of you for your 
testimony. We will have questions for you concerning your 
testimony.
    At this time the gentlelady from Texas, who chairs the 
Water Resources Committee, will recognize the panel here to 
testify for water resources,
    Ms. Johnson of Texas. Thank you very much. And let me thank 
both panels for being so patient today to stay here all day. 
And I am going to call out of order, because Mr. Fitzgerald has 
to leave to get a plane. And he goes to Houston, Texas. And 
being from Texas, I am taking that liberty.
    I gave my opening statement about 1:30 today because that 
is the time that I was supposed to be up. And I came in here 
from another Committee and didn't learn until after that that 
was just a question period for the first panel. So thank you 
for being here. And Mr. Fitzgerald, you can make what statement 
you would like. And then we will get them to submit any 
questions they might have so you can get out on time.

 TESTIMONY OF STEVE FITZGERALD, CHIEF ENGINEER, HARRIS COUNTY 
   FLOOD CONTROL DISTRICT, HOUSTON, TEXAS, ON BEHALF OF THE 
    NATIONAL ASSOCIATION OF FLOOD AND STORMWATER MANAGEMENT 
     AGENCIES; BRIAN RICHTER, DIRECTOR, GLOBAL FRESHWATER 
 INITIATIVE, THE NATURE CONSERVANCY; ALF W. BRANDT, PRINCIPAL 
 CONSULTANT, COMMITTEE ON WATER, PARKS AND WILDLIFE, STATE OF 
  CALIFORNIA ASSEMBLY; AND LINDA STROUT, DEPUTY CEO, PORT OF 
    SEATTLE, ON BEHALF OF THE AMERICAN ASSOCIATION OF PORT 
                          AUTHORITIES

    Mr. Fitzgerald. Thank you very much. And on behalf of the 
National Association of Flood and Stormwater Management 
Agencies, or NAFSMA, I would like to thank you for this 
opportunity to present this testimony today. NAFSMA represents 
more than 100 local and State flood and stormwater management 
agencies. Our members are on the front line, protecting their 
communities from loss of life, and reducing flood damages to 
homes and businesses. Scientific analysis and interpretation of 
climate, weather and stormwater runoff data is of fundamental 
importance for the planning, design and operation of stormwater 
and flood protection facilities.
    Historical data and events are used by scientists and 
engineers to estimate risks and levels of protection for 
existing and future flood protection systems. Other factors 
clearly influence the decision of how to provide protection, 
such as lives at risk, damages avoided, environmental impacts, 
costs and ability to pay.
    So how does climate change affect local stormwater 
management agencies? It comes down to deciding whether to 
include climate change as a factor in estimating risk and 
levels of protection to size future flood protection facilities 
or modify existing ones. How much of the calculation should be 
based on historical data and how much on future climate 
projections? Presently, very few of our members are considering 
future climate change because of the many unknowns.
    NAFSMA has five recommendations for the Committee.
    Number one. At the Federal level, continue the targeted 
climate change research to establish public policy based on 
sound scientific research. NAFSMA supports the ongoing Research 
and Application Initiatives Assistant Secretary Woodley 
presented to this Committee last Friday. We also support 
inclusion of State and local officials in federally led 
research and policy development. All of the impact and much of 
the cost of any decision to incorporate or not to incorporate 
climate change as a design factor will be borne by State and 
local entities.
    Number two. Provide adequate funding for research and 
existing programs that address responses to our climate. 
Specific examples are the USGS stream-gauging programs. These 
gauges serve as the backbone of our stormwater and flood 
protection systems, the NOAA, NAFSMA and National Weather 
Service research efforts, FEMA's map modernization programs, 
that better defines risk for our local communities, and FEMA 
mitigation grant programs. And finally, the Corps of Engineers 
research efforts, water resources studies and projects, and 
operation and maintenance of existing facilities.
    Third recommendation. Allow projects to proceed under 
existing policies and design parameters. We need to provide 
definitive protection today instead of waiting for future 
climate conditions yet to be determined. This is in the public 
health and safety interest of local communities.
    Four. Once climate change-related policy is adopted, 
incorporate changes within current policies for planning, 
approval, funding, implementation, and operation so that the 
projects will be in place and work as intended when they are 
needed. Specific suggestions that update the current project 
evaluation process to give public safety equal standing with 
the national economic development standard, reduce the time to 
identify projects by eliminating redundancies and unnecessary 
steps, such as the Lean Six Sigma Process recently initiated by 
the Corps of Engineers, and streamline permitting for 
operations and maintenance of activities of flood protection 
facilities.
    And the final recommendation. Encourage strong and 
deliberate interagency coordination among Federal agencies. A 
good example of this has been the recent efforts by the Corps 
of Engineers and FEMA to address levee safety and flood risk 
reduction. Together they have initiated the national levee 
inventory program and a national flood risk management 
strategy, with active local, regional and State involvement.
    As climate change issues and impacts are addressed, 
cooperation and collaboration will be imperative to making 
sound and informed decisions. And thank you for letting me make 
this presentation today.
    Ms. Johnson of Texas. Thank you very much. And my staff 
person here will help you get out of this building if you don't 
know it real well.
    Mr. Fitzgerald. Okay. Thank you. I appreciate it.
    Ms. Johnson of Texas. We will go back to our regular order, 
unless someone else is in a real big hurry. Mr. Brian Richter 
is next. Oh, I am sorry, Dr. Gerald Galloway.
    Mr. Galloway. Thank you, Madam Chairman. Can you hear me? 
Can you put on the slides there, if you would?
    Thank you very much for giving me the opportunity to be 
here today. I am Jerry Galloway, President of the American 
Water Resources Association, which is a multidisciplinary group 
of professionals chartered to deal with water resources, 
education, research and management. And we are waiting for a 
slide. Let me continue.
    My message today is very straightforward. The United States 
faces significant water resource challenges, and we are not 
properly addressing these challenges. Climate change is only 
going to exacerbate the very challenges we have faced in the 
past and make it more difficult in the future.
    Next slide. Next slide.
    Water resources are a critical component of both our 
national security and our national economy. And we recognize 
that. I know the Members of the Committee are very familiar 
with the challenges illustrated on this slide, ranging from 
water shortages, water quality backsliding that is going on, 
the problems we have with ports and harbors in need of 
rehabilitation, losses in wetlands and habitat, problems with 
getting adequate funding for restoration in many areas where 
ecosystems are in great danger. Water conflicts still abound.
    Next slide.
    We also face significant challenges in the flood damage 
reduction area. The annual flood losses in this country are 
continuing to grow. Climate change will just make that worse.
    Next slide.
    The American Society of Civil Engineers biennial report on 
the status of our infrastructure clearly indicates that we are 
giving a very poor job, a grade of D, to the work that is going 
on. The backlog in annual shortfall of funds necessary for this 
infrastructure are in the tens of billions of dollars. And, 
again, climate change will just make this more difficult.
    Next slide.
    At the international level, something of importance for our 
national security, and mentioned earlier today, the U.N. 
Reports that 5 million people, mostly children, each year will 
end up having significant problems as a result of the lack of 
access to water.
    Next slide.
    What is interesting and illustrated in this slide is the 
fact that credible organizations report significant challenges 
with what water resources will look like in the future. We can 
see from this slide that we are dealing with increases in water 
at high altitudes, high latitudes, and in the mid-latitude 
areas an increase in the shortage of water, further 
exacerbating the drought that I mentioned earlier. We see that 
there are problems with the resilience of ecosystems and the 
challenges that we will face in dealing with sea level rise and 
the surges that will come as a result of hurricanes and other 
acts of nature in these coastal and riverine areas near the 
coasts.
    Next slide. Next slide.
    I think the major challenges in this area can be seen in 
coastal Louisiana, where the impacts of climate change 
increased the surge heights and increased elevations as a 
result of climate change make the challenges they already face 
even more difficult.
    Next slide.
    The work that is going on on examining the protection of 
Louisiana will become increasingly more important as we get 
more information and understand better what climate change is 
actually going to mean.
    Next slide.
    The AWRA conducted three water policy dialogues over the 
past 4 years at the request of 10 Federal agencies and 49 
governmental organizations. These dialogues brought together 
experts from around the country to discuss our Nation's water 
challenges. And it is important to note that as they developed 
the consensus, they represented all parts of the country as we 
moved forward to discuss the issues. The general conclusions 
are----
    Next slide.
    -- the Nation is operating without a sound understanding of 
the water challenges we face. We have not had a national water 
assessment since 1976. And given the impacts of climate change, 
it is critical that such a national assessment be undertaken.
    Second, the efforts to deal with water lack focus and 
immediate attention. Our Nation's approach to dealing with 
water has been ad hoc on a project basis versus a systems and a 
watershed basis and needs to be reformed.
    Next slide.
    The participants in the National Water Policy Dialogues 
concluded that the administration and Congress should work with 
Governors and leaders of the country to develop broad 
principles for water management. We don't have a vision. We 
don't have a national vision. We don't need a Federal vision. 
And there was a strong sense that the center of gravity for 
water issues should rest at the State level, as the Federal 
Government should provide support, with the States leading the 
way.
    They also determined that there should be better 
coordination of water resource activities among Federal 
agencies and within the Congress, and that the administration 
must encourage policies that promote watershed planning, and 
that ensure that our Nation's scientific talent is put to good 
use.
    Next slide.
    With specific respect to climate change, the Dialogue 
believes that Congress and the administration should provide 
adequate funding to Federal agencies to carry out climate 
change impact analyses for the planning of new projects, and 
most importantly, for the operations of those that are 
currently in existence. They have the authorization, but not 
the funding.
    And lastly, that Congress should closely examine the 
allocation of funds for water resources infrastructure. Our 
current situation points to the failure of current funding 
levels to adequately deal with the problems we now have. And 
climate change is just going to make that situation worse.
    Next slide.
    In sum, let me say that the stewardship of the Nation's 
water resources is being neglected. And the manner in which we 
deal with water issues and climate change in specific terms is 
dysfunctional. We urge you to initiate substantive efforts to 
develop a coordinated, collaborative national, not Federal, 
approach to preserving and protecting our water resources, our 
infrastructure, and the ecosystems they support.
    Thank you very much for the opportunity to testify today.
    Ms. Johnson of Texas. Thank you very much. We appreciate 
you being here.
    Mr. Brian Richter?
    Mr. Richter. Yes. Madam Chairman and Members of the 
Committee, I want to thank you for this opportunity to testify 
on the impacts of climate change on our water resources. My 
name is Brian Richter, and I am the director of the Global 
Freshwater Initiative for The Nature Conservancy. The Nature 
Conservancy is a leading conservation organization that 
protects ecologically important places for nature and for 
people. Our on-the-ground conservation work is carried out in 
all 50 States and in more than 30 other countries. While The 
Nature Conservancy's mission is focused on sustaining the 
Earth's diversity of plants and animals, we know the protection 
of ecosystems is also critical to human well-being. Therefore, 
we are gravely concerned about the potential for climate change 
to substantially disrupt the things that everyone in this room 
cares about: our economy, our culture, and the ecosystems that 
support our way of life.
    Failing to protect freshwater and coastal ecosystems from 
these climate changes will have tangible societal, cultural, 
and economic consequences. That is why The Nature Conservancy 
is calling for legislation and policies to address greenhouse 
gas emissions by establishing a strong, cost-effective cap and 
market-based program to reduce emissions. In addition, we 
believe that it is critical that such a program help to reduce 
emissions from deforestation and support land conservation by 
crediting activities that deliver sustainable, high-quality 
emissions reductions and carbon sequestration.
    Now, we also urge your support for adaptation programs that 
can help ecosystems, and the human communities reliant upon 
them, to cope with the impacts of climate change. As we all 
know, even immediate reductions in greenhouse gas emissions 
will not avert the expected climate impacts of gases we have 
already put into the atmosphere. Therefore, we need to ready 
ourselves for the associated changes that will come. To meet 
human and ecosystem needs in the face of climate change, we 
must do a much better job of comprehensively managing our water 
resources. Dr. Galloway made these points very eloquently a 
moment ago.
    First, we need to assimilate much better data on the 
availability of water and how it is being used. Today, most 
States possess only a rudimentary understanding of who is using 
water, how much they are using, when they use it, and how much 
is left for other purposes. Fortunately, there are promising 
efforts underway in a number of States, including Texas, which 
has developed state-of-the-art computer tools to help support 
water management. To ensure that all States have a similar 
ability to account for and manage water resources 
comprehensively, we must substantially increase State and 
Federal investment in basic water accounting, particularly for 
the U.S. Geological Survey and the United States Environmental 
Protection Agency.
    Comprehensive water management also involves improved 
management of our existing water infrastructure, such as the 
more than 2,000 large Federal dams in this country. By 
reevaluating current operations of these facilities, we can 
better serve human needs and adapt to changing conditions, 
while also protecting our natural ecosystems.
    For example, through a national partnership with the Army 
Corps of Engineers, called the Sustainable Rivers Project, The 
Nature Conservancy and the Corps are working together to 
improve the management of 27 dams in nine different river 
basins across the country. Together we are finding abundant 
opportunities to better protect the river ecosystems affected 
by these dams, while continuing to provide flood control, water 
supply, hydropower generation, and recreational benefits.
    The second issue I would like to address is substantially 
greater flooding of our Nation's coasts and inland waterways 
that is expected to occur with climate change. To adequately 
respond to more frequent and intense flooding, our flood 
management efforts must account for the services that are 
provided by healthy natural ecosystems. By allowing rivers to 
once again safely spill onto their original floodplains in 
places where they have been leveed or channelized in a 
carefully managed manner, we can restore critically important 
natural flood storage, while simultaneously increasing the 
production of fish and waterfowl, recharging our groundwater 
aquifers, and naturally purifying water as it flows through 
flooded wetland areas.
    By increasing the flood storage capacity of natural 
floodplains, some of the reservoir capacity presently being 
used to store floodwaters could be made available for storing 
water supplies that will be needed during more extreme droughts 
in the future.
    The Conservancy has already begun innovative projects that 
use nonstructural approaches to flood protection needs. In 
Hamilton City, California, along the Sacramento River, we are 
working to improve flood protection for a town whose only flood 
defense is a degraded levee that may not even hold during a 10-
year flood. This project will replace the existing levee with a 
setback levee that will provide vastly improved flood 
protection, while reconnecting the floodplain to the river. 
This win-win project increases the flood storage capacity of 
the river basin and provides critical habitat for wildlife.
    We must replicate projects like this around the country. To 
enable more of this work, we must increase investment in 
aquatic ecosystem restoration and create incentives that 
discourage development of critical floodplains and coastal 
wetlands.
    Finally, there is perhaps no smarter action that can be 
taken today than to simply do everything we can to preserve our 
future options and flexibility. When we allow people to use all 
of the water available from a river, we put those water users 
and the ecosystems they depend upon at great risk as the 
climate and associated water availability begins to change. The 
Nature Conservancy is working with leading scientists around 
the world to develop new decision tools to inform water 
managers about the volume of water that must be left in a river 
to support its health and our future needs. Many States are 
ready and willing to use these new tools, but they will need 
help and support from the Federal Government.
    In closing, it is important that all of our policy and on-
the-ground adaptation measures recognize the need to maintain 
healthy and resilient ecosystems that preserve the ability to 
adapt in the face of climate change and continue to meet the 
needs of both humans and wildlife. If we do, we can ensure that 
our rivers will continue to sustain us and inspire us.
    I want to thank you for your attention and this opportunity 
to share our thoughts with you today.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Brandt.
    Mr. Brandt. Thank you, Madam Chair. My name is Alf Brandt. 
I am the water law and policy expert for the California State 
Assembly, and I am here to talk a little bit about the policy. 
I am not a scientist, but we are--we have started a 
conversation about climate change in California and its water 
resources. And it is the fact that we have started the 
conversation. No, we don't have final answers, and no, we don't 
have final plans; but we have started the conversation and are 
starting to do things to respond to it and prepare for it. So 
that is what I would like to explain.
    And the first question would be why.
    Next slide.
    And part of that is the nature of our system. It is perhaps 
the most sophisticated water supply and flood system in the 
world, because it stores and conveys water for hundreds of 
miles. And this is the same system. Both the flood and the 
water system are combined. They rely on the same reservoirs and 
the same rivers to deal with both flood and supply.
    Next slide.
    And, of course, going down to the bottom of each of the 
major rivers in the Central Valley, Sacramento and San Joaquin, 
is the delta, which is critical to California.
    Next slide.
    Yes, it is perhaps some of the most valuable ecosystem, 
estuary ecosystem on the west coast of North or South America. 
It is also an agricultural area. But most importantly for this 
Committee, it is the heart, the true heart of the California 
water system. From the delta, the urban areas--yes, agriculture 
gets a lot of its water from here, but most importantly both 
the Bay Area and San Francisco, as well as Southern California, 
get about a third of their supply from the delta. It is 
critical.
    Next slide.
    And, of course, the delta is more than just a water 
conveyance as far as infrastructure goes. It is also--keep 
going--it is also infrastructure, urban infrastructure, 
highways, railroads, gas lines, electric lines, major power 
lines, although things are in the middle of the delta. So 
infrastructure is a critical part of why the delta is so 
important. And, of course, it is in the center, it is at the 
bottom of both streams, it is in the center of--go ahead--it is 
in the center of the Central Valley and in the middle of what 
used to be called and known by the Indians as the "inland sea." 
it is a bowl. And it is--it creates huge challenges, because 
this used to be, for many months of the year, a huge, perhaps 
40 miles wide, 200 miles long, inland sea for much of the year 
during the wetter months. Go on.
    Next slide.
    And what we did is we created these narrow channels, 
putting it into a narrow channel to wash down gold mining-era 
sediment and scour out those channels and get rid of that 
sediment to protect us, protect farmland at that point. Of 
course, next we put houses right next to it, as well at this 
point, thousands of houses across the Central Valley.
    Next slide.
    And of course this sophisticated system, the important part 
for climate change is the use of energy, use of power for our 
water system. About 19 percent of California's electrical 
energy is used by the water system, both to convey it, to treat 
it, to clean it up after it is used, before it is put back in. 
So it is a substantial amount of our energy is used by the 
water use--by the water system. So it is a critical tie to 
climate change.
    Next slide.
    Of course, add to that climate change, and you can see here 
some of the--just one the many graphs that we have seen of 
showing how much climate has changed in California. This goes 
up through 1995. And you can see some significant differences. 
Since then it continues. That trend continues. Warmer 
temperatures leads to less snow, more rain, earlier spring 
runoff, and for the purpose of this Committee, the interests of 
this Committee, that can lead to more floods.
    Next slide.
    Loss of our snowpack is critical to us, both to the water 
supply as well as the risk to floods. You can see this is a 
slide I chose--this is the worst case I have seen--that at the 
end of the century, we may be looking as bad as 11 percent of 
our snowpack. And we rely on the snowpack, both for water 
storage, seasonal water storage, so it comes down slowly so it 
can feed irrigation during the summer, as well as for flood 
protection. Because the more that comes down as rain, the 
higher the flood levels.
    Next slide.
    And that is consistent with what we have seen in the 100 
hundred years, a continuing trend going up as far as 
seriousness of the floods over the last 100 years. And that 
trend has advanced in the last 10 to 15 years.
    Next slide.
    Of course, that has led to greater awareness of the real 
risk to people from floods. This slide shows the depths. In 
some of these places it can be very deep. The dark blue shows 
more than 9 feet. Some of those areas are as deep as 20 feet 
deep. That is about the height of a 2-story house. That is how 
deep some of our floodplains are. So it is a serious risk for 
us. And climate change added to that makes it a major threat 
for us.
    Next slide.
    Of course, at the bottom of the system, suffering one of 
the greatest threats, is a delta which is created by a bunch of 
levees surrounding islands that were created in the last 150 
years. It is an area that has subsided. So many of these 
islands are below sea level. The orange areas that you see on 
this map are below sea level or below the water level right 
next to the island. As sea level, rise goes up and other kinds 
of influences, the floods coming down, all those make these 
levees more at risk. These are all private levees. These are 
not State or Federal levees.
    Next slide.
    And, of course, the risk for us, for our water supply, and 
for flooding if these levees collapse--say if there were an 
earthquake and many of these levees collapsed--this would turn 
into an inland sea, a very deep inland sea, no longer that 
wetland that was shown, but very much of an inland sea.
    Next slide.
    So that brings us to what we are doing. Keep going. This 
shows all the things that we have been talking about, we have 
been looking at, starting in the last year or so. Now, we 
haven't passed all these bills, but we have started the 
conversation about how to do it. Our State agencies have 
already started assessing how climate change can be 
incorporated into it and how we can manage for the uncertainty. 
We have started planning for climate change and dealing with 
floods, for instance, allowing for some of the flexibility to 
allow us to take water off the floodplain, off this river to 
predict that, and also dealing with floodplain land use so 
people in these deep floodplains are protected and not putting 
houses there. And we have had some great success with recycling 
and conservation, which contributes to reducing the greenhouse 
gases. And, of course, we are making choices, and we are 
looking at making choices--we haven't made them yet--based on 
climate change information. All that can be helpful.
    Next slide.
    So let's go next slide, to the information about the 
Federal Government. And I will just run through this quickly. I 
think this has already been talked about. Actually, this is 
consistent with both Mr. Richter and Dr. Galloway. But it is 
things that--I think the key point here is the relationship 
between the State and the Federal agencies on flood needs to 
change at this point, and particularly for California, whose 
voters have approved $5 billion in bonds for floods. The nature 
of the relationship, with the Corps not having the money that 
it used to have, we cannot afford to have them be in total 
control and get in the way of us trying to make some 
fundamental changes and choices about climate change. That may 
be different than what they have traditionally done. And I 
think that is the one I want to emphasize most. But just like 
we have started to incorporate climate change into planning, it 
is necessary that they start doing it as well. It is key for us 
to work together on doing this. And I wish you luck.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Linda Strout, you are the last witness. And that 
doesn't mean that your testimony is not very important. You may 
proceed.
    Ms. Strout. Thank you. My name is Linda Strout. I am the 
deputy CEO of the Port of Seattle, and today I am testifying, 
however, on behalf of the American Public Ports Association. 
AAPA represents all major public seaport agencies on the 
Pacific, Atlantic, Gulf and Great Lakes coasts. We thank you 
for the opportunity to testify today.
    Air emissions are an area of growing concern for U.S. 
public port authorities and the communities in which they 
operate. And reducing air emissions is a priority for our 
industry. The Port of Seattle and many AAPA members have been 
engaged in air quality improvement efforts related to seaports 
for several years. Recently, those efforts have grown to 
specifically include greenhouse gases. Greenhouse gas emissions 
related to ports are primarily carbon dioxide, formed whenever 
fuel is burned. And efforts to reduce these emissions have 
therefore focused on increasing fuel-use efficiency or the use 
of alternative fuels. Diesel engines power the yard equipment 
that handles containerized cargo, such as rubber-tired gantry 
cranes and yard hostlers, and they also power the trucks, the 
rail engines and the marine vessels used to bring cargo into 
and out of our ports. While remarkably efficient and durable, 
these engines are a significant source of air pollution.
    There are a number of ways to reduce diesel engine 
emissions, and ports across the country and across the world 
are engaged in a wide variety of programs and initiatives to 
reduce those emissions for their own facilities, their fleets, 
their vehicles, and their dock equipment within their control. 
Such efforts are detailed in the written testimony, but cluster 
in four main areas. And those are the use of alternative fuels, 
such as biodiesel, ultra-low sulfur diesel and blends, and some 
natural gas forms. Also, the use of electricity. The use of 
repowering, which is replacing older engines. And finally, 
retrofitting existing engines.
    At the ports of Seattle and Tacoma, nearly all of the yard 
equipment and the port's own diesel-powered vehicles are fueled 
by ultra-low sulfur diesel, biodiesel or a blend. At the Port 
of Seattle, in addition, now, our Shilsole Bay Marina, a 500-
slip recreational marina, makes biodiesel available to all 
recreational boats and tenants. The port of Long Beach is 
testing three liquefied natural gas yard hostlers, which the 
port estimates will produce a 60 percent reduction in NOX and 
an 80 percent reduction in particulate matter over conventional 
Tier II diesel engines. Electricity is being implemented as a 
diesel alternative at several ports, including L.A. For several 
cargo terminals, and in Seattle for its cruise terminals.
    At most major seaports now, the large cranes used to 
transfer containers between ships and terminals are all 
electric, and ports usually provide plugs on terminals for 
powering refrigerated containers instead of using diesel 
engines. We are aware that shoreside power for ships is not a 
one-size-fits-all solution. It is expensive. It requires 
substantial infrastructure. And if the electricity is produced 
by a source that is also creating greenhouse gases, then it is 
not a perfect solution.
    Repowering equipment that uses older legacy engines is a 
third strategy that has proven effective, generally by use of 
on-road engines to replace off-road equipment such as yard 
tractors. Both New York-New Jersey and L.A. have enjoyed real 
success in their programs in this regard.
    The fourth diesel emissions reduction strategy is that of 
retrofitting older diesel engines with a piece of after-
treatment technology such as diesel particulate filters, 
selective catalytic reduction systems, or diesel oxydation 
catalysts. An interesting example is the Port Authority of New 
York-New Jersey retrofitting one of the Staten Island ferries 
with two types of retrofit technology to achieve a more than 70 
percent reduction in NOX.
    All of these efforts focus on equipment within--that I have 
just described--focus on equipment within a port's control by 
lease or agreement or because it owns equipment. But I would 
want to spend a couple of moments focusing on the efforts 
within the port industry. Those are important, but outside of 
the port control, which is really where we can use help from 
Congress. Oceangoing vessels are, generally speaking, the most 
efficient way to move goods. And their demand, therefore, for 
their services is predicted to rise. Oceangoing vessel owners 
and operators are taking steps at lower emissions too. Some, 
like Westwood Shipping Lines, have chosen engines that are 
certified to reduce emissions. However, because the majority of 
vessels calling on the U.S. port facilities are foreign 
flagged, they are not regulated by EPA. The International 
Maritime Organization, IMO, sets standards for these vessels.
    In 1997, the IMO, as you all know, adopted Annex VI of the 
International Convention for the Prevention of Pollution from 
Ships, or MARPOL. AAPA supports the legislation to implement 
the MARPOL Annex VI treaty as quickly as possible. We applaud 
this Committee's leadership in the swift passage of H.R. 802 in 
this Congress, and we urge you to help ensure that the Senate 
addresses this issue as expeditiously as well. It is critical 
that the United States become a party to this treaty, which is 
the necessary regulatory mechanism to mandate lower ship 
emissions. Implementation of MARPOL Annex VI is supported by 
the shipping industry, as well as the port industry.
    Trucks and rail emissions outside of our fences also are 
not under port control. While new trucks must comply with EPA's 
on-road standards, older legacy engines can contribute 
disproportionate amount of air emissions. Port authorities do 
not own the trucks that--in general do not own the trucks that 
service their terminals, and therefore cannot mandate when 
older engines are retired or whether they are retrofitted.
    Another barrier to addressing truck emissions is the 
prevalence of independent owner-operators, who often simply do 
not have the capital to invest in expensive new equipment or to 
upgrade their vehicles before their engines become useless. 
Therefore, in order to more effectively reduce emissions on the 
land side of port operations, AAPA encourages Congress to fully 
fund the Diesel Emissions Reduction Act or the D-E-R-A, DERA.
    This legislation, which was enacted as part of the Energy 
Policy Act of 2005, would allow for up to 200 million annually 
for the EPA to fund voluntary emissions reduction projects at 
ports, some of which I described in construction equipment, in 
school bus fleets and in the movement of the freight. To date, 
EPA has funded 11 port-related projects with $1.9 million in 
Federal funds and 2.5 million in matching funds.
    Some of the projects have included installing diesel 
oxydation catalysts on cargo handling equipment at the ports of 
Philadelphia, Seattle, Houston, Tacoma, the Massachusetts Port 
Authority, as well as buying low-sulfur fuel for cruise ships 
in San Francisco.
    US EPA grant funding also supported the landmark Regional 
Maritime Emissions Inventory for the Puget Sound region that 
recently was completed by a collaborative group of air 
agencies, industry ports, and advocacy groups, and was led by 
the Port of Seattle. It is the first of its kind in the Nation, 
and it is under an agreement, a separate agreement reached with 
the Vancouver port in B.C. They will do a similar air emissions 
inventory that will utilize the same modeling so that the 
entire air shed will be reviewed in concert.
    Ms. Johnson of Texas. Can you begin to wrap up?
    Ms. Strout. Yes. I am right at the end.
    Finally, the Federal Government can help reduce port-
related air emissions through legislation that would encourage 
short sea shipping by eliminating the double collection of 
harbor maintenance tax on domestic-only movements. Getting rid 
of this financial barrier to the coastwide movement of cargo 
will encourage shippers to move goods by America's waterways, 
thereby taking trucks off the Interstates and reducing air 
pollution.
    AAPA wishes to commend Chairman Oberstar and Subcommittee 
Chair Cummings for their leadership in introducing H.R. 1499. 
Thank you very much for this opportunity to testify.
    Ms. Johnson of Texas. Thank you very much.
    And I now will recognize Mr. Costello to begin the first 
round of questioning.
    Mr. Costello. I thank the Chairlady.
    Mr. Altman, let me ask you, the Committee heard testimony 
earlier today from Jonathan Lash with the World Resources 
Institute. And in his testimony he indicated that coal-to-
liquid processing would be much more expensive than gasoline. I 
wonder if you agree and if you would state your opinion for the 
record.
    Mr. Altman. Well, again dealing with aviation, we are not 
talking about aviation gas. We are talking about a diesel form 
of fuel. In that particular case, there has been an excellent 
study done by Scully Capital, under contract to the Department 
of Energy, the Air Force and the EPA. And the conclusion that 
was reached was that on crude equivalent with carbon capture 
that the oil could be--that you could receive this kind fuel at 
$55 to $58 a barrel and allow the producer to have a 19 percent 
return on investment. That does not include the sequestration. 
If you were able to use an enhanced oil recovery, such as might 
be the case in Southern Illinois, that market would stand on 
its own. There have been other studies that I have seen. 
Nothing in terms of the data--and we are only a data collection 
agency-- all the data collection agency says we are now in the 
ballpark where you can start to have a discussion.
    That said, to get financing for the major projects there 
needs to be some level of support beyond the number that is 
being produced now, while Wall Street Standard and Poor said in 
order to finance the projects you need to be down in the $40 
area on a per-barrel basis in order to support a bond rating at 
a reasonable level. So I haven't seen any data. I have heard 
these words before. And, again, I am only a data collection 
agent for our sponsors, and the data that we have collected 
says that it is viable.
    Mr. Costello. I wonder, for the record, if you might 
explain the Fischer Tropsch process and how it converts 
renewables and nonrenewables into liquid jet fuel.
    Mr. Altman. Let me do this very briefly for you and try to 
put it in simple terms because I am not a chemist; I am a 
mechanical engineer, so it kind of hurts my cause to be able to 
do this. But basically what the Fischer Tropsch process does is 
it results and takes, in conjunction with gassification of 
solids, it allows with the use of catalysts the use of 
hydrocarbon chains through a process that simulates when it 
comes out the actual same output as you get in an oil refinery. 
So that process has been in use for--since the 1920s. The 
difference now is that the catalysts that are used and the 
processes of gassification if we are dealing with solids are 
much more sophisticated. There is a lot of activities going on 
in a number of the manufacturing customers here that will allow 
it to be much more economic. So while it has been around for 
nearly 80 years, we are in a position now where it can be far 
more economically than it has been previously.
    Mr. Costello. I think you indicated in your testimony that 
it could be approved for use in aviation by the middle of this 
year. Is that correct?
    Mr. Altman. That is correct. There are two fuels that have 
been tested; one is a 50-50 blend of Syntroleum. All of the 
necessary R&D has been done in that particular process, 
including missions measurements, which have shown some very 
favorable local air quality aspects. The Air Force indicates 
now that they should be ready about mid-year with that. The 
testing on 100 percent liquid from the Sasol Corporation was 
completed in January at United Technologies Research Center 
where Mr. McQuade is. And that now in conjunction with the 
other companies that were involved, which included Rolls Royce 
and also General Electric were all involved, the whole industry 
was involved, has produced the necessary data to pursue the 
approvals. And the estimates that have been provided to me by 
those people indicate that could happen in mid-year as well.
    That said, you have two point sources. The effort right now 
of the capping certification qualification committee in 
conjunction with the Air Force is to put together a generic 
specification for all fuels of this nature. When the Air Force 
put out a request for information last year on the acquisition 
of these fuels, there were 27 qualified suppliers that came 
into play. So to limit the capability of just Sasol or 
Syntroleum would not be economically the best situation for us. 
So a very concentrated effort and great cooperation between the 
FAA and the Air Force on this right now. And I think it is 
going to be a very good exercise.
    The issue is going to be, how do you get sufficient supply. 
Right now the problem is that if you took all of the plants 
that are under the DOE planning process and dedicated a third 
of that to aviation, we still wouldn't have enough fuel to 
support O'Hare's 80,000-barrel-a-day hunger for fuel.
    Mr. Costello. Mr. McQuade, can you tell us a little bit 
about the Pratt and Whitney testing of the geared turbo fan and 
how that turbo fan engine differs from the engines of today?
    Mr. McQuade. I would be happy to. Thank you very much. In a 
conventional jet engine, the fan, which is the big bladed 
object on the front, the fan has two responsibilities. It pulls 
air in through the compressor and turbine for combustion later 
in the engine. But in a modern bypass engine, a significant 
portion of that air is taken through, around the outside to 
generate thrust out of the back of the engine. Turns out a fan 
really wants to run at a lower speed than a compressor and 
turbine. You want the fan to run at lower speed, be bigger, to 
move a lot of air, and move at low speed so it is quieter, to 
meet the noise requirements for our in city airports.
    In a normal jet engine, the fan, the compressor and turbine 
all rotate on the same shaft. It has taken 20 years of 
technology development to devise a geared means todecouple the 
rotation of that fan so that gives you the ability to take the 
compressor and turbine, let them run at a high speed, high-
speed turbine could be done, high-speed compressor could be 
done with a smaller number of parts; therefore they run more 
efficiently. They reduce the weight, the maintenance 
requirements. At the same time, the fan now geared to run at a 
slower speed operates much more efficiently than a normal 
configuration, runs slower, runs quieter. That is what 
generates the kind of numbers I talked about before, roughly 12 
percent engine burn efficiency reduction, roughly 20 DB noise 
reduction versus current standards.
    So it is a long development program underway. Good testing 
that is underway right now. It is our expectation it will be 
available for the next generation aircraft with the air framers 
they are working on.
    Mr. Costello. Thank you.
    I thank the Chairman.
    Ms. Johnson of Texas. The Chair recognizes Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair. Just a few quick 
questions and observations.
    Mr. May, you were very pointed in your remarks about the EU 
and emissions trading and emissions tax. In the beginning of 
April bipartisan Committee Members met with Jacques Barrot, the 
minister of transport for the European Union, and two members 
of the European Parliament Committee on Transportation as well 
as other, the EUROCONTROL, the European aviation safety agency 
recently established, and many others. We later met with Air 
France, with the minister of aviation and transportation for 
France. We made it very clear that whatever Europe does in its 
sovereign air space is their business, but it is not their 
business to tell us what to do in our sovereign air space.
    I acknowledged in the conversation that, in 1990, as Chair 
of the Aviation Subcommittee, we ran 10 years ahead of Europe 
on emissions--I am sorry, on noise--on noise and that it took 
Europe 10 years to catch up with us. That was unilateral. But 
that was our air space. We didn't attempt to tell Europe what 
to do in their air space. And we are not going to accept Europe 
telling us what to do in our air space. That should give you 
some comfort.
    Mr. May. Mr. Chairman, I applaud your position, obviously. 
We know and respect Mr. Barrot. He is a fine fellow, and we 
have done a lot of business with him. But the aviation 
marketplace and the environmental marketplace in the United 
States is vastly different than it is in Europe. I think that 
is one of the principal reasons that we have always advocated 
working with ICAO. And broadly for voluntary standards that is 
underway. I think the other thing that we appreciate is the 
fact that you and the other Members of the Committee appreciate 
that the aviation industry is probably one of the greenest 
forms of transportation available, and we very much appreciate 
that support.
    Mr. Oberstar. I would state it was a bipartisan initiative, 
and Mr. Costello can verify, he was there for every bit of the 
discussion, and we--but we didn't say that means hands off on 
emissions, and made it clear that we are going to have this 
hearing and Mr. Altman's testimony is significant but also Mr. 
Principato. And I pointed this out to the Europeans, that it is 
not just airplanes; it is what is on the ground at airports. 
And, furthermore, if you take a look at the world fleet, there 
are10,000 aircraft worldwide; 5,000 of the world's commercial 
aviation fleet is in the United States. Of that 5,000, roughly 
10 percent, 500-plus, are in the international trade. That is a 
small fraction of emissions and of contribution to carbon in 
the atmosphere. It is not insignificant and it is not to be 
ignored, but it is one in which there is a concerted effort in 
the United States, and we welcome Europe in a joint effort with 
the United States, not on regulation but on research, 
development, testing, engineering, to bring new fuels, to bring 
higher-quality engines, higher productivity. Europe should join 
us rather than simply initiating a regulatory regime.
    I yield to my colleague, Mr. Costello.
    Mr. Costello. I couldn't have said it any better. I mean, 
the Chairman of the Full Committee was very clear in making 
that point, and I think the other point that we made as well is 
that we are not a parliament; that the Congress has a large 
voice in the policy that will go forward and that we are a co-
equal branch of government and not a parliament. I think the 
message was delivered very loud and clear. I thank the Chairman 
for yielding. If I can make another point on the issue of 
talking about the environment and green initiatives. I just 
want to state that we were at O'Hare International Airport to 
attend a briefing on the modernization program, and I have to 
tell you that Mayor Daley and the City of Chicago really should 
be complimented on what they are doing, not only in the 
modernization program, what they are doing as far as the green 
roof of the new air traffic control tower. I think it will be 
the first in the Nation. And in addition to that, in the 
construction of the additional runway and the modernization 
program, they have gone really out of their way to retrofit. It 
has been a model project, and I would hope that other airports 
throughout the country would take a look at what Mayor Daley 
and the City of Chicago has done with the modernization 
program.
    Mr. Oberstar. I concur. I didn't have the briefing at 
O'Hare; I had it here. I concur with your remarks that the 
initiative at O'Hare is really significant and representative 
of what airports working with airlines can accomplish. Mr. 
McQuade, you discussed the engine washing with atomized--what 
is atomized water?
    Mr. McQuade. Very highly particulate waters, special 
nozzles.
    Mr. Oberstar. I see what you mean. Sure. I understand that. 
But the savings in fuel is enormous.
    Mr. McQuade. Yes, it is. It is an enormous savings.
    Mr. Oberstar. Do all airlines engage in this technique?
    Mr. McQuade. The eco power system is a relatively new entry 
to market.
    Mr. Oberstar. Not that they are all using this particular 
technology, but as you said, this technology raises the 
savings. Mr. Altman, do you have further ideas on alternative 
fuels and higher capacity, higher fuel-saving engines?
    Mr. Altman. Well, not on the engines. I ended that part of 
my career December 31st and left it to Mike here, working a 
great deal of the time by the way on the geared fan, which I 
fully believe in, and it is encouraging to see the support that 
the corporation is providing it now. So I don't have any ideas 
on engines themselves. I will leave that to Pratt and Whitney, 
GE, and Rolls Royce. In the fuels area, I do think it important 
that there be an equivalent, so we can talk about data and not 
broad statements, equivalent look at the renewables side of the 
equation here. I know Boeing is very committed to looking at 
oil production, as are the engine companies, as is NASA. I know 
that Jim made a statement about NASA research. And one of the 
discussions that I think is important is that NASA continued 
work in this area. It is extremely important. They are putting 
about $3 million this year into the process. We need to make 
sure that continues to happen, go forward, and it is not all 
left to the FAA and that NASA continues to do this work. I know 
that is not the jurisdiction of this Committee, but I think it 
is critical. I would very much like to see the next initiative 
of DOE in partnership perhaps with the Agriculture Department, 
which I know has some interest in this area, to look at 
renewable fuels and just how that could work economically in a 
similar way to what Scully Capital had done.
    Mr. Oberstar. I think the challenge is getting the energy 
output, the power output per pound of fuel comparable to that 
of today's----
    Mr. Altman. That is. The other point I should make for 
aircraft fuel, aircraft fuel is very different, obviously, and 
it's specification is much tighter for safety reasons. There 
are two primary reasons why biofuel needs to be looked at. One 
is the freezing point of the temperature. The reason there is 
no discussion of ethanol in our business and some of the other 
processes is simply because the freeze point of the fuel is too 
high.
    Mr. Oberstar. We heard that earlier in the day with 
railroads.
    Mr. Altman. When you fly up 30,000, 40,000 feet in very low 
speed conditions, it is even more important. The other thing 
that is not mentioned as often is the significance of what we 
refer to as thermal capacity. And the ability of the Fischer 
Tropsch fuels we are looking at right now to absorb a lot more 
heat in the fuel without creating a maintenance problem for 
fuel nozzles. This is very important on modern engines and 
modern airplanes because there is a lot more power offtakes. 
For example, in the military, the next version of a military 
aircraft will probably get ten times as much heat rejection to 
manage as a JSF airplane right now. The Fischer Tropsch fuels 
go in the right direction for that, including the use of bio 
mass. The fuels that NASA has tested so far in the bio area go 
in the wrong direction, so thermal capacity is actually 
reduced. It is extremely important that the technical side of 
the biofuels effort continue and we do the economics in 
parallel, but right now, there is a gap in that area, 
particularly looking at things like vegetable oil, algae, which 
is a form of fuel that is being looked at, and you are so very 
right about the quantities that may be available from the bio 
measures. There just really hasn't been enough study done. 
There will be more data coming out from both the Air Force and 
DOE here I am told within the next month. They are doing some 
additional studies looking very hard, certainly at the bio mass 
side of the equation.
    Mr. Oberstar. Thank you very much. I would say to the 
aviation panel that suggestions that you may have for 
legislative initiatives, Mr. Costello is continuing with a 
series of hearings on the reauthorization. We are also at the 
same time_the Full Committee with all the Subcommittees_
participating, preparing an agenda of legislation for the 
leadership's overall energy initiative to reach the floor in 
July. We will have--our goal is to have a legislative package 
by the end of June so it can be submitted for this general 
initiative.
    Ideas you have, we would like you to get those into the 
Aviation Subcommittee and to the Full Committee as well to 
initiate that. As to the water panel, they had very specific 
suggestions, we would like to invite you to make those 
recommendations, and of course the statements that have you 
already submitted have been a wealth of knowledge about the 
subject matter.
    I have no further questions, Madam Chair. We might dismiss 
the aviation panel and proceed with questions for the water 
panel. Thank you.
    Ms. Johnson of Texas. Thank you very much for your 
testimony. Mr. Richter, can you expand on the planning tools 
that were developed for the Texas water planning program?
    Mr. Richter. Yes, Madam Chairman. I am very happy to do so 
because I think this is a great area where the great State of 
Texas can take pride in how they are approaching water resource 
management. I think there are probably three things to 
highlight about the Texas approach. One is that they have 
invested considerably in collecting information about who is 
using water, where they are using it, how much they are using 
it and compiling that information into a computer model that 
can be used to inform decision-making. Very, very important 
investments made in that respect.
    The second factor is that they have facilitated stakeholder 
participation throughout the State, 20 different watershed 
planning groups that have been working on making decisions 
about what they want their water future to look like, what kind 
of protection of the natural environment, what type of water 
development facilities need to be built. And this is an 
opportunity for fishermen and farmers and government leaders to 
interact with each other in making those decisions about the 
future of the State.
    The third area is that Texas has shown true leadership in 
thinking about how to protect the river system's natural 
environment through providing what we refer to as environmental 
flow protection. In other words, how much water and what timing 
of water flows is necessary to remain in the rivers in order to 
sustain the health of those rivers. I think this really springs 
from the fact that Texans have a deep and abiding love for 
their rivers, and they use them for fishing and recreation and 
scenic attraction, and it is a mainstay of the tourism 
industry, as you know. I think that they are appropriately 
putting, placing adequate value on the protection of the 
natural environment while they are trying to meet all of these 
other water needs.
    Ms. Johnson of Texas. Can this model be expanded 
nationally, do you think?
    Mr. Richter. Yes. I think the basic approach certainly can 
be. Not to suggest that there aren't some other States that are 
doing an excellent job of management as well, but I think, 
again, the three points that I emphasized and in particular the 
investment in the data collection so that they really 
understand how much water is available, how much water is 
flowing through their streams. A couple of other presenters 
placed a lot of emphasis on the importance of investing in data 
collection and data collection technologies. The U.S. 
Geological Survey as well as the State water agencies are very, 
very important providers of that type of information, and 
without that type of information, we simply cannot make 
informed decisions about their future use of water supplies.
    Ms. Johnson of Texas. What about how the levee setbacks can 
benefit eco systems and flood control?
    Mr. Richter. The basic idea here is that, in some 
instances, through our efforts to manage floods or control 
floods, that we have really enclosed or encased the rivers in 
many places so narrowly that it is beginning to cause some 
problems. It puts a tremendous amount of pressure on the levees 
to hold back the floods. But, more importantly, it takes away 
the natural abilities of a flood plain to store flood water. 
And so the idea is that, as you move those existing levees back 
away from the river, you are creating a lot of natural space 
out in the flood plain to store those flood waters. The win-win 
benefits though come from the fact that, by doing so, you allow 
the river to behave more like a natural river. And that is very 
good for the wildlife that is dependent upon the river, very 
good for water quality benefits, and the river begins to 
function as a more healthy river when you move those levees 
back.
    Ms. Johnson of Texas. Thank you.
    Dr. Galloway, would you like to comment on that?
    Mr. Galloway. I would certainly agree with my colleague; I 
think it is a real challenge. Many levees in this country are 
accidents of their birth. They grew into a levee, and they were 
on the bank in their precarious positions. The challenge, in 
many places, is homes are next to those levees. So how do you 
accommodate the levee setback without a major real estate 
action? That is what is taking place in several areas. Clearly 
where it is possible in rural areas where it has not been 
developed, levee setbacks make great sense, and you can see 
that happening in the State of California. They are looking at 
ideas like that. I think it has to be something to be 
considered. The challenge is in areas where it is highly 
developed, it is very difficult to do so.
    Ms. Johnson of Texas. Thank you.
    Mr. Brandt, we don't know exactly what climate change 
impacts are going to be so should the Federal Government wait 
until we are sure on exactly what climate change impacts will 
be before we start to----
    Mr. Brandt. I would say, no. In fact, to quote someone just 
a couple days ago from the Merced Irrigation District, which 
operates a reservoir and is trying to get a rule change from 
the Corps, we can't afford to wait.
    Things are happening; change is already happening, first of 
all. The second piece is, we may never know, and that is part 
of the challenge and that is the direction we are going, is we 
are managing for uncertainty, we are anticipating that we are 
not going to know exactly what is going to happen. And that is 
the challenge of using things like setback levees or being able 
to take water off to prepare for those uncertain floods that 
come suddenly, and we may need to prepare but in a controlled 
way to take it off. So I don't think we can afford to wait 
until we know because we may never know exactly. We need to 
start moving to start incorporating the information we do have. 
For California, we are fortunate to have a lot of information. 
We have top flight academics and an agency doing a lot of work 
with this. We have a model, those kinds of things. So we have a 
lot of information to get started on.
    Ms. Johnson of Texas. What can other States take from 
California's experience?
    Mr. Brandt. I think the first step and that is the biggest 
thing that we have had just in the last couple of years, which 
is starting to acknowledge that things are changing and things 
have changed rapidly in the last 15 to 20 years and taking that 
first step to incorporate the information that we do have into 
their planning and into their project and their choices about 
what kind of infrastructure that they build. There is a lot of 
information out there that they can at least start to 
incorporate. They may not have perfect answers but they can 
start.
    Ms. Johnson of Texas. Thank you. Dr. Galloway, I have been 
very impressed with your statements. Would you please comment 
on the state of the Nation's water monitoring system, if it is 
adequate, if upgrades are needed?
    Mr. Galloway. Depends on what you are monitoring for. 
Certainly, I would say, we are in trouble in many of those 
areas. A few years back, a couple of years back, the former 
assistant administrator of EPA, Tracy Mehan, was quoted in a 
magazine as saying, we can't tell you what the quality of the 
water is in this country because we don't have the assessment 
and monitoring mechanisms.
    We know that each year we are losing gauges on our rivers 
that tell us the history on which we base future projections 
and deal with the issues of climate change. It is always easy 
to push aside the maintenance and the upgrade of monitoring 
systems, and I am afraid we have done that. If we want to have 
the quality systems necessary to do the adaptive management 
that my colleague Brian Richter has discussed and do the things 
that the State of California is moving to understand better 
climate change, we need more monitoring, and we are not 
investing in the monitoring we need.
    Ms. Johnson of Texas. Thank you. Ms. Strout, we hear a lot 
about more water into the bodies of water from melting and of 
course more pollution in the water. How do you think that is 
going to affect the ports?
    Ms. Strout. I think sea level rise is one of the critical 
areas that ports are concerned about. Clearly ports are located 
in coastal areas and sea level rise would have a huge impact on 
dock levels, berthing, where the berths are located, how they 
should be restructured or reconfigured to handle the heavy 
equipment that rests on top of them like the huge container 
cranes and also another area of global warming that is of 
concern to ports is the impact on rainfall density and wind 
velocity in storms and the increase in storms that might be 
expected in the world's oceans, the disruptions to commerce 
that might flow from that.
    Ms. Johnson of Texas. Thank you very much. I think we are 
at the end of this day, believe it or not. Well, Ms. Napolitano 
is coming in, from California. Do you have any questions for 
the water panel? I should have known you would.
    Ms. Napolitano. Thank you, Madam Chair. There have been 
questions in regard to the water issues in California, and 
since I am the Chair of the Subcommittee on Water and Power, 
part of it is dealing with the issue of global warming, the 
precipitation loss, less precipitation, less water delivery to 
the cities, to the users. And recently, the Governor issued a 
statement that in essence indicated that he was very much for 
increasing the funding for above-ground water storage; dams, in 
other words. Well, all great and good except, not only are they 
exceedingly expensive, they take a long time to put into use. 
In the meantime, we are losing out on the ability to be able to 
store, whether it is underground, in storage capacity that our 
State has.
    The question then as he addressed the Association of 
California Water Agencies in the spring conference and 
indicated, I am not quoting, that investing in conservation 
only is not enough to solve our water problem alone. 
Conservation alone does not provide flood protection; 
conservation alone will not allow us to take full advantage of 
our ground water storage potential; and conservation alone 
cannot get California through a prolonged drought either. We 
need additional above-ground storage.
    Do you agree with the statement?
    Mr. Brandt. Representative Napolitano, well, storage, yes, 
but surface storage, not necessarily. Surface storage may not 
be the place we need it. It may not be on the river where we 
need it. We need to have a lot more flexibility to allow ground 
water storage. It may be conservation may not be enough. But 
there are a number of ways. And this is another example where 
flood and water supply come together because there may be 
opportunities to have what our Department of Water Resources 
started calling flood plain storage, in other words, we reduce 
the flood but at the same time allows it to infiltrate into the 
aquifer. We already have a sophisticated ground water banking 
system, although, like Texas, we don't have a ground water 
management system in California. But we have that kind of thing 
and that is what the urban areas are relying on.
    So there are needs for storage. There is a need for 
additional storage. But whether that is a surface storage, a 
very big dam that produces very little yield, I mean, the dam 
that the Governor is proposing is a million acre-foot size and 
produces about 165,000 acre-foot in production or in supply 
every year, or yield. So, no, we don't need a big dam, but we 
need to look at a variety of things. And allowing for 
flexibility, allowing for that uncertainty to take off water 
wherever it comes down, it may not be on that particular stream 
where the dam is.
    Ms. Napolitano. Thank you. That is very refreshing to hear 
because we have discussed the many other areas that we should 
be looking at and increasing the recycling capability of many 
of the city's waste water and being able to find aquifers to 
store rain water when you have excess flooding water.
    It bothers me that somehow somebody is convincing the 
Governor that, in order to address global warming, we should do 
thus and such. Well, it is okay if we had lots of time. We 
don't. We need to start looking at the imminent threat of 
another drought cycle and the fact that we must understand how 
our cities have to start gearing themselves to protect their 
supply and to be able to have enough for the patterns of growth 
that California still is experiencing.
    Mr. Brandt. Yes, and that is the challenge that ties 
together climate change and floods that ties together water 
supply. All those things interact and are interdependent, by 
doing a diverse set of things, and there is no magic pill, no 
big project, not like a hundred years ago when Los Angeles 
built the Owens Valley Project and Mr. Mulholland said here's 
the water, take it, and that was it. We have to do a number of 
things. A lot of things these other witnesses have talked about 
are all part of the answer.
    Ms. Napolitano. One of the other issues we were just 
discussing with my water staff is Arizona's ability to take 
gray water, rinse, whatever, and be able to get credit to able 
to put that back into use through a recycling process. Have we 
looked at other States, what they are doing? To be able to then 
realize that we may have another source of water that we can 
clean and put back into use?
    Mr. Brandt. Yes, we have been looking at other States as 
well to see what we can learn, just as I think other States may 
look at us. The gray water issue is a hugely controversial 
public health issue that has a long way to go. There are a lot 
of other ways we can deal with things more effectively, 
including recycling and conservation, upfront and more quickly.
    Ms. Napolitano. But we have taken waste water and utilized 
it. Why can't we take gray water and clean it and utilize it?
    Mr. Brandt. It is the nature of how you use it and the 
issues of piping. There are a whole range of issues that go 
into gray water that are not quite the same as recycling. So 
that is why we haven't gone there yet at this point in 
California.
    Ms. Napolitano. Then maybe something in the future we might 
consider as we face more drought and more global warming 
challenges.
    Mr. Brandt. There are many things we can do. there are many 
things that we can do. Gray water may be the thing, but that 
may be the step a couple steps down the road.
    Ms. Napolitano. Great. Thank you, Madam Chair. Appreciate 
you being so patient.
    Ms. Johnson of Texas. Thank you very much. Does the 
Chairman have any final words?
    Mr. Oberstar. Thank you, Madam Chair. I particularly want 
to express my appreciation to this panel for your forbearance, 
your patience and understanding of the legislative process; 
well, maybe not understanding, but at least tolerance of it. It 
was one of these moments in history that we didn't expect to be 
here at 7:00 tonight.
    Reminds me of just a little historical footnote. In 1964, I 
was on the staff of my predecessor. The House Judiciary 
Committee was considering the Johnson administration civil 
rights bill, and the Judiciary Committee was meeting as we have 
been, except they were in markup. And they started about the 
same time. They went late into the evening, and it was 
Representative Wagner of Louisiana who was opposed to 
everything that the Judiciary Committee was doing to establish 
civil rights for African Americans, to protect their rights to 
vote, to exercise their rights in every aspect of society.
    And Mr. Wagner called a quorum call as frequently as the 
legislative process on the floor allowed him to do that, which 
was roughly about the same we had here, about every half hour 
and sometimes more often. In those days, we had what were 
called notice quorum calls, where Members would appear on the 
House floor; and if 100 appeared, that was a quorum of the 
Committee of the Whole and would suffice. And Members were not 
recorded, and they would go back to their rooms. As soon as 
they did, he would call a quorum call again, saying that you 
don't have 100 Members on the floor.
    So either you had to maintain 100 Members continuously on 
the House floor to allow the House to continue its House in the 
Committee of the Whole, to continue its business, or keep 
running back and forth.
    That disrupted the Judiciary Committee. But the Judiciary 
Committee, both Democrats and Republicans, maintained their 
presence, and they kept going to the floor, recording their 
presence, coming back to Committee and, by 11:00 at night, 
concluded the markup on the Civil Rights Act of 1964, which 
Lyndon Johnson signed into law.
    What was happening on the floor today was nowhere near the 
moment in significance of what happened in 1964, but it sure 
disrupted our proceedings. And in the end, there was an 
underlying issue that turned out to be a rumor, not a reality. 
And that has been resolved. And then a Member who was 
disappointed that his amendments were not made in order under 
the Defense Authorization Bill, which is now being considered 
on the floor, has conceded to his leadership that we ought to 
proceed with the regular order. That explains what was 
happening, but it also gives you a little historical 
perspective.
    Ms. Strout, your testimony was excellent. But you also, as 
did Mr. Principato for the airports, talk about, discuss 
initiatives that ports are taking to deal with air emissions in 
the port jurisdiction. Ultra low sulfur diesel, natural gas and 
using electricity and compressed natural gas stations, all of 
those contribute to reducing pollutants, particulates and 
carbon, particularly emissions in the port area. If you have 
some further suggestions about what the Committee might do to 
support those initiatives, I would welcome them if you have any 
further comment.
    Ms. Strout. I guess not at this time. I am not sure; was 
there some particular area that you would like me to address?
    Mr. Oberstar. If you think there are some legislative 
initiatives that we can include in the climate change package 
that we are submitting, such as emissions issued by trucks and 
locomotives that operate at the port, the non-port specific 
activities, those are things that we can deal with. An 
interesting initiative that I didn't have time to raise with 
the rail panel was, I have been a great advocate for magnetic 
levitation rail. But it was the Port of Long Beach, Los 
Angeles, that came up with the great idea. While the technology 
now has been perfected, it is operating in Japan, operating in 
test tracks in Germany, and the General Automics, which had the 
contract with the U.S. Department of Transportation, came to me 
with the idea that we can now apply it at the Port of Long 
Beach, Los Angeles, which rather than send rail and truck into 
the interior to riverside, we could put a mag lev in operation. 
It is above ground, the footprint is much smaller than rail, 
and of course vastly less than trucks, put the containers on 
the mag lev and have a continuos loop bringing empties back to 
the port and sending full containers inland. And with the rail 
infrastructure loan program, it can borrow the funds to build a 
facility, and you have a paying customer, which you don't have 
for other proposals that have surfaced with the RIF loan 
program. That makes an awful lot of sense and is another one of 
the great California initiatives.
    Ms. Strout. This is not maybe as far thinking as that, but 
we certainly do see a need for some way, some mechanism to 
change out old engines in trucks. Truck diesel particulates is 
one of the major, major issues, and of course, having rail go 
someplace is great, but the rail can only go where the rails 
are set. So trucks will always play a part in the distribution 
system, but the more we can do because of the high impacts of 
diesel particulates, the more that we can do to create programs 
that encourage, that provide incentives and actually provide 
independent operators who don't have a lot of capital of their 
own some way to move, upgrade their truck engines would do a 
lot of good. And we are actually at AAPA looking ourselves to 
try to figure out some way to come up with a program that is 
not overly capital-intensive but could help out in that area.
    Mr. Oberstar. Thank you. I welcome your suggestions.
    Mr. Richter and Dr. Galloway, you both emphasized an issue 
that I have long advocated, and that is watershed approach to 
planning and coordinating water resources activities. Mr. 
Richter, your comment, let rivers flow, rings a responsive cord 
with me. In the 1850s, when the treaties were being negotiated 
with the National Government and the Native American tribes--
and I have read a great many of the treaties that apply in 
Minnesota; six tribes are in my district--they conclude with 
this remarkable phrase, that the words of this treaty will 
remain in effect as long as rivers flow.
    But I think your point, to let rivers flow in their natural 
meandering pattern that naturally creates power absorption 
channels in the riverbed rather than channeling and rushing and 
losing the sediment deposition effects that create wetlands and 
create mitigation forces against floods.
    Mr. Richter. Yes.
    Mr. Oberstar. Mr. Brandt, your testimony is remarkable. I 
would say, as a former staff member, that it is typical of the 
attention to detail that a staff person must do, and your 
astonishing slide on the snow pack, I have not only 
professional and intellectual interest, but I also have 
personal interest, two beautiful granddaughters that live in 
that flood plain off the Sacramento River.
    Mr. Brandt. Urge them to move.
    Mr. Oberstar. So I am going to pay very careful attention 
to the level of flood protection in the levees along the 
Sacramento and American Rivers. I don't want those 
grandchildren standing on the roof of their homes waving white 
handkerchiefs, saying, Coast Guard, come rescue us.
    Mr. Brandt. I hope not, and that is one of the challenges 
we face. At this point, the legislature is in the middle of the 
challenge of, how do we deal with those deep flood plains, how 
do we make sure people are out of harm's way. The Governor for 
the first time actually a few weeks ago finally said, I am 
ready for a bill on flood plain land use to come to my desk, 
and I will sign it. That was a major change, and I think we 
will see flood plain land use to make sure people in those deep 
flood plains_there are not more houses put in those deep flood 
plains and more people at risk.
    But that is a challenge. That is a huge challenge. You can 
understand the challenge of developers and builders taking on 
and saying, ``we don't want any of those restrictions.'' But I 
think you will be seeing that in the next year. That is the 
kind of climate change issue we are confronting. The important 
part is we have taken that first step to actually say we have 
actually got to deal with this.
    Mr. Oberstar. Climate change is creeping north in my 
district in Minnesota, such that the resort operators and maple 
sugar gatherers, including those of the Native American tribes, 
now don't know when the flow will start from the maple trees 
because it is getting earlier and earlier in the season. And if 
your snow pack is melting in the Sierra Nevadas, I didn't 
believe this, but my son said, well, you know, they get 20 to 
30 feet and 40 feet of snow. I said, you mean inches. No, feet.
    So I went up to see that much snow. We used to have a lot 
of snow in Minnesota but nothing like that. But if it is down 
27, 30 percent and more, doesn't mean you are not getting the 
moisture; it means that the moisture will not be in frozen form 
and dissipate more gradually. It will mean huge runoff, and it 
will mean that that moisture will be lost to the lower reaches 
of California that depend upon it.
    Mr. Brandt. That is right.
    Mr. Oberstar. That may mean more basins for retention, may 
mean more resources spent in controlling that water and 
protecting it for the future. That is a climate change issue we 
have to address. I will yield to the gentlewoman.
    Ms. Napolitano. Thank you, Mr. Chairman.
    I was just going to address Natomis and some of those areas 
in the flood plain, because when I served in the State house, I 
would watch ships going by. And I was about 20 feet looking up. 
Well, the sad part is anything happens and any of those levees 
go, there is not going to be a developer that is going to sit 
there and say, I am responsible; I am putting money in it. And 
the people on councils who approved them may not be there when 
this happens, and then, of course, the insurance companies are 
going to turn around and say, sorry, you didn't pay for this 
insurance.
    So who are the losers? The people. Who do they look to? The 
Federal Government for the bailout. So it is a real, very 
important issue for those people living in those areas, and the 
fact that the developers, bless their hearts, they are trying 
to make money, which is okay, but unfortunately, the people who 
are going in there paying for something, should an emergency 
ever occur--good heavens, I hope not--it is going to be the 
taxpayers.
    Mr. Brandt. The key piece is communicating that, and one 
issue that is in front of you, has been in front of you is this 
concept under FEMA of the 100-year flood plain. Many of these 
people who live in Natomis were told when they moved in there, 
oh, we are out of the flood plain. We are not in a flood plain 
because they have 100-year levees. That kind of certainty with 
climate change just isn't go to work any more. They need to 
understand residual flood risk, and they are still at risk even 
if they have a 100-year flood levee. That changes as we learn 
more and with climate changes. But that is the challenge, 
trying to communicate that to everyone, that if you are going 
to live in that place, that is still a flood plain and you are 
still at risk.
    Ms. Napolitano. Thank you.
    Ms. Johnson of Texas. Thank you very much. Thank you, Mr. 
Chairman, for your extraordinary contributions. Thanks to all 
of you for being here and being so patient. We had no control 
over what happened today. If we could have, we would have made 
it different. Thank you, again. Committee adjourned.
    [Whereupon, at 7:19 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5926.159
    
    [GRAPHIC] [TIFF OMITTED] T5926.160
    
    [GRAPHIC] [TIFF OMITTED] T5926.161
    
    [GRAPHIC] [TIFF OMITTED] T5926.162
    
    [GRAPHIC] [TIFF OMITTED] T5926.163
    
    [GRAPHIC] [TIFF OMITTED] T5926.164
    
    [GRAPHIC] [TIFF OMITTED] T5926.165
    
    [GRAPHIC] [TIFF OMITTED] T5926.166
    
    [GRAPHIC] [TIFF OMITTED] T5926.167
    
    [GRAPHIC] [TIFF OMITTED] T5926.168
    
    [GRAPHIC] [TIFF OMITTED] T5926.169
    
    [GRAPHIC] [TIFF OMITTED] T5926.170
    
    [GRAPHIC] [TIFF OMITTED] T5926.171
    
    [GRAPHIC] [TIFF OMITTED] T5926.172
    
    [GRAPHIC] [TIFF OMITTED] T5926.173
    
    [GRAPHIC] [TIFF OMITTED] T5926.174
    
    [GRAPHIC] [TIFF OMITTED] T5926.175
    
    [GRAPHIC] [TIFF OMITTED] T5926.176
    
    [GRAPHIC] [TIFF OMITTED] T5926.177
    
    [GRAPHIC] [TIFF OMITTED] T5926.178
    
    [GRAPHIC] [TIFF OMITTED] T5926.179
    
    [GRAPHIC] [TIFF OMITTED] T5926.180
    
    [GRAPHIC] [TIFF OMITTED] T5926.181
    
    [GRAPHIC] [TIFF OMITTED] T5926.182
    
    [GRAPHIC] [TIFF OMITTED] T5926.183
    
    [GRAPHIC] [TIFF OMITTED] T5926.184
    
    [GRAPHIC] [TIFF OMITTED] T5926.185
    
    [GRAPHIC] [TIFF OMITTED] T5926.186
    
    [GRAPHIC] [TIFF OMITTED] T5926.187
    
    [GRAPHIC] [TIFF OMITTED] T5926.188
    
    [GRAPHIC] [TIFF OMITTED] T5926.189
    
    [GRAPHIC] [TIFF OMITTED] T5926.190
    
    [GRAPHIC] [TIFF OMITTED] T5926.191
    
    [GRAPHIC] [TIFF OMITTED] T5926.192
    
    [GRAPHIC] [TIFF OMITTED] T5926.193
    
    [GRAPHIC] [TIFF OMITTED] T5926.194
    
    [GRAPHIC] [TIFF OMITTED] T5926.195
    
    [GRAPHIC] [TIFF OMITTED] T5926.196
    
    [GRAPHIC] [TIFF OMITTED] T5926.197
    
    [GRAPHIC] [TIFF OMITTED] T5926.198
    
    [GRAPHIC] [TIFF OMITTED] T5926.199
    
    [GRAPHIC] [TIFF OMITTED] T5926.200
    
    [GRAPHIC] [TIFF OMITTED] T5926.201
    
    [GRAPHIC] [TIFF OMITTED] T5926.202
    
    [GRAPHIC] [TIFF OMITTED] T5926.203
    
    [GRAPHIC] [TIFF OMITTED] T5926.204
    
    [GRAPHIC] [TIFF OMITTED] T5926.205
    
    [GRAPHIC] [TIFF OMITTED] T5926.206
    
    [GRAPHIC] [TIFF OMITTED] T5926.207
    
    [GRAPHIC] [TIFF OMITTED] T5926.208
    
    [GRAPHIC] [TIFF OMITTED] T5926.209
    
    [GRAPHIC] [TIFF OMITTED] T5926.210
    
    [GRAPHIC] [TIFF OMITTED] T5926.211
    
    [GRAPHIC] [TIFF OMITTED] T5926.212
    
    [GRAPHIC] [TIFF OMITTED] T5926.213
    
    [GRAPHIC] [TIFF OMITTED] T5926.214
    
    [GRAPHIC] [TIFF OMITTED] T5926.215
    
    [GRAPHIC] [TIFF OMITTED] T5926.216
    
    [GRAPHIC] [TIFF OMITTED] T5926.217
    
    [GRAPHIC] [TIFF OMITTED] T5926.218
    
    [GRAPHIC] [TIFF OMITTED] T5926.219
    
    [GRAPHIC] [TIFF OMITTED] T5926.220
    
    [GRAPHIC] [TIFF OMITTED] T5926.221
    
    [GRAPHIC] [TIFF OMITTED] T5926.222
    
    [GRAPHIC] [TIFF OMITTED] T5926.223
    
    [GRAPHIC] [TIFF OMITTED] T5926.224
    
    [GRAPHIC] [TIFF OMITTED] T5926.225
    
    [GRAPHIC] [TIFF OMITTED] T5926.226
    
    [GRAPHIC] [TIFF OMITTED] T5926.227
    
    [GRAPHIC] [TIFF OMITTED] T5926.228
    
    [GRAPHIC] [TIFF OMITTED] T5926.229
    
    [GRAPHIC] [TIFF OMITTED] T5926.230
    
    [GRAPHIC] [TIFF OMITTED] T5926.231
    
    [GRAPHIC] [TIFF OMITTED] T5926.232
    
    [GRAPHIC] [TIFF OMITTED] T5926.233
    
    [GRAPHIC] [TIFF OMITTED] T5926.234
    
    [GRAPHIC] [TIFF OMITTED] T5926.235
    
    [GRAPHIC] [TIFF OMITTED] T5926.236
    
    [GRAPHIC] [TIFF OMITTED] T5926.237
    
    [GRAPHIC] [TIFF OMITTED] T5926.238
    
    [GRAPHIC] [TIFF OMITTED] T5926.239
    
    [GRAPHIC] [TIFF OMITTED] T5926.240
    
    [GRAPHIC] [TIFF OMITTED] T5926.241
    
    [GRAPHIC] [TIFF OMITTED] T5926.242
    
    [GRAPHIC] [TIFF OMITTED] T5926.243
    
    [GRAPHIC] [TIFF OMITTED] T5926.244
    
    [GRAPHIC] [TIFF OMITTED] T5926.245
    
    [GRAPHIC] [TIFF OMITTED] T5926.246
    
    [GRAPHIC] [TIFF OMITTED] T5926.247
    
    [GRAPHIC] [TIFF OMITTED] T5926.248
    
    [GRAPHIC] [TIFF OMITTED] T5926.249
    
    [GRAPHIC] [TIFF OMITTED] T5926.250
    
    [GRAPHIC] [TIFF OMITTED] T5926.251
    
    [GRAPHIC] [TIFF OMITTED] T5926.252
    
    [GRAPHIC] [TIFF OMITTED] T5926.253
    
    [GRAPHIC] [TIFF OMITTED] T5926.254
    
    [GRAPHIC] [TIFF OMITTED] T5926.255
    
    [GRAPHIC] [TIFF OMITTED] T5926.256
    
    [GRAPHIC] [TIFF OMITTED] T5926.257
    
    [GRAPHIC] [TIFF OMITTED] T5926.258
    
    [GRAPHIC] [TIFF OMITTED] T5926.259
    
    [GRAPHIC] [TIFF OMITTED] T5926.260
    
    [GRAPHIC] [TIFF OMITTED] T5926.261
    
    [GRAPHIC] [TIFF OMITTED] T5926.262
    
    [GRAPHIC] [TIFF OMITTED] T5926.263
    
    [GRAPHIC] [TIFF OMITTED] T5926.264
    
    [GRAPHIC] [TIFF OMITTED] T5926.265
    
    [GRAPHIC] [TIFF OMITTED] T5926.266
    
    [GRAPHIC] [TIFF OMITTED] T5926.267
    
    [GRAPHIC] [TIFF OMITTED] T5926.268
    
    [GRAPHIC] [TIFF OMITTED] T5926.269
    
    [GRAPHIC] [TIFF OMITTED] T5926.270
    
    [GRAPHIC] [TIFF OMITTED] T5926.271
    
    [GRAPHIC] [TIFF OMITTED] T5926.272
    
    [GRAPHIC] [TIFF OMITTED] T5926.273
    
    [GRAPHIC] [TIFF OMITTED] T5926.274
    
    [GRAPHIC] [TIFF OMITTED] T5926.275
    
    [GRAPHIC] [TIFF OMITTED] T5926.276
    
    [GRAPHIC] [TIFF OMITTED] T5926.277
    
    [GRAPHIC] [TIFF OMITTED] T5926.278
    
    [GRAPHIC] [TIFF OMITTED] T5926.279
    
    [GRAPHIC] [TIFF OMITTED] T5926.280
    
    [GRAPHIC] [TIFF OMITTED] T5926.281
    
    [GRAPHIC] [TIFF OMITTED] T5926.282
    
    [GRAPHIC] [TIFF OMITTED] T5926.283
    
    [GRAPHIC] [TIFF OMITTED] T5926.284
    
    [GRAPHIC] [TIFF OMITTED] T5926.285
    
    [GRAPHIC] [TIFF OMITTED] T5926.286
    
    [GRAPHIC] [TIFF OMITTED] T5926.287
    
    [GRAPHIC] [TIFF OMITTED] T5926.288
    
    [GRAPHIC] [TIFF OMITTED] T5926.289
    
    [GRAPHIC] [TIFF OMITTED] T5926.290
    
    [GRAPHIC] [TIFF OMITTED] T5926.291
    
    [GRAPHIC] [TIFF OMITTED] T5926.292
    
    [GRAPHIC] [TIFF OMITTED] T5926.293
    
    [GRAPHIC] [TIFF OMITTED] T5926.294
    
    [GRAPHIC] [TIFF OMITTED] T5926.295
    
    [GRAPHIC] [TIFF OMITTED] T5926.296
    
    [GRAPHIC] [TIFF OMITTED] T5926.297
    
    [GRAPHIC] [TIFF OMITTED] T5926.298
    
    [GRAPHIC] [TIFF OMITTED] T5926.299
    
    [GRAPHIC] [TIFF OMITTED] T5926.300
    
    [GRAPHIC] [TIFF OMITTED] T5926.301
    
    [GRAPHIC] [TIFF OMITTED] T5926.302
    
    [GRAPHIC] [TIFF OMITTED] T5926.303
    
    [GRAPHIC] [TIFF OMITTED] T5926.304
    
    [GRAPHIC] [TIFF OMITTED] T5926.305
    
    [GRAPHIC] [TIFF OMITTED] T5926.306
    
    [GRAPHIC] [TIFF OMITTED] T5926.307
    
    [GRAPHIC] [TIFF OMITTED] T5926.308
    
    [GRAPHIC] [TIFF OMITTED] T5926.309
    
    [GRAPHIC] [TIFF OMITTED] T5926.310
    
    [GRAPHIC] [TIFF OMITTED] T5926.311
    
    [GRAPHIC] [TIFF OMITTED] T5926.312
    
    [GRAPHIC] [TIFF OMITTED] T5926.313
    
    [GRAPHIC] [TIFF OMITTED] T5926.314
    
    [GRAPHIC] [TIFF OMITTED] T5926.315
    
    [GRAPHIC] [TIFF OMITTED] T5926.316
    
    [GRAPHIC] [TIFF OMITTED] T5926.317
    
    [GRAPHIC] [TIFF OMITTED] T5926.318
    
    [GRAPHIC] [TIFF OMITTED] T5926.319
    
    [GRAPHIC] [TIFF OMITTED] T5926.320
    
    [GRAPHIC] [TIFF OMITTED] T5926.321
    
    [GRAPHIC] [TIFF OMITTED] T5926.322
    
    [GRAPHIC] [TIFF OMITTED] T5926.323
    
    [GRAPHIC] [TIFF OMITTED] T5926.324
    
    [GRAPHIC] [TIFF OMITTED] T5926.325
    
    [GRAPHIC] [TIFF OMITTED] T5926.326
    
    [GRAPHIC] [TIFF OMITTED] T5926.327
    
    [GRAPHIC] [TIFF OMITTED] T5926.328
    
    [GRAPHIC] [TIFF OMITTED] T5926.329
    
    [GRAPHIC] [TIFF OMITTED] T5926.330
    
    [GRAPHIC] [TIFF OMITTED] T5926.331
    
    [GRAPHIC] [TIFF OMITTED] T5926.332
    
    [GRAPHIC] [TIFF OMITTED] T5926.333
    
    [GRAPHIC] [TIFF OMITTED] T5926.334
    
    [GRAPHIC] [TIFF OMITTED] T5926.335
    
    [GRAPHIC] [TIFF OMITTED] T5926.336
    
    [GRAPHIC] [TIFF OMITTED] T5926.337
    
    [GRAPHIC] [TIFF OMITTED] T5926.338
    
    [GRAPHIC] [TIFF OMITTED] T5926.339
    
    [GRAPHIC] [TIFF OMITTED] T5926.340
    
    [GRAPHIC] [TIFF OMITTED] T5926.341
    
    [GRAPHIC] [TIFF OMITTED] T5926.342
    
    [GRAPHIC] [TIFF OMITTED] T5926.343
    
    [GRAPHIC] [TIFF OMITTED] T5926.344
    
    [GRAPHIC] [TIFF OMITTED] T5926.345
    
    [GRAPHIC] [TIFF OMITTED] T5926.346
    
    [GRAPHIC] [TIFF OMITTED] T5926.347
    
    [GRAPHIC] [TIFF OMITTED] T5926.348
    
    [GRAPHIC] [TIFF OMITTED] T5926.349
    
    [GRAPHIC] [TIFF OMITTED] T5926.350
    
    [GRAPHIC] [TIFF OMITTED] T5926.351
    
    [GRAPHIC] [TIFF OMITTED] T5926.352
    
    [GRAPHIC] [TIFF OMITTED] T5926.353
    
    [GRAPHIC] [TIFF OMITTED] T5926.354
    
    [GRAPHIC] [TIFF OMITTED] T5926.355
    
    [GRAPHIC] [TIFF OMITTED] T5926.356
    
    [GRAPHIC] [TIFF OMITTED] T5926.357
    
    [GRAPHIC] [TIFF OMITTED] T5926.358
    
    [GRAPHIC] [TIFF OMITTED] T5926.359
    
    [GRAPHIC] [TIFF OMITTED] T5926.360
    
    [GRAPHIC] [TIFF OMITTED] T5926.361
    
    [GRAPHIC] [TIFF OMITTED] T5926.362
    
    [GRAPHIC] [TIFF OMITTED] T5926.363
    
    [GRAPHIC] [TIFF OMITTED] T5926.364
    
    [GRAPHIC] [TIFF OMITTED] T5926.365
    
    [GRAPHIC] [TIFF OMITTED] T5926.366
    
    [GRAPHIC] [TIFF OMITTED] T5926.367
    
    [GRAPHIC] [TIFF OMITTED] T5926.368
    
    [GRAPHIC] [TIFF OMITTED] T5926.369
    
    [GRAPHIC] [TIFF OMITTED] T5926.370
    
    [GRAPHIC] [TIFF OMITTED] T5926.371
    
    [GRAPHIC] [TIFF OMITTED] T5926.372
    
    [GRAPHIC] [TIFF OMITTED] T5926.373
    
    [GRAPHIC] [TIFF OMITTED] T5926.374
    
    [GRAPHIC] [TIFF OMITTED] T5926.375
    
                                    

</pre></body></html>
